<html>
<title> - COMBATING TERRORISM: THE ROLE OF THE AMERICAN MEDIA</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]


 
                          COMBATING TERRORISM:
                     THE ROLE OF THE AMERICAN MEDIA

=======================================================================

                                HEARING


                               before the

                 SELECT COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 15, 2004

                               __________

                           Serial No. 108-57



    Printed for the use of the Select Committee on Homeland Security


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                    U.S. GOVERNMENT PRINTING OFFICE
25-548                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012006


                 SELECT COMMITTEE ON HOMELAND SECURITY



                 Christopher Cox, California, Chairman

Jennifer Dunn, Washington            Jim Turner, Texas, Ranking Member
C.W. Bill Young, Florida             Bennie G. Thompson, Mississippi
Don Young, Alaska                    Loretta Sanchez, California
F. James Sensenbrenner, Jr.,         Edward J. Markey, Massachusetts
Wisconsin                            Norman D. Dicks, Washington
David Dreier, California             Barney Frank, Massachusetts
Duncan Hunter, California            Jane Harman, California
Harold Rogers, Kentucky              Benjamin L. Cardin, Maryland
Sherwood Boehlert, New York          Louise McIntosh Slaughter, New 
Joe Barton, Texas                    York
Lamar S. Smith, Texas                Peter A. DeFazio, Oregon
Curt Weldon, Pennsylvania            Nita M. Lowey, New York
Christopher Shays, Connecticut       Robert E. Andrews, New Jersey
Porter J. Goss, Florida              Eleanor Holmes Norton, District of 
Dave Camp, Michigan                  Columbia
Lincoln Diaz-Balart, Florida         Zoe Lofgren, California
Bob Goodlatte, Virginia              Karen McCarthy, Missouri
Ernest J. Istook, Jr., Oklahoma      Sheila Jackson-Lee, Texas
Peter T. King, New York              Bill Pascrell, Jr., New Jersey
John Linder, Georgia                 Donna M. Christensen, U.S. Virgin 
John B. Shadegg, Arizona             Islands
Mark E. Souder, Indiana              Bob Etheridge, North Carolina
Mac Thornberry, Texas                Ken Lucas, Kentucky
Jim Gibbons, Nevada                  James R. Langevin, Rhode Island
Kay Granger, Texas                   Kendrick B. Meek, Florida
Pete Sessions, Texas                 Ben Chandler, Kentucky
John E. Sweeney, New York

                      John Gannon, Chief of Staff

       Stephen DeVine, Deputy Staff Director and General Counsel

           Thomas Dilenge, Chief Counsel and Policy Director

               David H. Schanzer, Democrat Staff Director

             Mark T. Magee, Democrat Deputy Staff Director

                    Michael S. Twinchek, Chief Clerk

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Select Committee on 
  Homeland Security..............................................     1
The Honorable Jim Turner, a Representative in Congress From the 
  State of Texas, and Ranking Member, Select Committee on 
  Homeland Security..............................................    28
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................     1
The Honorable Jennifer Dunn, a Representative in Congress From 
  the State of Washington........................................     3
The Honorable Jim Gibbons, a Representative in Congress From the 
  State of Nevada................................................    36
The Honorable Jane Harman, a Representative in Congress From the 
  State of California............................................     4
The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Texas........................................    64
The Honorable Nita M. Lowey, a Representative in Congress From 
  the State of New York..........................................    52
The Honorable Ken Lucas, a Representative in Congress From the 
  State Kentucky.................................................    55
The Honorable Christopher Shays, a Representative in Congress 
  From the State of Connecticut..................................    52

                               WITNESSES
                                PANEL I

Mr. Scott Armstrong, Director, Information Trust:
  Oral Statement.................................................    14
  Prepared Statement.............................................    19
Mr. Marvin Kalb, Author and Senior Fellow, Joan Shorenstein 
  Center on the Press, Politics and Public Policy, John F. 
  Kennedy School of Government, Harvard University...............     5
Mr. Frank Sesno, Professor and Senior Fellow, Critical 
  Infrastructure Protection Project, George Mason University:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10

                                PANEL II

Mr. Gregory Caputo, News Director, WGN-TV, Chicago, IL:
  Oral Statement.................................................    45
  Prepared Statement.............................................    47
Ms. Barbara Cochran, President, Radio-Television News Director 
  Association:
  Oral Statement.................................................    39
  Prepared Statement.............................................    41
Mr. Robert Long, Vice President and News Director, KNBC, Los 
  Angeles, CA:
  Oral Statement.................................................    48
  Prepared Statement.............................................    50

                             FOR THE RECORD

Mr. Randy Atkins, Senior Media Relations Officer, National 
  Academy of Engineering, The National Academies.................    71


                          COMBATING TERRORISM:
                     THE ROLE OF THE AMERICAN MEDIA

                              ----------                              


                     Wednesday, September 15, 2004

                          House of Representatives,
                     Select Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:46 a.m., in Room 
2318, Rayburn House Office Building, Hon. Christopher Cox 
[chairman of the committee] presiding.
    Present: Representatives Cox, Dunn, Shays, Camp, Gibbons, 
Turner, Dicks, Harman, Lowey, Andrews, Norton, McCarthy, 
Jackson-Lee, Christensen, Etheridge, and Lucas.
    Chairman Cox. [Presiding.] I want to thank all who have 
joined us this morning and particularly our witnesses. There is 
a great deal of business going on simultaneously in the Capitol 
because we are down to our last few days of session. But I 
understand that our ranking member is going to join us shortly 
and that Mr. Dicks is going to join me in a brief opening 
statement.
    In accordance with committee rules, those who are present 
within 5 minutes of the gavel and waive their opening statement 
will be allotted 3 additional minutes for questioning. Members' 
written statements may be included in the record.
    The Chair is going to recognize first the gentleman from 
Washington for any opening statement he wishes to make.
    Mr. Dicks. Thank you, Mr. Chairman. I am going to give Mr. 
Turner, our ranking member's statement.
    Thank you, Mr. Chairman and thank you to our witnesses for 
joining us today. As we have said many times, this country 
confronts a new type of war. It is a war where the lives of the 
American public hang in the balance. It is a war that may 
depend on a well-informed citizenry. Above all, this hearing is 
about how to educate and prepare the public.
    There is little doubt that Americans are more familiar with 
the faces of the men and women in the press corps than they are 
the men and women fighting Al-Qa`ida at our borders and ports. 
We welcome the media into our family rooms as trusted agents in 
delivering critical information to keep us safe.
    The media's ability to broadcast the events of September 11 
as they unfolded armed the passengers of Flight 93 with the 
information they needed to take action. Because these brave 
passengers knew what was happening in New York, they risked 
their lives to save others.
    Americans joined together 3 years ago to watch in horror as 
the planes hit the Twin Towers and then the Pentagon. Men and 
women trapped in the upper floors of the World Trade Center had 
access to information that the fire fighters below lacked. Had 
the first responders, government officials and media been able 
to quickly share information and communicate a clear message, 
perhaps more lives could have been saved.
    Clearly, the media has a vital role to play in emergency 
response. To do it well requires planning, cooperation with 
government agencies and a clear set of rules and guidelines. 
While some progress has been made, more work needs to be done.
    Although personal responsibility must be part of the 
equation, Americans should be able to trust in what their 
government is communicating to them. We can always do a better 
job of letting the public know what is going on. In addition, 
we all agree that the press plays an important role in making 
sure we have an honest public discourse about this country is 
preparing itself to protect against other terrorist attacks and 
how it is going about winning the war on terror.
    Today, we get to turn the tables and members get to ask the 
media or its former members the questions. In particular, I 
would like your input on three areas that are critical to how 
the war on terror is communicated to the public.
    First, DHS's method of communicating the terrorist threat 
to the public, the Homeland Security advisory system, still 
remains confusing. The color-coded system is not helping us 
secure the homeland, in part, because it has not been precise 
in educating our citizens and public officials about what they 
need to do in the face of a terrorist threat. Our law 
enforcement, security and emergency personnel and the press do 
not need a color; they need the facts.
    I would like to know how helpful this system is to the 
media being able to do their job. Is it helpful or does it 
distract us from the facts? Do you find that focusing on a 
color leads us to miss the bigger picture?
    Second, we also need to do a better job of communicating 
our message around the world. The America that we know is not 
the one portrayed in the Muslim world, on TV, on the Internet 
and in the Madrasas. We must devote more attention to public 
diplomacy to educate the international audience about the 
United States, to further explain our policies and improve our 
public image. I would like to know how you think it is best to 
go about this task.
    Finally, we all understand that if we sacrifice the 
freedoms we have in this country, the terrorists win. We must 
preserve the transparency in government by allowing the media 
as much access to information as is allowable given national 
security concerns.
    In the Homeland Security Act, this Congress called for 
greater emphasis on sharing information with local and state 
first responders and with the public at large, yet it is my 
understanding that the administration and DHS are planning 
actions that threaten to limit the ability of local officials 
to share information with the public and to force them to sign 
nondisclosure agreements to receive essential terrorist threat 
information from the government. We cannot forget that in the 
post-911 world, sharing information, not withholding it, is 
what will protect us.
    I would like your views on this and on your interactions 
with the Department of Homeland Security. We have a long way to 
go to making this country safer, including better ways to 
communicate with the public.
    I look forward to your input and thank you for your 
continued efforts in the war on terror.''
    Ms. Dunn. [Presiding.] I thank the gentleman.
    Are there other members who have opening statements?
    Let me make one on behalf of Chairman Cox who had to run 
downstairs. He is juggling a markup and a hearing today, so he 
has got votes, and he will be back immediately.

    The terrorist attacks on September 11, 2001, affected 
Americans in many ways. In one morning we were all forced to 
grasp the enormity and complexity of a worldwide terrorist 
network of Al-Qa`ida operatives. This horrific event played out 
so dramatically, so terrifyingly before the cameras that it has 
become a defining moment in the American psychology.
    In a matter of minutes, this defining moment was translated 
into breaking news, demanding instantaneous information that 
both the media and the government had to quickly process and 
explain to the American public.
    During a crisis, broadcasters must be credible without 
further sensationalizing what is already sensational. They must 
not provide terrorists legitimacy by becoming participants 
rather than observers or otherwise aid and abet the terrorists' 
goals. They must avoid coverage that might endanger hostages or 
thwart government efforts to deal with terrorists.
    Yet in the moment of a terrorist incident with competition 
by multiple television outlets and multiple media sources, 
television coverage has the distinction of being incendiary 
almost by definition. How can we avoid shocking the public 
while still reporting the news?
    America's multifaceted campaign against terrorism 
highlights the complicated and vitally important relationship 
between the broadcast media and the government. The federal 
government charged with the duty of defending the nation from 
attack is under intense scrutiny by a news media whose primary 
roles include delivering a broad outline of information to the 
public while fact-checking the gatekeepers in the United States 
government. It should come as no surprise that these competing 
roles can often create an acute tension, especially in the 
modern 24-hour news cycle.
    The media relies on the government for accurate 
information, and the government relies on the media to 
translate this information to the public. This hearing will 
examine this relationship in an effort to ensure that the 
public interest is served and supported.
    How terrorist acts are framed as well as what is emphasized 
in reporting can have a critical effect on terrorist behavior. 
In addition, these factors also influence government responses 
and the views and responses of the public. The recent Russian 
school tragedy and the release of last week's Ayman al-Zawahiri 
video are the most recent examples of the power and 
responsibility of the broadcast media in reporting terrorist 
events. These events so close to the third anniversary of our 
own tragic attacks in 2001 are also a poignant reminder of the 
ability of terrorists to affect our daily lives.
    Realizing that the media plays an important role in 
combating terrorism does not and should not ever give license 
to government to control the information they provide. That 
said, the independence of the media should never be used as an 
excuse to avoid responsibility. In this spirit, the media and 
the government can and must work constructively without 
necessarily working collaboratively, effectively providing 
uncompromised information to best serve the public.
    From both the government and broadcast news standpoint, the 
war on terrorism has resulted in intense national and 
international news dissemination not seen since the height of 
the Cold War. News reporting has changed as new technologies 
have shrunk our world. The relatively new phenomenon of a wired 
globe and the instantaneous coverage that is accompanied it has 
affected and will continue to affect world opinion and regional 
decisionmaking. It is inevitable that the tactics and the 
strategies of all actors in the war on terror will continue to 
adapt to this new normalcy, and all Americans must realize the 
heavy responsibility that comes with this new knowledge.
    I do not envy today's panel as they face a responsibility 
unseen since the days of World War II; namely, how can the 
media maintain its position of objectivity in a war with so 
many front lines? And how can the media avoid being used by 
terrorists to help achieve their objectives?
    I thank our panel for attending today's hearing, and I look 
forward to our discussion. We are indeed fortunate to have such 
a distinguished panel, all of whom are either current or former 
members of the media with expertise in dealing with the issues 
before us today. I welcome our witnesses. We look forward to 
hearing your perspectives on this important matter.
    And I now recognize for an opening statement the 
congresswomen from California, Mrs. Harman.
    Ms. Harman. Thank you, Madam Chair, and welcome to our 
witnesses.
    I decided to make a brief opening statement so I could put 
another issue on the table that perhaps you would address in 
your opening statements. Welcome to some good friends in this 
room, an immediate neighbor who is one of the witnesses today, 
Mr. Armstrong, and to folks who have enormous talent and 
responsibility in the event of a terrorist attack.
    I often joke that I get more information from you than I do 
from the classified briefings that I attend regularly in the 
Intelligence Committee, and I am glad that I get it from you 
since I am not getting it from the witnesses who testify before 
us.
    The issue I want to put before you is the role of the 
broadcasters with respect to interoperable communications. As 
you probably know, some years ago, 1997, Congress promised that 
by the end of 2006 there would be dedicated spectrum in the 700 
megahertz band for interoperable emergency communications. That 
promise had a loophole. That loophole had to do with the 
transition to digital spectrum, which, as we know, has not 
occurred, at least not occurred in any substantial amount.
    And now it is 2004 and that spectrum in the 700-megahertz 
range is substantially empty, but there is a number of 
broadcasters in pockets around the United States who are 
saying, ``We are not leaving. We are not going to vacate that 
spectrum, and we are not going to make it available for 
emergency interoperable communications.''
    So the message I want to communicate to all of you folks is 
that it is critical that we free up that spectrum. It is 
critical that we find a compromise, and you need to buy into 
solving the problem, not just to being the problem. I think it 
is a question of life and death. There is a bill in Congress 
called H.R. 1425, co-authored by Congressman Curt Weldon, a 
member of this committee, and it has lots of cosponsors and it 
has the endorsement of every public safety agency on the 
planet.
    So I do want to put it out there that we need to solve this 
problem immediately, and as part of our effective threat 
warning system, we need to have this band available to our very 
talented first responders.
    Thank you, Madam Chair.
    Ms. Dunn. Are there any other members who wish to give 
opening statements? Thank you very much.
    I want to introduce our panel, and the first of our 
witnesses today is Mr. Marvin Kalb, who is an author and a 
senior fellow at Jones Schwarenstein Center on the Press, 
Politics and Public Policy at Harvard University's Kennedy 
School of Government and a former moderator on NBC's ``Meet the 
Press.''
    Frank Sesno is professor of public policy and communication 
at George Mason University and former senior vice president and 
Washington bureau chief for CNN.
    And Mr. Scott Armstrong is here. He is the director of the 
Information Trust.
    Gentlemen, if you would begin your testimony. Please try to 
stick to 5 minutes.
    And we will begin with Mr. Kalb.

   STATEMENT OF MARVIN KALB, AUTHOR AND SENIOR FELLOW, JOAN 
 SHORENSTEIN CENTER ON THE PRESS, POLITICS AND PUBLIC POLICY, 
    JOHN F. KENNEDY SCHOOL OF GOVERNMENT, HARVARD UNIVERSITY

    Mr. Kalb. It is an honor for me to be here and to share 
this opportunity with my colleagues, Frank Sesno and Scott 
Armstrong. This is my first congressional testimony. I have 
declined many previous opportunities. I accepted this one 
because your staff person, Ken Johnson, was so charmingly 
persuasive and because I felt that even if I could make a 
modest contribution to our understanding of the 
interrelationship between government and the media, that would 
be a good thing, and I would feel good about it.
    I have been in this business now for 50 years as a reporter 
and teacher. So that you understand, I am an absolutist on 
First Amendment issues. To me there is a clear separation of 
church and state. In my universe, it is a clear separation of 
journalism and government.
    In my judgment, from the very beginning of our Republic, 
journalists have been installed as players in the drama of 
democracy for their ability to observe the functioning of 
government and to report on its failings or its successes, to 
report truth to power, as ``Professor Nestadi'' once said, and 
never to be afraid to report truth to power. We already have 
three branches of government; we do not need a fourth branch, 
as journalism has so often been described.
    Shortly after 9/11, I got a call from the editor of the 
Columbia Journalism Review. He had an assignment. ``Everything 
has changed as a result of 9/11,'' he said. He wanted me to 
write about how 9/11 had changed journalism. I thought 9/11 had 
in fact not changed everything but I said I would think about 
the assignment.
    I did long and hard and for a time I was almost ready to 
accept his premise that 9/11 had indeed changed everything, 
including the functioning of journalism, meaning at its core 
that 9/11 had changed the relationship between journalism and 
the government, that a new set of rules ought to be 
established, that new areas of cooperation, even collaboration, 
ought to be created and understood by both sides. If we had 
indeed entered a new world defined by the overwhelming, 
undeniable need to fight global terrorism, then journalism, 
which is so important in our lives, so central, had to get into 
the act and had to find a new way of functioning. That was the 
logic as it hit me at the time.
    I decided, no, I would not do this assignment. Who would, 
after all, create the new rules? Would it be the government or 
the journalists, and what role would the public have? I 
remember a quote from Thomas Jefferson, a famous quote: ``If I 
had a choice'', he said, ``between a government without 
newspapers and newspapers without a government, I would choose 
the latter.'' Of course he said that after he had left office. 
In office, he would have happily done without the carping 
newspapers. But that is the point. Free newspapers or free 
press, as the Founding Fathers believed, became synonymous with 
a free government and our free society.
    My point with respect to today's hearing is rather simple, 
or so it might seem at the beginning. If there is news about 
homeland security and about terrorism, journalists will 
obviously cover it. If the news is embarrassing, even 
devastating to the government, journalists will cover that too. 
If the news is glowing and wonderful, fine. But the story will 
be covered just as any other story will be covered.
    I can hear some of you think the struggle against terrorism 
is different, and I agree with you; indeed, it is. We have 
never faced such a threat before. And a perfectly legitimate 
question might be raised at this point, if the threat is so 
special and so dangerous, shouldn't journalism get on board and 
help the government fight this common menace? Here we enter a 
dangerous gray zone.
    Remember the coverage of 9/11. It was magnificent, I think. 
Journalists did their job, and the public was well served. 
There was even a degree of unplanned cooperation. My 
understanding is that the bridges leading into Manhattan were 
blocked, and to distribute the New York Times the publisher 
called Governor Pataki and asked him to open the bridges just 
for the Times, and the governor agreed and some could say, 
``Well, that was not so dreadful a precedent, was it?'' No, I 
do not think so.
    But let us say for a moment that we are in the midst of 
another terrorist crisis. A bomb has exploded, people are 
dying, incipient chaos. What should a journalist do on both a 
national and local level? My answer is that he or she should 
cover the news as best they can, and I hope that that does not 
sound terribly pedestrian.
    So where is the gray zone? Unfortunately, it is everywhere, 
in many guises, complex and rather daunting. For example, 
suppose a reporter in Baghdad, like many other reporters there, 
has been trying to get an interview with the Jordanian 
terrorist Zarqawi. Suppose he gets word one night that he can 
meet Zarqawi. Show up at a corner, get into this car, he gets 
the interview, reports to his paper, it is a huge exclusive.
    Let us be clear: Zarqawi is a murderer. Can a reporter be 
neutral when it comes to murder? Shouldn't he cooperate fully 
with the U.S. government? Shouldn't he have tipped off the U.S. 
Embassy before he even left for the meeting so that agents 
could follow and locate Zarqawi?
    Is your responsibility as a reporter simply to cover the 
news without any thought to your role in allowing a known 
terrorist and killer to get his views out to the world using 
the free press to do it? Can you really be neutral in the war 
on terror?
    Remember the ABC reporter years ago who allowed terrorists 
in Lebanon to set the terms of his interview with them even 
after they had hijacked a plane or killed or threatened to kill 
the passengers? And in fact the reporter let them get away with 
murder. He argued later that he was only doing his job as a 
journalist.
    Remember the CNN executive who acknowledged last year that 
CNN might have held back on the coverage of Saddam Hussein's 
brutal regime because of fear for the lives of Iraqis working 
for CNN? Was CNN wrong for being human?
    Remember that exchange many years ago with Mike Wallace 
concerning Vietnam? The Hypothesis was that Mike was with enemy 
forces surrounding American forces and about to attack the 
Americans. Question: Mike, should you have alerted the U.S. 
troops? Mike's answer was, no, he was a reporter. He was there 
to cover the news, not to tip off his government. He changed 
his mind later.
    These are not new questions, but the presence of anti-
American terrorism poses new challenges, without doubt, for 
American reporters, many having to do with their relations with 
the U.S. government and with the enemy.
    During World War II, American reporters wrote and broadcast 
about the enemy; they used that word. Not now. Many news 
organizations do not even use the word, ``terrorist.'' They use 
only the word, ``militant.'' Our standards have clearly 
changed. Our yardsticks, in my judgment, have become blurred 
and even eroded.
    I think one large reason stems from journalistic feeling 
that they were had during the Vietnam War; it does go back to 
that. Lied to time and again at the so-called 5 o'clock follies 
in Saigon or at the State Department or the Pentagon here in 
Washington until they began to distrust everything that the 
government said.
    And then add to this growing sense of national journalistic 
distrust the Pentagon papers and then the Watergate crisis 
itself, one example after another of government deception, 
leading to one example after another of reporters trying to 
``get'' the government, to ``catch'' politicians who lie and to 
be the Woodward and Bernstein of their day, to the point where 
now as a result of the war in Iraq, not just reporters but many 
others in our society are not sure whether they have been told 
the truth.
    Even if reporters wanted to believe the government, wanted 
to cooperate in some areas, especially now in an age of 
terrorism, many of them feel they cannot. They feel they must 
remain skeptical--in their own professional interests, but 
also, they feel, in the longer-range interests of the American 
people.
    Perhaps a new kind of patriotism is emerging. Perhaps the 
new patriotism can be merged with the old kind of patriotism 
and that is for journalists to hold government to the old 
standards of truth telling, to hold announcements and 
proclamations up to the sunlight for confirmation of their 
inherent truth. For only the truth in the long run, even in 
this age of terrorism can really keep us free. Thank you.
    Chairman Cox. [Presiding.] Thank you very much for your 
testimony, Mr. Kalb.
    I would like next to welcome Frank Sesno who is professor 
and senior fellow at George Mason University where he is 
responsible for the critical infrastructure protection 
projects, and he is of course a veteran of broadcasting and 
journalism himself with a long career at CNN.
    Welcome, Mr. Sesno.

STATEMENT OF FRANK SESNO, PROFESSOR AND SENIOR FELLOW, CRITICAL 
   INRASTRUCTURE PROTECTION PROJECT, GEORGE MASON UNIVERSITY

    Mr. Sesno. Thank you, Mr. Chairman. I want to thank you and 
the committee for inviting me here today and for this 
discussion of one of the most important challenges relating to 
terrorism and the terrorism threat in America, and that is the 
need for clear, accurate, fast and responsible information. I 
want to speak very practically today about some of that.
    The landscape has changed fundamentally in the post-9/11 
world. As we have seen here and around the globe, events can 
take any number of sinister forms: Planes flying into 
buildings, bombs set off in trains, anthrax sent through the 
mail, children taken hostage and brutally killed. Weapons of 
mass destruction take the menace to an almost unthinkable 
place.
    Now, getting information out and communicating clearly with 
the public assumes, in the midst of this, a new, even 
unprecedented urgency. And it is a challenge that confronts all 
of us: The media, certainly, because they will be the conduit 
for that information; the public because citizens must take 
responsibility themselves to be well informed, and of course 
government officials and first responders because they will 
decide what information to release and when, how forthcoming 
they will be and how much faith they will place in the media 
and in the public to handle that information, some of which may 
be very disturbing.
    Some say, and Marvin has mentioned this and I have heard it 
mentioned by the congressman a moment ago, some say this new 
normal requires a new arrangement, that the news media and 
government should pursue some kind of partnership to get the 
job done. This is neither practical nor wise, and it will not 
happen.
    The news media have a job, and Marvin expressed it 
eloquently, that requires them to stand aside. They should 
inform, they should investigate, they should hold responsible 
officials to account, and to do this they must remain 
independent from those they cover, even against this glib 
backdrop of terrorism.
    But that is not to say, however, that there are not common 
interests and even common responsibilities. Journalists and 
government officials both serve the public. Both need to be 
sure the information they disseminate is accurate, credible, 
timely and relevant, and both must know that they will pace a 
price if they fail to do their jobs well.
    News media in this country face a new and a big challenge, 
and here are some questions that I think we can commonly pose. 
How many news organizations have personnel who are 
knowledgeable about homeland security and can explain what to 
do in the event, for example, of a bio attack, plague, anthrax, 
tularemia?
    How many news departments have people who understand the 
dangers and the behavior of a radiological device, a dirty 
bomb, and could convey rapid nuanced information to the public? 
How many newsrooms have a comprehensive current list of experts 
who could address the crucial specifics of biological weapons?
    You will hear later in the day from my friend and 
colleague, Barbara Cochran. Hers and other groups are working 
in this direction, but the questions, it seems to me, are 
relevant and not by any means universally answerable in the 
affirmative.
    The politics that is us and you deliver the goods correctly 
and swiftly. Yet while citizens say they want more information, 
they remain largely uninformed about preparations very close to 
home.
    According to a Hart-Teeter poll conducted for the Council 
for Excellence in Government for a project called, ``We the 
People: Homeland Security from the Citizens' Perspective''--and 
I am quoting from the report now--``Despite publicity about new 
or improved preparedness plans, Americans are largely in the 
dark about plans for terrorist attacks or other emergencies. 
Just one in five say they are aware and familiar with their 
city's or town's preparedness plans; just one in five familiar 
with their state's plans.''
    Mr. Chairman, the challenge of informing the public is 
ongoing. If there is terrorism, the news media will be a 
lifeline. Here are the questions that will be asked 
immediately: What happened? What is the danger? What is the 
risk? Where should I go? Where are my kids? What route should I 
take? Will I need medicine? What about my elderly parents?
    This underscores that this is a life and death 
responsibility, and it underscores the need for elected leaders 
and government officials, first responders and spokespersons to 
understand how the media operate and why.
    We are in an era of the never-ending news cycle--you know 
that. It exists in an always-on, real-time world where news is 
delivered in many ways now--on television and radio, in 
newspapers and magazines, on cell phones and wireless devices 
and blast emails and over the Internet.
    In the event of terrorism, officials will have to take all 
of this into account and provide fast and reliable information 
for a variety of platforms and for a variety of audiences, both 
down the street and around the world. They will not be able to 
wait to hold news conferences at convenient, predetermined 
times. They will have to respond instantly to what is happening 
on the ground to quickly knock down the bad information, the 
rumors and the misinformation and the speculation that 
inevitably sprouts like an unwelcome weed.
    Mr. Chairman, in this environment, events and information, 
as I mentioned, play out in real time, live, 24/7, non-stop, 
and so we get news by increments. Each little development 
becomes the latest breaking news piece set into the mosaic of 
the larger story. Now, this can be helpful or it can be a 
terrible distraction.
    One of the challenges for news organizations is to make 
sure that incremental news is proportional and provides 
context. It is why news organizations and public officials 
alike need to learn and appreciate what I call the ``language 
of live.'' The ``language of live'' recognizes that you are on 
the air all the time, that you are in a 24/7 world. It is a 
transparent language that is deliberate and clear, it 
explicitly states what is and what is not known, confirmed or 
corroborated.
    It directly attributes sources of information. It labels 
speculation as such. It quickly doubles back on bad information 
to correct the record. It is a language that requires public 
officials to be forthcoming and responsive. It is a language 
that many journalists employed fluently in the days after 9/11.
    There are some things the language of live should not be, 
especially when we are talking about the coverage of terrorism. 
It should not be breathless, it should not be hyped, it does 
not need to be accompanied by sensational graphics or ominous 
music. The facts will be ominous enough.
    I see my time is out, so let me just skip ahead and touch 
on a few points that I think can and should be taken in 
summation. News organizations should be sure that they have 
assembled, are familiar with and can access relevant 
information from professional organizations, public health, 
academic and government sources and Web sites. They should know 
the emergency plans and the responsible officials in their 
community. They should develop and keep current before an 
incident a list of sources and experts who can provide accurate 
and responsible information and/or advise the news 
organizations about the facts relating to it.
    They should impress upon their sources, especially elected 
and public officials, the need for rapid information in the 
event of a terrorist incident and why that will benefit the 
public, to understand this language of live so that information 
relating an unfolding and confusing situation can be conveyed 
clearly and calmly. They should train reporters, photographers 
and staff in matters of personal and family safety. In the 
event of terrorism, they will be first responders too, facing 
all the risks and personal pressures that implies.
    And these news organizations should consider conducting 
exercises and drills similar to what government does, not with 
government, quite apart from it, but to simulate a terrorist 
attack to test the readiness of staff, the editorial vetting 
process, the reach and redundancy of their own communications 
equipment and the coverage plan that would be implemented in 
the event of the real thing.
    The public will be well served by this, and the medial will 
be rewarded by doing it right. And the backdrop against it all, 
I want to echo, is a need for public officials to recognize the 
need both for the separation of media and those public 
officials and the need for the information to be ready, 
accessible, credible, clear and not choreographed. Thank you.
    [The statement of Mr. Sesno follows:]

                   Prepared statement of Frank Sesno

    Mr. Chairman, I want to thank you and the committee for inviting me 
here today, and for this discussion about one of the most important 
challenges relating to the terrorism threat in America: the need for 
clear, accurate, fast and responsible information. The landscape has 
changed fundamentally in our post-9/11 world. As we have seen here and 
around the world, events can take any number of sinister forms: planes 
flying into buildings; bombs set off in trains; children taken hostage 
and brutally killed. Weapons of mass destruction take the menace to an 
almost unthinkable place. Getting information out--communicating 
clearly with the public--assumes a new, arguably unprecedented urgency. 
It is a challenge that confronts all of us: the media, certainly, 
because they will be the conduit for information; the public, because 
citizens must take responsibility to be well informed; government 
officials and first responders because they will decide what 
information to release and when, how forthcoming they will be, how much 
faith they will place in the media and the public to handle that 
information.
    Some say that this 'new normal' requires a new arrangement. They 
say the news media and government should pursue a 'partnership' to get 
the job done. But that is neither practical nor wise. And it won't 
happen. The news media have a job to do that requires them to stand 
aside. They should inform. They should investigate. They should hold 
responsible officials to account. To do this they must remain 
independent from those they cover, even against the prospect of 
terrorism.
    That is not to say, however, that there are not common interests 
and even common responsibilities. Journalists and government officials 
both serve the public; both need to be sure the information they 
disseminate is accurate, credible, timely and relevant. Both must know 
that they will be pay a price if they fail to do their jobs well. Both 
must understand that terrorism is not just another issue or talking 
point; it is not just another' story. ' It is our new reality. And it 
is a reality where many thousands of lives--and whole communities may 
depend on rapid and responsible information.
    Mr. Chairman, I would like to discuss the role that the news media 
will play in the event of a terrorist attack, what we've learned and 
what we should be doing--now. I will touch on the challenges public 
officials face. And I will offer some suggestions for the media with 
respect to covering homeland security and terrorism.
    As we discuss the 'media' here today, we echo similar discussions 
that are being held among journalists, homeland security officials, 
governors, mayors, police, public health and others around the country. 
I have been a part of some of these conversations. They are helpful. 
But they often include a discussion of what it will take to 'manage the 
news.' I will say here what I have said there: focusing on 'managing 
the news' is a mistake. It implies a certainty and a choreography that 
do not work in the real world. The news media are too numerous, 
information is too abundant, the public's appetite to know what's going 
on right away too powerful. And uninformed speculation is too 
dangerous. Officials do have a responsibility to 'get the story 
straight,' to disseminate information in a coordinated way, as rapidly 
as possible.There are processes that need to be put in place to assure 
a streamlined information flow. The bottom line should simply be this: 
get important information to the public in a crisis.
    When it comes to the high stakes business of terrorism and getting 
vital real time information to the public, the media should not be 
viewed as impediments or as adversaries to be managed or manipulated. 
They should be seen as the critical pipeline to the public, as an 
extension of the public itself. The public, like the media, will need 
information, instructions and guidance, often in real time. The public, 
like the media will be susceptible to incomplete information and even 
rumors. The best way to deal with all of this is through quick and 
responsive information. Lives and public order itself will be at stake.

New responsibility
    Having said that, the news media in this country do face a new 
level of responsibility and public service prompted by the threats we 
face. This is a big challenge. And while many news organizations, 
especially where there is believed to be a real and present danger, 
have taken steps to meet the challenge, many have not. News 
organizations--especially in broadcasting--need to do more before an 
incident takes place. They need coverage plans so they'll get the story 
right; they need emergency plans to look after their own personnel; 
they need contingency plans to continue broadcasting if their 
broadcasting, publishing or server capacities are damaged or destroyed; 
they need ready access to expertise, critical in the event of an 
attack. This is particularly true for local television and radio since 
that is where most people will turn to get practical information and 
instructions.
    An example here will be helpful. A television station that sits in 
hurricane territory knows that it will be judged by its news coverage 
when disaster looms. It knows that viewers will want to know when the 
storm will hit, how severe it will be, what they should do. The station 
knows its coverage will require personnel who are prepared, know how 
hurricanes behave, and how to speak clearly and responsibly.
    But how many news organizations have personnel who are 
knowledgeable about homeland security and can explain what to do in the 
event of a bio attack--plague, tularemia, anthrax? How many news 
departments have personnel who understand the dangers of a radiological 
device--a dirty bomb--and could convey real time information to the 
public? How many newsrooms have a comprehensive, current list of 
experts who could address the crucial specifics of biological weapons? 
The problem, of course, is that news organizations generally know if 
the live in hurricane alley. They're prepared to invest in hurricane 
coverage because it's a common occurrence. Terrorism is different.
Public expectations
    Still, the public expects us to deliver the goods--correctly and 
swiftly. Citizens want rapid and accessible information. According to a 
Hart Teeter poll conducted for the Council for Excellence in Government 
for a project called We the People: Homeland Security from the 
Citizens' Perspective, when asked where they would look first to 
prepare for a terrorist attack, learn about the latest threats or 
receive guidance on security precautions, 53% said they'd turn to 
television; 31% said they'd go to government or independent news web 
sites. Nearly four in ten said radio would be a first or second choice. 
Not surprisingly young people are more apt to go online--45% of 18 to 
34 year olds said government or news web sites would be their first 
choice.
    And yet: The Council's poll, taken last February, revealed that--
and I quote from their report--``despite publicity about new or 
improved preparedness plans, Americans largely are in the dark about 
plans for terrorist attacks or other emergencies. Just one in five 
(19%) Americans say that they are aware of and familiar with their city 
or town's preparedness plans, and likewise, just one in five (18%) are 
familiar with their state's plans.'' The challenge of informing the 
public is ongoing.
    The most critical timeframe, of course, is the immediate aftermath 
of terrorism.
    In the event of an attack, traditional broadcasting will bear the 
burden of public expectations. The Council for Excellence in Government 
poll revealed 51% would first turn on the television, the clear second 
outlet is radio--where batteries and portability make it accessible and 
dependable. Only 5 percent said they'd go to a website.
    If there is terrorism in the community, the news media will be a 
lifeline. Regardless of where people turn, they will be looking for 
some basic information: what happened, what is the danger and the risk, 
where should I go, what routes should I take, will I need medicine, 
what about my kids, my school, my elderly parents? News organizations 
will have to answer to those questions in a hurry. And what they 
report, what they air--whether it's their own local correspondent or 
some 'expert' who is booked for an interview--will likely shape 
behavior and, quite possibly, broader rescue efforts in the community.
    This underscores this responsibility that the news media have--a 
life or death responsibility. And it also underscores the need for 
government officials, first responders and spokespeople to understand 
how the media operate and why. This is the era of the never ending news 
cycle. We exist in a an always-on, real-time world. News comes to 
people instantaneously and in many ways. On television and radio, yes. 
In newspapers and magazines for sure. But also on cell phones, wireless 
devices, in blast emails and over the internet. In the event of 
terrorism, officials will have to take this into account, and provide 
fast and reliable information. They may not be able to wait to hold 
news conferences at convenient, pre-determined times. They will have to 
move information as they get it. They may have to respond instantly to 
what is happening on the ground or quickly knock down bad information 
that sprouts like an unwelcome weed.

Layers of media
    We must also appreciate that, in the event of terrorism, different 
media will be focusing on different things. This is an important 
concept because the community and its leaders have to understand and be 
prepared. If there is a serious incident, local reporters, 
correspondents and crews from national networks, photographers and 
newsmagazine correspondents, international news organizations will 
descend on a community. They will be covering the same story, but 
they'll be talking to different audiences and covering different 
angles. Local news outlets will be directing their coverage to the 
people in the community, focusing on practical, front-lines 
information. National networks will report the community's incident to 
the country. They'll weave the events into a larger, national picture. 
International news organizations--from the BBC to TV Asahi to Al 
Jazeera--will view events through a different, global prism. Each layer 
of news media will be conveying information to an important 
constituency: the community resident who needs to whether she should 
take her children to the local hospital for an antibiotic;the citizen 
two states away who has a relative in the affected area or who wants to 
volunteer to help; the global citizen or the national leader who is 
watching half a world away. All the constituencies matter. All may 
adjust behavior in response. Again, it underscores the professional 
responsibility of both the journalists and the public officials 
involved in this process.

Learning language of live
    And the events and information will play out in real time. Live. 
2417. Non-stop. It goes with the territory, thanks to technology, 
legitimate journalistic considerations, competitive ratings pressures 
and, yes, public expectations. As a result of the non-stop news cycle, 
we get news by increment. Each little development becomes the latest 
'breaking news' piece set into the story mosaic. One of the challenges 
for news organizations is to make sure incremental news also provides 
context, that events are reported proportionally.
    The advent of incremental news brings with it the danger of 
`information lag.' That is the time between when the media asks a 
question and a responsible official can answer it. That time lag can be 
minutes or it can be hours. In some cases--such as some types of 
bioterrorism--it may even be days. This truly is the most precarious 
time in the story process; it is the time when uninformed speculation 
and rumor can fill the information void. And this can be a very 
dangerous thing. We saw this play out during the anthrax attacks of 
2001. Confusion was pervasive with respect to the dimension of the 
threat, who was in charge, what needed to be done.
    It is why news organizations and public officials alike need to 
learn and appreciate what I call ``the language of live.' The 
``language of live'' recognizes the 24/7 world, and permits real time 
communication when some facts are not known. It is a transparent 
language that clearly informs the public. It explicitly states what is 
and what is not known, confirmed or corroborated.It directly attributes 
sources of information. It labels speculation as such. It doubles back 
on bad information to correct the record. The `language of live' is a 
language that most journalists employed fluently in the days after 9/
11. Mayor Guiliani spoke it as well. Throughout his many public 
comments, he avoided offering more information than he had; he 
acknowledged the media's and the public's need to know; he did not 
overpromise; he made it clear when he was answering a question based on 
incomplete information--or when he couldn't answer at all. Yet he 
responded to facts and 'reports' as they developed.
    Similarly, news organizations were broadly praised after 9/11 for 
their measured and purposeful work. For the most part, speculation was 
kept to a minimum. There was a responsible attitude of professionalism, 
and questions were asked and answered in a measured way. The 
information and the tone were straightforward and sober.
    There are some things the 'language of live' should not be: it 
should not be breathless, it should not be hyped. It does not need to 
be accompanied by sensational graphics or music. Nor should it be 
overly or unrealistically reassuring. Words should be carefully chosen. 
We should talk to the public straight. Give them the facts. Citizens 
will understand that answers aren't always instantaneous. They will 
understand the situation and they will feel the information they are 
getting is credible.

Generalist vs. specialist
    This brings me back to an earlier point. News organizations need 
expertise. Trained, knowledgeable journalists or access to experts 
should be a priority for every news organization in America. 
Communities will be terribly served by news organizations that 'wing 
it' after the fact. No community in the country--no matter how remote--
should consider itself off the hook. A biological attack on the east 
coast can spread to virtually any town or village because of the way 
people travel. A cyber attack can affect any home or business in any 
place. For larger news organizations in major and moderate sized 
cities, there should be knowledgeable personnel on staff. They should 
know and quickly be able to get to appropriate websites, resource 
books, contacts and phone numbers. Smaller news organizations in more 
remote communities, may not be able to afford specialized staff, but 
preparation should still be part of the plan. Having access to 
information along with contacts in law enforcement, public health, the 
academic and expert communities is vital.
    9/11 and the anthrax attacks taught us this, too. News 
organizations, especially those in high risk areas should conduct 
internal terrorist exercises and drills. They should test their 
systems, determine how they will deploy their personnel, be sure they 
have systems in place to protect their people, and they should make 
certain they have a chain of command capable of .vetting information 
and assuring the accuracy of what is to be reported. In this 
environment, leaving coverage of a story such as this could be purely 
to chance is unnecessary and possibly irresponsible.

Call to action
    Mr. Chairman, few people realize how much thought and debate news 
goes into coverage decisions such as these. My colleagues in the media, 
for the most part, are acutely aware of their responsibilities and the 
power of the information they convey. They take professional and 
personal pride in making solid, well thought out editorial decisions 
and in informing the community. They understand that what they report 
has consequences. They want to do the right thing.
    But it's not easy. Many news organizations have experienced deep 
budget cuts. In a lot of communities, radio stations have no news 
department at all any more. Television has too few experienced beat 
reporters. Local newspapers have been bought up and pared down. The 
homeland security beat is no one that can be learned in a day.
    There are steps that can be taken. News organizations should:
        <bullet> Be sure they have assembled, are familiar with and can 
        access relevant information from professional organizations, 
        public health, academic and government sources and websites
        <bullet> Know the emergency plans and the responsible officials 
        in their community.
        <bullet> Develop and keep current before an incident a list of 
        sources and experts who can provide accurate and responsible 
        information and/or advise the news organization about facts 
        relating to it.
        <bullet> Impress upon sources, especially public officials, the 
        need for rapid information in the event of a terrorist incident 
        and why that will benefit the public.
        <bullet> Understand the 'language of live' so that information 
        relating to an unfolding and confusing situation can be 
        conveyed as clearly and calmly as possible.
        <bullet> Train reporters, photographers and staff in matters of 
        personal and family safety; in the event of terrorism, they 
        will be first responders, too, facing all the risks and 
        personal pressures that that implies.
        <bullet> Consider conducting exercises or drills to simulate a 
        terrorist attack to test the readiness of staff, the editorial 
        vetting process, the reach and redundancy of communications 
        equipment, the coverage plan that would be implemented in the 
        event of the real thing.
    The public will be well served--and the media will be rewarded--by 
doing it right. After 9/11 public approval of the news media soared, 
according to the Pew Center for People and the Press, which polled on 
the subject.
    The trend was relatively short lived. Within a few months after 9/
11, a majority was again expressing doubts about the media's 
professionalism and patriotism. But while the public often criticizes 
the media for being overly negative, sensational or biased--they still 
value the watchdog role that the press is meant to play. Pew found that 
most Americans believe that press scrutiny prevents public officials 
from doing things they should not.
    The media have a critical but complex role in this new era. They 
are expected to responsibly inform the public of new and unpredictable 
dangers. They are expected to be knowledgeable, responsible and 
versatile. They are expected to be accurate but they are also expected 
to be fast. They are supposed to provide the scrutiny that will keep 
public officials responsive and accountable. It is an enormous, perhaps 
unprecedented challenge. And it can only be carried out with 
forethought, a genuine respect for the public and with proper planning.

    Chairman Cox. Thank you very much, Mr. Sesno.
    Our next witness is the executive director of the 
Information Trust, Mr. Scott Armstrong, who is also an 
accomplished journalist and author, also hardly a newcomer to 
the field. He was a Democratic staff member during the 
Watergate investigation. It was his interview of Alexander 
Butterfield that revealed the Nixon taping system.
    Welcome.

   STATEMENT OF SCOTT ARMSTRONG, DIRECTOR, INFORMATION TRUST

    Mr. Armstrong. Thank you, Mr. Chairman, Congressman Turner 
and distinguished members of the committee. I do not have any 
news as dramatic as the existence of a taping system to discuss 
today, and I appreciate the opportunity to talk about the role 
of the media in combating terrorism at a time when so many 
proposals and so many implementation plans are in flux.
    At the founding of America, the news media was keenly 
focused on homeland security. While occupying European armies, 
Indian wars and territorial uprisings of the 18th century are a 
far cry from the current terrorist threats, I have not the 
slightest doubt that today's news media, broadcast and print, 
will respond as nobly to the threats as did the early town 
criers and one-sheet papers.
    Journalists understand their priorities. They are prepared 
to work on the public's behalf with government agencies 
throughout blackouts, natural disasters, terrorist threats and 
even the most severe of incidents. It is less clear, however, 
that governments, particularly the federal government, 
understand how to satisfy the public's need for information 
before a terrorist event.
    Under the current overlapping, rapidly expanding systems of 
national security secrecy, virtually all relevant homeland 
security information is either classified or can be withheld 
because it is classifiable. Part of the current problem is in 
fact that tension between the open society in which information 
flows freely and the secret society in which much, if not most, 
of the relevant government information remains secret.
    You may recall that in October 2000 without any hearings or 
public debate in the House and with only one short public 
hearing in the Senate, both houses of Congress passed America's 
first Official Secrets Act. The new media was caught dozing. We 
recognize this was a serious threat to our long-established 
system whereby elected, appointed and career public officials 
were forced to discuss nearly all national security information 
on a background, anonymous basis.
    As you know, professional journalists would not be able to 
adequately cover even a public press conference by the 
Secretary of Defense were they not able to put it into context. 
Under the new law, that law that was passed at that time, any 
such conversations about the Secretary's comments that were not 
officially offered by the Department would, by definition, be 
unauthorized disclosures of either classified or classifiable 
information and thus would then have been a felony. The new law 
applied not just to present but to former officials. Virtually 
all knowledgeable sources would be cut off.
    The law presented a fundamental challenge to the 
established manner in which national security journalism had 
been doing its business for over four decades. For the first 
time in my memory, the news media actually lobbied against 
legislation that would preempt their First Amendment 
prerogatives. At the very last minute, President Clinton signed 
a veto, although only hours earlier his chief of staff had 
indicated that he would likely sign the measure into law.
    After this close call, various members of the major media 
decided it was imperative that we would better understand the 
concerns of the intelligence community. With significant 
assistance from the chairman of the House Permanent Select 
Committee on Intelligence, Porter Goss, and Robert McNamara, 
the then CIA General Counsel, we began an informal dialogue to 
clarify our concerns on each side. The events of September 11, 
2001 increased the urgency of that effort.
    On one side, we had convened well known, experienced 
representatives of the media, reporters, editors, anchorman, 
even the anchorman to my right, publishers and owners, those 
who had served in the front lines in providing the public the 
limited information it can receive about national security 
matters.
    At our invitation, the government, in turn, drew on the 
participation of the general counsels and representatives of 
the directors of each of the major intelligence agencies, of 
the National Security Council and the Attorney General, and the 
point of contact person who deals with reporters who call about 
urgent intelligence matters on deadline.
    Representatives of respective House and Senate Intelligence 
Committees attended. Others who attended sort of the off-the-
record meetings included officials from the White House 
Homeland Security Office and the Security Council, a former 
counsel of the President and a former White House Chief of 
Staff.
    By taking the concerns of each side seriously, the dialogue 
had proven to be beneficial in a number of ways, not only in 
demythologizing the issues of leaks but by giving an 
appreciation for both the news media and the government 
officials on the need for secrecy in appropriate circumstances. 
Reporters understand secrecy. They protect their sources by 
guaranteeing the secrecy of their identities. Compromising that 
secrecy is very rare. By the same token, the news media came to 
understand that there were important reasons for the United 
States government to protect certain secrets that could damage 
national security.
    As we became more familiar with the professional 
intelligence individuals' view of the sensitive aspects of 
their operations, we began to understand the practical and 
concrete side of the sources and methods concerns and in fact 
began to realize that we could avoid publishing certain details 
in a gratuitous, occasionally even casual manner that might 
cause genuine damage to the national security but by editing 
include virtually all the details by doing such things such as 
bifurcating certain stories so that between the two parts the 
whole story was told but the danger to operations was removed.
    There was a gradual appreciation that developed on both 
sides, that there are certain stories the intelligence 
community will always assert are damaging and that the news 
media still believe warrant publication. But there seemed to be 
an agreement that the instances are better dealt with by mutual 
discussion than by criminal statute. And in fact the Attorney 
General's Task Force on Unauthorized Disclosure released a 
report in October of 2002 concluding that while the 
administrative measures could strengthen the investigative and 
process of punishing leaks administratively, an official 
secrets pact was not appropriate.
    As with most dialogues, not all issues could be resolved 
and many continue to be pending, but we come back to the center 
questions that are facing us today: How much information about 
terrorist threats can the media provide? How can the government 
best partner with the media to ensure that the public is 
properly informed?
    In the course of our dialogue, we began to address, with 
the assistance of the White House Homeland Security Council, 
the nature of the federal government's concerns about the news 
media publishing information about homeland security 
vulnerabilities. There was a difference of opinion, to be sure, 
about whether or not certain critical infrastructure 
information could be withheld or should be withheld from the 
public or published.
    With nearly 85 percent of the nation's critical 
infrastructure in private hands, questions arose about access 
to previously public information and the ability of the media 
to warn the public about the existence of and responsibility 
for vulnerabilities, particularly those which could endanger 
larger numbers of citizens in metropolitan areas, such as 
chemical plants.
    As we proceeded, we became aware of section 892 of the 
Homeland Security Act, co-authored by Congressman Harman. 
Section 892 had the commendable purpose of allowing the sharing 
of a great deal of important information with local and state 
officials as well as first responders and certain industry 
representatives. The thrust of the provision was to supplement 
the information available to non-federal officials who did not 
have security clearances by making available sensitive but 
unclassified information to as many as 4 million individuals.
    The underlying concept would classify information by 
removing the classified features. The notion of the tear line, 
with information below the tear line is unclassified because 
the sources and methods have been removed, is a metaphor that 
is easily understood by a journalist. That in fact is what we 
get when we get a background briefing from a public official. 
They withhold the sensitive information and tell us the gist of 
it for publication. That is our established tried and true 
proven method of proceeding.
    Journalists generally support the notion of sharing 
additional information, but in this case we began to recognize 
the possibility of a de facto new security control system. The 
ability to create sensitive homeland security information, 
which we call SHSI, and their disclosures within broad 
categories of information would be dispersed across many 
federal agencies, would be broadly delegated to many federal 
officials who were not required to keep careful records to find 
out what had been distributed or to home.
    Yet by the same time, the prospect of nondisclosure 
agreements with specific criminal and civil penalties, 
including potentially Draconian liquidated damage features, 
began to be recognized as a possibility of really cutting off 
access to the media. Responses back to the federal agencies 
from the local, state, first responder and private industry 
recipients of SHSI information were, in turn, required to come 
back under this compartmented system, if you will, these same 
safeguards that would then be required by the federal 
government to be incorporated into the federal files, often in 
classified form.
    In order for federal, state, first responder and private 
industry recipients to act on this issue they received, they 
would inevitably have to recruit many more people, and those 
would have to sign nondisclosure agreements, making it very 
likely that the number of individuals probably would grow 
dramatically and that the amount of information available 
publicly would be severely reduced.
    Because the information was never classified, there would 
be no systematic way to request this declassification and 
release. Once designated as SHSI, the information distributed 
by the federal government could not be released by local, 
state, first responder, private industry recipients or by the 
governments under the local or state freedom of information 
acts.
    After informal discussions with many officials, we began to 
get some encouraging responses. I am told, for example, that in 
the most recent drafts of the proposed regulations, 
nondisclosure agreements is not anticipated to be a part of the 
system. On the other hand, I do not have anything concrete to 
indicate that that will be the case.
    And in a situation in which the Secretary of the Department 
of Homeland Security is charged with the responsibility for 
implementing it, we fear that a very substantial new system 
could be created, creating a shield from responding to 
intermediate news inquiries and using the excuse to deny 
citizen access to traditionally available information at both 
the federal and state level.
    The worse consequences of such abuse or of unjustified 
overbroad use by federal officials will be the discrediting and 
abandonment of a valuable information sharing initiative. The 
recipients of the information at the state and local levels 
will find themselves confused and frightened by the 
requirements, unable to sustain their credibility with the news 
media and prevented from accounting for their actions to 
colleagues in government.
    But also stressing part of this is that the Department of 
Homeland Security is the one organization that has been most 
unwilling to engage us on this issue. Fortunately, others have.
    We urge, therefore, that while a prospect remains of the 
system conceived by Congress to facilitate a broad sharing of 
information could instead become the prevalent mechanism for 
the controlling of information. We urge that Congress spend 
careful attention to the implementation of these requirements, 
in particular that Congress tend with the pending SHSI 
safeguarding arrangements with the same degree of attention 
they will inevitably have to give to the current classification 
system.
    Recent congresses have been regularly--
    Chairman Cox. Mr. Armstrong, if you could summarize.
    Mr. Armstrong. I am just going to sum up with two more 
observations. Recent congresses have been regularly exempting 
government information from public access and have not 
conducted a careful oversight of actions in the last four 
administrations, which further remove public access to 
information. Much of what is known about homeland security is 
known only through the activities of this and similar 
committees.
    It is therefore important, in our view, that the potential 
ruling of Congress should establish the criteria and baseline 
for executive branch sharing of information on the SHSI and 
other requirements. It is congressional oversight that will 
have a direct and significant impact on the media's ability to 
get and disseminate important homeland information.
    Armed with such relevant information, the news media will 
vigilantly examine and document potential threats to the 
homeland as well as effective government responses. They will 
be in fact the ultimate first responders, able to be a reliable 
conduit of accurate and pressing information to the public. The 
result will be the very thing which Tom Kean and Lee Hamilton 
referred to in their testimony before the committee in August 
when they said, ``An informed citizenry is the nation's best 
defense.''
    Thank you.
    [The statement of Mr. Armstrong follows:]

                 Prepared Statement of Scott Armstrong

    Good Morning, Chairman Cox, Congressman Turner and members of the 
Committee. I appreciate the opportunity to testify today on the Role of 
the Media in Combating Terrorism, particularly at a time when so many 
new proposals and implementation plans are in flux.
    I appear today as an individual journalist, formerly of the 
Washington Post, now employed writing books and articles on national 
security matters. I was the founder of the National Security Archive, a 
repository for declassified information, now located at George 
Washington University. In my capacity as executive director at the 
Information Trust, I have been involved in encouraging the maintenance 
of ever-higher standards of journalism and the process of making 
government information as publicly accessible and relevant as possible.
    At the founding of America, the news media was keenly focused on 
Homeland Security. While occupying European armies, Indian wars and 
territorial uprisings of the 18th century are a far cry from current 
terrorist threats, I have not the slightest doubt that today's news 
media--broadcast and print--will respond as nobly to threats as did the 
early town criers and one sheet papers. Robust disaster recovery plans 
and redundant backup system will assure we can live pictures on 
location. Timely professional reporting and analysis by national and 
local news media in print and broadcast will rise to the challenge of 
explaining events to the public and reassuring them about the course of 
events. Journalists understand their priorities; they are prepared to 
work on the public's behalf with government agencies through blackouts, 
natural disasters, and terrorist threats.
    It is less clear that the government, particularly the federal, 
understands how to satisfy the public's need for information before a 
terrorist event. Under the current overlapping and rapidly expanding 
systems of national security secrecy virtually all relevant homeland 
security information is either classified or can be withheld because it 
is classifiable.
        <bullet> It is difficult to envision the Department of Homeland 
        Security and other agencies becoming sufficiently flexible to 
        share information on a real time basis among federal agencies 
        with a newly defined ``need to know.''
        <bullet> It is even harder to anticipate DHS and other agencies 
        complying with Section 892 of the Homeland Security Act in 
        order to create broad sharing of homeland security information 
        with the state, local and private first responders who need it 
        to thwart terrorism.
        <bullet> It is even more daunting to see how the DHS can meet 
        the challenge to provide information to the public through the 
        media, the battle proven process that over centuries has been 
        able to rally citizens and prepare them to participate in the 
        demanding preparations that we hope will forestall or render 
        ineffective attacks against our country.

An Official Secrets Act
    The heart of the current problem is the tension between an open 
society in which information flows freely and a secret society in which 
much--if not most--of the relevant government information is secret. In 
2000, more than a year before September 11, the intelligence community 
asked Congress for criminal statutes to prosecute those responsible for 
what they saw as recurring leaks to the news media that damaged their 
operations.
    You may recall that in October 2000, without any hearings or public 
debate in the House and only one short public hearing in the Senate, 
both houses of Congress passed America's first official secrets act.
    The news media was caught dozing. This we recognized was a serious 
threat to the long established system whereby elected, appointed and 
career public officials were forced to discuss almost all national 
security information on a background, anonymous basis. Professional 
journalists could not adequately cover a public press conference by the 
Secretary of Defense if they were unable to put the Secretary's 
comments in context. Any such conversations about the Secretary's 
comments that were not officially offered by the Department of Defense 
would almost assuredly be an ``unauthorized disclosure of classified'' 
or classifiable information and thus a felony under the new law. 
Moreover the new law applied to former officials. Virtually all 
knowledgeable sources on US national security policy and developments 
could be silenced. It presented a fundamental challenge to the 
established manner in which national security journalism had been 
routinely conducted for over four decades.
    For the first time in my memory, news media organizations lobbied 
actively against legislation that would preempt their First Amendment 
prerogatives. At the very last minute, President Clinton signed a veto; 
hours earlier his Chief of Staff anticipated he would be signing the 
measure into law.
    After this close call, various representatives of the major media 
decided it was imperative that we understand and engage the concerns of 
the intelligence community. With significant assistance from 
Congressman Porter Goss, the chairman of the House Permanent Select 
Committee of Intelligence, and Robert McNamara, the CIA General Counsel 
at the time, we began an informal dialogue to clarify the concerns on 
each side. The events of September 11, 2001 increased the urgency of 
that effort.\1\
---------------------------------------------------------------------------
    \1\ For the past three years, I have had the pleasure of co-
chairing with Jeffrey Smith, the former general counsel of the CIA, 
periodic meetings of the Dialogue and participating in an often 
spirited debate.

T2The Dialogue Between the Media and the Intelligence Community
    On one side, we have convened well-known, experienced 
representatives of the media--reporters, editors, publishers and 
owners--those who have served the front lines of providing the public 
with the limited information it receives about national security 
matters.
    At our invitation, the government has drawn on the participation of 
the general counsels and representatives of the directors of each of 
the major intelligence agencies, the National Security Council and the 
Attorney General, and the ``point of contact'' person who deals with 
reporter calls for comment on a pending stories dealing with 
intelligence or other sensitive national security or homeland security 
matters. Representatives of the respective House and Senate 
intelligence committees have attended. Others, who have attended our 
off-the-record meetings, include officials from the White House 
Homeland Security Council, a former Counsel to President, and a former 
White House Chief of Staff.

Benefits of the Dialogue Between The Media and the Intelligence 
Community
    By taking the concerns of each side seriously, the dialogue has 
proven to be beneficial in demythologizing the issues of ``leaks'' in 
several ways:
        <bullet> Both the news media representatives and the government 
        officials share an appreciation of the need for secrecy in 
        appropriate circumstances. Reporters protect their relationship 
        with sources by guaranteeing the secrecy of their identities. 
        Compromise of that secrecy is very rare. Similarly the news 
        media understands that there are important reasons for the US 
        government to protect certain secrets that could damage 
        national security.
        <bullet> The media representatives have become more familiar 
        with the nature of what intelligence professionals view as the 
        most sensitive aspects of their operations. An understanding of 
        the practical and concrete side of ``sources and methods'' 
        issues (as opposed to the rhetorical side so often publicly 
        referenced by intelligence officials without documentation) has 
        allowed the news media to avoid publishing certain details in a 
        gratuitous, occasionally even casual, manner that can cause 
        genuine damage to national security. Often the details can all 
        be reported to the public, but careful editing, such as 
        bifurcating certain stories into two or more parts, can remove 
        the danger to operations.
        <bullet> The government representatives have been willing to 
        acknowledge that the public's understanding may often benefit 
        from certain ``leaks,'' particularly where the media's excision 
        of a small detail removes the major danger to their operations.
        <bullet> Both sides have learned that many of what were 
        originally believed to be damaging ``leaks'' by American 
        officials actually came from on-the-record comments, often from 
        foreign intelligence officials and had already been reported 
        overseas.
        <bullet> A gradual appreciation has developed on both sides 
        that there are certain stories that the intelligence community 
        still asserts are damaging and that the news media still 
        believes warrants publication, but there seems to be agreement 
        that the instances are better dealt with by mutual discussion 
        than a criminal statute.
        <bullet> The Attorney General's task force on unauthorized 
        disclosure released its report in October 2002 concluding that 
        while administrative measures should be strengthen to 
        investigate and administratively punish leaks, an Official 
        Secrets Act was not appropriate.
        <bullet> Both sides generally recognized the importance of 
        establishing a single responsive point-of-contact for reporters 
        at each intelligence agency to deal with sensitive stories 
        about to be published. In certain instances, these contacts 
        have corrected details of stories; in other instances, the 
        stories were withdrawn.

Homeland Security Dialogue Between the Media and the Administration
    As in most dialogues, not all issues can be resolved; many are 
pending. But generally, the dialogue has focused productively on the 
types of issues before you today.
        <bullet> How much information about terrorist threats should 
        the media provide?
        <bullet> How can the government best partner with the media to 
        ensure that the public is properly informed?
    In the course of our dialogue, we began to address with assistance 
of the White House Homeland Security Council, the nature of the federal 
government's concerns about the news media's publishing information 
about Homeland Security vulnerabilities. There was clearly a difference 
of opinion about the White House's desire to increase the amount of 
information about Critical Infrastructure Information to be withheld 
from the public. With nearly 85% of the nation's critical 
infrastructure in private hands, questions arose about access to 
previously public information and the ability of the media to warn the 
public about the existence and responsibility for vulnerabilities, 
particularly those which could endanger large numbers of citizens in 
metropolitan areas, such as urban chemical plants.

Sensitive Homeland Security Information
    As we proceeded, we became aware of the pending implementation of 
Section 892 of the Homeland Security Act of 2002, responsibility for 
which was assigned on July 29, 2003 by the President to the Secretary 
of Homeland Security. Co-authored by a member of this committee, 
Section 892 had the commendable purpose of allowing the sharing of a 
great deal of important information with local and state officials, 
first responders and certain industry representatives. The thrust of 
the provision is to supplement the information available to non-federal 
officials who have security clearances by making available sensitive 
but unclassified information to a target group including as many as 4 
million individuals.
    The underlying concept is that the federal government would 
declassify information by removing the classified features. The model 
of a tear-line, where by the information ``below'' the tear-line is 
unclassified and can be widely shared is intuitively obvious to 
journalists involved in national security reporting. The tear-line 
metaphor of accurate information devoid of the most sensitive features 
so it can be shared is in essence a formalized version of what 
reporters do every day. In background briefings--authorized and 
unauthorized--our sources edit out the potentially damaging details and 
share their knowledge of the underlying facts and policy issues which 
can be made public without damaging sources and methods. This in fact 
is the basis for what you read about national security matters in the 
newspaper and on broadcasts everyday.
    Most journalists deem such efforts to share information more 
broadly to be a positive development. But as we talked further with the 
government officials involved, we began to identify the prospect for 
the development of an entire new system of Sensitive Homeland Security 
Information, SHSI, an aggregation of ``Sensitive But Unclassified'' 
information that would require its recipients at the local, state, 
first responder and private industry levels to protect it from 
disclosure virtually indefinitely.
    As first envisioned by the Administration such a system--
particularly as it encompassed significant portions of the estimated 4 
million possible recipients--would de facto become a new security 
control system, potentially rivaling in size the current system of 
national security classification. We understood from our informal 
discussions with the White House that the first two drafts of 
regulations provided a series of problematic elements:
        <bullet> The ability to create SHSI sharing disclosures within 
        broad categories of information would be dispersed throughout 
        many federal agencies and broadly delegated to many federal 
        officials, who were not required to keep careful records of 
        what had been distributed and to whom;
        <bullet> In order to receive SHSI, the local, state, first 
        responder and private industry recipients would enter into Non-
        Disclosure Agreements, which it was anticipated would specify 
        criminal and civil penalties, likely including draconian 
        liquidated damage features, and that in the event of 
        unauthorized disclosures, recipients would be required to sign 
        affidavits disclosing their contacts with the media;
        <bullet> Responses back to the federal agencies from local, 
        state, first responder and private industry recipients of the 
        SHSI information were required to come back under the same 
        safeguards, but would then be required to be incorporated into 
        federal files as classified information in many instances;
        <bullet> In order for local, state, first responder and private 
        industry recipients to act on the SHSI they received, they 
        would often have to ``recruit'' other local, state, first 
        responder and private industry officials to become part of the 
        system and sign Non-Disclosure Agreements, making it very 
        likely that the number of individuals covered would grow 
        dramatically;
        <bullet> Because the information was never classified, there 
        would be no systemic way to request its declassification and 
        release. The suggested holding time for information as SHSI 
        before review would be 15 years. While SHSI would be subject to 
        the federal Freedom of Information Act--if anyone knew it 
        existed--SHSI would be denied almost routinely as inappropriate 
        for release.
        <bullet> Once designated as SHSI, the information distributed 
        by the federal government could not be released by the local, 
        state, first responder and private industry recipients or any 
        other local or state agency or official under local and state 
        Freedom of Information Acts or other public access statutes.
    After informal discussions with various administration officials, 
there have been some encouraging responses to the questions raised. 
Although I have not seen the most recent version to see if these 
changes are memorialized in the draft regulation, I am told the 
originally anticipated regime of Non-Disclosure Agreements will not be 
a feature of the system as presently intended.\2\
---------------------------------------------------------------------------
    \2\ There is also some indication that existing information sharing 
mechanisms may facilitate the implementation of a less elaborate 
system. At the federal level, information sharing involves coordination 
between DHS, the Department of Justice, the Federal Bureau of 
Investigation, the Department of Defense, the Central Intelligence 
Agency, the State Department and others. There are in fact information 
sharing mechanisms which accomplish portions of the task now but need 
to be made more compatible and interoperable, including systems which 
transmit classified information the Homeland Security Information 
Network (HSIN), Law Enforcement Online (LEO), and the Regional 
Information Sharing System (RISSNET). At the level of sharing with 
local, state, first-responder and private individuals, there are also a 
variety of mechanisms to share actionable but unclassified Law 
Enforcement Sensitive (LES) information including criminal records and 
grand jury records. At present this is accomplished without Non-
Disclosure Agreements. One question for Congress to address to DHS is 
whether it attempting to build an elaborate new system in order to fix 
mechanisms which are not broken and which could be expanded and 
formalized as they presently exist.
---------------------------------------------------------------------------
    I do not have answers to other troubling questions raised by the 
potentially massive size and scope of the system, by the lack of 
accountability for the designation of SHSI or for the anointment of its 
eligible recipients, and the indefinite duration of the system. In 
particular, there remains a significant prospect for abuse at the local 
level, where officials or private industry representatives may attempt 
to use incoming SHSI information as a shield from responding to 
inconvenient news media inquiries or as an excuse to deny citizen 
access to traditionally available information.
    While I have no doubt that the media and civic groups would 
eventually destroy such obstruction, there remains the very real 
prospect for extended and painful battles over information in instances 
where public corruption or private liability are being hidden. The 
worst consequence of such local abuses or of unjustified and overbroad 
use by federal officials will be the discrediting and abandonment of a 
valuable information-sharing initiative. The local, state, first-
responder and private recipients will find themselves confused and 
frightened by the requirements, unable to sustain their credibility 
with the news media and prevented from accounting for their actions to 
their colleagues in government.

The Role of the Department of Homeland Security
    The most distressing aspect of the pending implementation of the 
SHSI system is that Department of Homeland Security has ignored the 
repeated efforts of news media representatives to discretely discuss 
these issues. Fortunately, DHS is the only department in the 
administration to have taken such a position, and individuals in other 
departments have maintained a dialogue. But since the Secretary of DHS 
is charged by the President with responsibility for the implementation 
of the statutorily mandated SHSI system, the prospect remains that a 
system conceived by Congress to facilitate the broad sharing of 
information will instead become the most prevalent mechanism for the 
control of information to keep it away from the public.
    The record of DHS on other related issues such as the 
implementation of the regulations for the control of Protected Critical 
Infrastructure Information (PCII) has not been encouraging. DHS has 
ignored the media and public interest community on important practical 
considerations that could have reassured the public that private 
industry would not be allowed to ``hide'' otherwise public information 
in the PCII system.
    DHS has actively sought the cooperation of the leaders and owners 
of the broadcast media in order to assure that they are prepared to act 
as a voice to reach the public in times of a terrorist incident. It 
would appear that DHS understands the reach of the broadcast media for 
government information outreach but does not comprehend that working 
journalists and editors see it as their obligation to inform the public 
on the full range of matters before, during and after such incidents.
    Our experience has shown that a meaningful and cooperative dialogue 
can develop a balance between the news media interests in important 
issues of national security and intelligence reporting and the 
intelligence community's concerns for leaks of highly sensitive sources 
and methods. I am concerned senior officials in DHS may wish to forge 
ahead with a SHSI system without such meaningful discussions on SHSI 
and the variety of other issues about what information can and should 
be provided to the public under particular conditions. I do not believe 
that the government can shape and control domestic news about Homeland 
Security issues for long. Such attempts will ultimately fail because 
the news media--to use Pentagon parlance--is already embedded in 
American communities.
    The few months have seen repeated recommendations in myriad 
reports, legislative proposals by congressional leaders and testimony 
by several cabinet officials all emphasizing the problem of improved 
information sharing in the face of the systemic overclassification of 
national security information. A bi-partisan consensus in Congress has 
lamented the inability to even appeal the denial by the Administration 
of access to classified information. The haphazard creation of a 
massive new SHSI system to control unclassified information would only 
compound the problem. In fact, in the case of SHSI, it is likely that 
no one will know for years how much information collectively has been 
created in that category. It is as important for Congress to tend to 
the pending SHSI safeguarding arrangements with the same degree of 
attention it will inevitably have to give the current classifications 
system.

Demonstrating Good Faith in Keeping the Public Informed
    Appropriate information-sharing initiatives should also be able to 
publicly demonstrate that they are part of a good faith effort to 
increase--at least eventually--public accountability by making 
information available as soon as possible within the confines of 
national security dangers. Recent Congresses have been regularly 
exempting government information from public access and have not 
conducted careful oversight of actions in the last four Administrations 
which have further removed public access to information.
    For example, this week the House/Senate conference over the Armed 
Services bill will likely rubber stamp a provision by which government-
licensed commercial remote sensing data--satellite photos, radar images 
and infrared data--are being exempted from disclosure under the FOIA. 
This is precisely the type of information which allowed the dramatic 
real-time weather predictions by which Floridians were able to track 
the paths of hurricanes Charley, Frances and Ivan. While future 
improvements in image resolution and detail may require some 
restrictions on the distribution of information received by the 
government under contract, this instance stands as an example of how 
casually the Congress can treat the systemic erosion of public access 
to important information. Apart from holding sufficient hearings to see 
if the exclusion makes sense, members with Florida and Gulf Coast 
constituents may wish to examine the issue sufficiently to answer 
questions next year if insufficient information is available to provide 
detailed weather coverage during hurricane season.

Understanding Congress's Role
    In so far as we can approach expectations about what the news media 
can and should tell the public about terrorism, I wish to emphasize the 
potential role of Congress in establishing the criteria and baseline 
for executive branch sharing of SHSI. The congressional oversight of 
these decisions would have a direct and significant effect on the 
media's ability to get and disseminate important homeland security 
information.
    Paraphrasing the words of Woodrow Wilson in Congressional 
Government, the job of this committee and its sister committees in the 
House and Senate, indeed of the entire Congress, is to discusses and 
interrogate the administration on such topics. Wilson insisted that 
``the informing function [of Congress] should be preferred to its 
legislative function.''
    This suggests the appropriatenss of returning to one of the 
traditional relationships between the Congress and the news media. Over 
the past four decades, some of the most important periods of 
congressional oversight were often coupled with effective journalistic 
inquiries into matters of serious public consequence--particularly 
national security crises. The two institutions often relate to each 
other as hammer and anvil, alternating the roles. The Congress can 
request information, issue subpoenas and hold hearings under oath with 
ranking figures in the administration. Without the advantages of such 
formalities, the news media takes advantage of private briefings, often 
on background or off-the-record, in which, without fear of exposure, 
senior, middle level and even front-line personnel can speak more 
candidly.
    These two mechanisms together have proven to be among the most 
effective manner by which the American people are informed and prepared 
to deal with the contingencies of national security and homeland 
security. Such parallel activities can dramatically increase the 
public's confidence that it is getting necessary information. I recall 
in fond memory congresses which fulfilled their responsibilities for 
appropriation, authorization and oversight of Executive conduct in a 
spirit of cooperative collaboration across party lines. This may be 
impossible in the countdown to an election, but it seems that the 
public has the right to expect such cooperation in the matter of 
Homeland Security. The news media will take advantage of the baselines 
of information you develop.

An Informed Citizenry
    If properly briefed and regularly engaged in dialogue with the 
government officials who are responsible for homeland security threat 
assessments and responses, the news media will perform as your ultimate 
first responders. No major attack will ever occur on our homeland to 
which the news media will not respond front and center. Armed with 
relevant information, the news media will also vigilantly examine and 
document potential threats to the homeland, as well as the 
effectiveness of the government responses. They will be the most 
reliable conduit of accurate--and trusted--information to the public. 
The result will be the very thing to which Tom Kean and Lee Hamilton 
referred in their testimony before the committee in August, when they 
said ``An informed citizenry is the nation's best defense.''

    Chairman Cox. Thank you very much, Mr. Armstrong, for your 
testimony.
    The Chair now recognizes himself for 8 minutes for purposes 
of questioning, and let me begin again by both welcoming and 
thanking all three of our witnesses whose adult lifetimes and 
professional careers have been devoted to thinking about these 
questions.
    This is a difficult hearing to convene if for no other 
reason than that we are not interested, any government interest 
or at least the interest of this congressional committee, in 
adjusting let alone regulating the ways in which the media 
ought to conduct its professional responsibilities.
    At the same time as the testimony of each of our witnesses 
has made abundantly clear, there is a need from journalism 
itself in order for journalists to do their job to cooperate 
with government to get information, and all of us have to 
recognize because it is so abundantly clear that when seconds 
count, as happens after a terrorist incident easily imagined 
involving biological weapons, that information that is imparted 
in the private sector by the media is going to trump everything 
else. It is going to determine the success of our nation.
    Rather than try to begin the questioning with my own 
thoughts or my own advice on this topic, I thought I would 
consult someone who like each of our witnesses is well 
respected in journalism but even better yet is esteemed because 
she is no longer with us and therefore cannot be questioned at 
all. That is Katherine Graham, who wrote on this very subject 
rather presciently in my view many years before September 11.
    She made several points which are relevant to today's 
hearing. She said, first, and I think our witnesses would all 
agree, that if terrorism is a form of warfare, as many 
observers now believe, it is a form in which media exposure is 
a powerful weapon.
    That said, terrorists are impossible to ignore, and the 
question is not whether to cover them or whether to restrict 
coverage of them but rather how?
    Terrorist acts for journalists and I think for the public 
they serve are impossible to ignore. Rumors rather than facts, 
which would abound if journalists did not do their job, would 
be even more threatening to the public, nor is there an 
compelling evidence that terrorist attacks would cease if the 
media stopped covering terrorist events. It is even to imagine 
in fact that terrorists would just up the ante until they got 
the attention that they deserved.
    So Katherine Graham offered several pieces of advice, which 
I would like to toss out for your consideration here this 
morning. ``First, observe the necessity for full cooperation,'' 
and I am quoting word for word, ``the necessity for full 
cooperation wherever possible between the media and the 
authorities. Second, prevent terrorists from using the media as 
a platform for their views. Third, minimize the propaganda 
value of terrorist incidents and put the actions of terrorists 
in the perspective.
    Recognize that terrorists are often remarkably media savvy 
and can and do arrange their activities to maximize media 
exposure and ensure that the story is presented their way. We 
decided the case of one terrorist who reportedly said to his 
compatriot, ``Do not shoot now; we are not in primetime.''
    Recognize that there is a real danger that terrorists 
hijack not only airplanes and hostages but the media as well.
    Avoid bringing undue pressure on the government to settle 
terrorist crises by whatever means, including acceding to the 
terrorists' demands. Recognize that media coverage can indeed 
bring such pressure on the government.
    Finally, never forget that intense competition in the news 
business raises the stakes even more. The electronic media in 
the United States live or die by their ratings, the number of 
viewers they attract. As a result, each network wants to be the 
first with the most on any big story. It is hard to stay cool 
in the face of this pressure. This has created some unseemly 
spectacles and poor news decisions, I think we could all agree.
    In order to satisfy the national interest in getting that 
fact out, which is completely harmonious with journalism's 
interest in getting the facts out, there has to be cooperation 
between government, which possesses a lot of this information 
at times of crisis, and the media who cover them.
    My question, to open this hearing, to each of you is 
whether or not the exercises that Mr. Sesno suggested 
journalists themselves conduct that are now being conducted by 
the Department of Homeland Security, it is the famous TOPOFF 
exercises, most recently in TOPOFF 2 conducted in Seattle and 
Chicago with simulated dirty bomb and biological weapons 
attacks, are these exercises, which have drawn worldwide 
private sector participation and the government participation, 
whether or not there is a role for the media to participate in 
those?
    I know, Ms. Sesno, you have directly participated as a 
professional journalist but also, in my view, unfortunately, as 
a retired journalist and an academic, technically speaking. I 
believe, although I may be mistaken, that that was due to some 
reticence on the part of media organizations to participate 
directly.
    I would like to understand whether that is a considered 
view, whether we are still feeling out this territory, what the 
risks are and what are the opportunities.
    On the face of it, I will say, having given considerable 
thought to this myself, that because each of you in your 
testimony pointed out that it is vital for people to have 
sources, to have these things checked out in advance, to not be 
scrambling in the moment of truth, the topoff exercise can 
provide that kind of an opportunity to show off your rolodex. 
Who is the emergency first responder I need most to be talking 
to were this to happen and so on? I mean there is a lot for 
journalists to extract from these exercises.
    And when that dirty bomb was set off in Seattle in the 
exercise and a lot of the information that was being provided 
by the government was in conflict, we had different information 
from EPA than we got from the Department of Energy, for 
example, and the mayor of Seattle was beside himself about what 
to tell the public about which way that radioactive plume was 
going and what the hell they should do. Wouldn't it be nice if 
the journalists had gotten in deep into that same problem and 
thought about what they would do and were not inventing it on 
the fly.
    So I want to lay that before you and I will ask each of 
you, Mr. Kalb, Mr. Sesno and Mr. Armstrong, to give me your 
thoughts.
    Mr. Kalb. Mr. Chair, I think we should recognize in the 
very beginning that there already is a great deal of 
cooperation between the media and the government. There are 
many illustrations, and in Katherine Graham's book she 
enumerates a number of them, of information that The Washington 
Post had, which it checked with the government, the government 
said, ``Please do not report that. It is bad for the national 
interest,'' and The Washington Post on almost every occasion 
agreed and did cooperate with the government.
    Chairman Cox. That is a different track, if I may say so. I 
am not talking about, and I want to be very explicit about 
this, the government withholding information. We are talking 
about the best way to get the facts out.
    Mr. Kalb. I was hoping to get to that point. But just to 
make the general point that there is cooperation that already 
exists. Therefore, I myself see nothing wrong with journalists 
cooperating with the government in these exercises to try to 
work out ways in which if something dreadful happens, the press 
will be able to handle it in a more effective way, and the 
government will understand its responsibility to get the 
information out to the public as quickly as possible.
    I think both sides understand, with a proper sense of 
responsibility and dedication to the country, that there is a 
requirement before both sides to do it as effectively as 
possible in the interest of the people.
    So I personally have no problem with that at all. I wonder 
only about the effectiveness of that kind of an operation. 
However, if it helps even to a modest degree, I, for one, would 
say go right to it. I think it is a great idea.
    Chairman Cox. Thank you, Mr. Kalb.
    Mr. Sesno?
    Mr. Sesno. I think that participation in these exercises, 
as I mentioned, exercises of a variety of sorts, is crucial for 
news organizations. There is an explosion in, heaven forbid, 
downtown Hartford. You are the assignment editor. Do you send 
your crews? Do you send your producer? Do you know whether it 
is a radiological device? Do you wait? Who do you talk to? Do 
you know who to talk to? Is there a conduit of information? 
What do you tell the public? When do you tell the public? As 
you say, who is in the rolodex, in the front of the rolodex? Is 
it purely alphabetical or something different than that?
    I will tell you that there was interest in being on the 
inside of TOPOFF 2, and it was the Department of Homeland 
Security and others who were overseeing the exercise who were 
reluctant to open it up to the media, because they and other 
first responders across the country did not want their practice 
and their mistakes chronicled.
    So there will have to be a very unusual arrangement, an 
off-the-record arrangement, essentially, if it is going to be a 
real exercise.
    Chairman Cox. That goes back into Mr. Kalb's analogy or 
circumstance of government cooperation where information was 
withheld.
    Mr. Sesno. Yes. I do think that there are other ways for 
news organizations to drill and to exercise without being 
inside the government exercises. And they can and they were 
able in the case of TOPOFF to cover them and look at them from 
the outside. There were open events. They were public events in 
those cities and elsewhere.
    Chairman Cox. Mr. Armstrong?
    Mr. Armstrong. Mr. Chairman, I think the difficulty here is 
that while many news organizations and many journalists would 
like to participate in a variety of interactions with the 
Department of Homeland Security, the perception is that the 
Department of Homeland Security understands the use of the 
broadcast media and has solicited the cooperation of the 
leaders and owners of that media as a way of providing a 
megaphone for public information if they need to communicate in 
a time of crisis and considerably sensitivity to the needs of 
journalists, particularly non-broadcast journalists, for an 
understanding of the fundamentals behind homeland security 
decisionmaking, the kinds of things that would raise questions 
about the adequacy, as Frank pointed out, of their preparations 
themselves and their responses.
    And until they adopt that, and I have to say that the 
Department of Homeland Security is almost singular in its 
unwillingness to allow journalistic inquiry within its bounds, 
there are other departments that discourage it, to be sure, the 
CIA and the Department of Defense from time to time, but as a 
practical matter, they understand the need for it and 
cooperate. The Department of Homeland Security is, to the 
contrary, by and large, only available through public forums of 
their making and has not provided the kind of background 
briefings that are otherwise available.
    And so I think that working out a working relationship is 
difficult when the other side only wants to have it on their 
terms. And I think this is an important issue for Congress to 
raise, because it is going to be a limited amount of 
information, not as accurate as it should be and certainly not 
as perceptive or useful to the public in creating confidence, 
restoring confidence on issues like evacuation plans.
    They simply do not want to ever talk about how evacuation 
plans are solicited and prepared and what they are. Well, no 
local journalist should rest until they understand if they have 
a likely terrorist incident in their locale how it is that they 
would communicate on that issue. Where are they going to go 
except to federal, state and local sources on this?
    And when federal sources discourage it and are largely able 
through the system I discussed earlier to enforce a certain 
restraint as safeguarding of the information that they provide, 
it makes it difficult for journalists to proceed. They will, 
and we will get the information, but it is just more difficult.
    Chairman Cox. Thank you. My time has expired.
    The gentleman from Texas, Mr. Turner, is recognized for 
questions.
    Mr. Turner. Thank you, Mr. Chairman, and I want to thank 
our distinguished panel for being with us today. I think all of 
you said it best when you concluded with the words, ``Only the 
truth can truly keep us free.''
    I share some of the concerns that Mr. Armstrong has spoken 
to today. I think it is so very critical that information 
regarding the activities of government be made available to the 
public, particularly in the area of homeland security where it 
is so vital that we take whatever actions we need to take to 
ensure the safety of the American people.
    If information is withheld from the public, the prospect 
is, and I think the current tendency is, for the public to 
believe that we are safer than we really are. And I have looked 
at a few documents that were the work product of the Department 
of Homeland Security the last few weeks and months, and I think 
it raises the issue very well for us that you raised, Mr. 
Armstrong, about the use of designations that keep this 
information from the public.
    Just to give you a flavor for it, and after I show you 
these, I am going to ask you for your comments, each of your 
comments, about the use of these various designations of 
material is not classified information but that is released by 
the Department of Homeland Security with some type of 
designation, the purpose of which is to limit its distribution 
to the public.
    As examples, here is a Department of Homeland Security 
congressional advisory of TOPOFF 2 program and after action 
summary of the results of a congressionally mandated national 
terrorism training exercise. This document is designated, ``For 
Official Use Only.''
    I would be interested as we go through these as to what you 
think that designation means to the media and what restrictions 
you think that imposes on you, if any, ``For Official Use 
Only.''
    Here is a report of the Science and Technology Directorate 
prepared for the House of Representatives, an overview of their 
activities. It is designated, ``For Official Use Only.''
    Here is a document that is labeled not only, ``For Official 
Use Only,'' but bears the designation, ``Sensitive Security 
Information.'' This document, which I assume is so sensitive 
that I would be in violation of the regulations if I were to 
tell you what is in it, but I will take the liberty to glance 
at the cover and to tell you it relates to a study of the 
sensitivity sterile areas at airports and the degree of 
security contained there.
    Here is another document produced by the Department of 
Homeland Security with a cover sheet, ``Sensitive Security 
Information.'' It is a document that on its face says it is an 
evaluation of the Federal Air Marshal Service--sensitive 
security information.
    Here is a report from the Office of Inspector General. That 
is one organization within every agency that supposedly 
operates with some degree of independence and accountability to 
the Congress and the public. The cover sheet on it says, 
``Redacted Report for Public Release.'' It is a document that 
is entitled, ``Evaluation of the Federal Air Marshal Service by 
the Office of Inspector General.''
    Here is another document, a recent document, entitled, 
``Sensitive Security Information, For Official Use Only.'' It 
appears to be report on screening operations, program 
improvement report issued by the Transportation Security 
Administration, a division of the Department of Homeland 
Security. It shows on its cover that it was submitted by two 
private contractors who are under contract with the TSA, giving 
a report, as I said, on program improvements within the airport 
screening program.
    Here is another document produced by the Department of 
Homeland Security labeled, ``For Official Use Only.'' On its 
face, it is another report from the Office of Inspector 
General, entitled, ``DHS Challenges in Consolidating Terrorist 
Watch List Information.''
    And, finally, a document again entitled, ``Sensitive 
Security Information,'' from the Department of Homeland 
Security, an Office of Inspector General report, entitled, ``A 
Review of the Use of Alternative Screening Procedures at 
Bradley International Airport,'' which, interestingly enough, 
was produced at the request of Senator Lieberman who received a 
letter from one of his constituents questioning an alternative 
screening procedure that the constituent had observed, called 
batching, which is a variation of explosive trace detection 
sampling designed to adapt to a higher volume of passenger 
traffic moving through the screening system.
    Frankly, there may be some pieces within these documents 
that properly should be protected for some reason or another, 
but I seriously doubt if the information in these documents 
have any justification in whole from being withheld from the 
public. And in fact if we were to have congressional hearings 
on any one of these subjects, I am sure every member of this 
committee would feel free to make inquiry about anything 
contained in these documents.
    So my question for each of you, and perhaps we should start 
with Mr. Armstrong who addressed the issue initially, what is 
your reaction to this type of practice, its impact upon the 
public and the ability of the public to understand what, in my 
judgment, is serious security gaps that I know remain in 
homeland security and I think many who deal with this subject 
understand and the lack of opportunity for the public and the 
press to gain that understanding with the designations placed 
on these type of documents?
    Mr. Armstrong. First of all, Congressman, I hope that your 
official use will be to enter these all in the record of this 
hearing. It sounds to me like a perfectly sound use.
    By and large, we distinguish these types of reports as ways 
of controlling information, to control the discussion or 
comment or criticism usually about the failures of government 
organizations to do their jobs. Office of Inspector General 
reports are routinely ``For Official Use Only.'' It is usually 
to preserve the embarrassment.
    All the designations that you listed should have been 
preceded by a review of the information to remove all 
classified information. I mean they have been derelict in their 
duty if they left classified information in.
    Most of us can distinguish between broad policy concerns, 
the ineffectiveness of, say, the Air Marshal Service, in 
general, or the fact that it is too thinly staffed or what not 
in general terms, all of which is important public information, 
from an observation that might appear in the report that if a 
terrorist were to put a bowling ball in the compartment above 
the guy in the first row who has the heat on in the middle of 
summer and a big thick cuff on the right side of his pant leg 
and you drop the bowling ball on the head of that person, that 
is a very effective terrorist technique. That might well be 
left out of a report, the identification of how people are 
distinguished as air marshals, or any of the other things that 
you mentioned.
    But that is easy to distinguish from the fact that these 
are general reports that deserve to be in the public domain and 
deserve to be discussed.
    Chairman Cox. Mr. Sesno?
    Mr. Sesno. I would like to answer this easily and say we, 
the public, should trust those in government to keep 
confidential that which should remain confidential or to say it 
should all be released because that is in our interest, and, 
obviously, this is a much more nuanced thing than that. Some 
information does need to, and I think everybody in the media 
understands, that some information does need to be closely 
guarded.
    However, I think I would like to answer this from the point 
of view of a journalist and the point of view of a citizen. If 
there is something in a community that is not working, that is 
not safe and secure, don't the citizens have a right to know 
that? Do we think that the terrorists do not already know that?
    I recall after 9/11 there was great controversy over some 
reporting about easy access to airport tarmacs, and wasn't that 
information being given to the terrorists? Do we not think that 
the terrorists already knew that? Do we not think that those 
who are going through those airports, innocent civilians, have 
a right to know that, and then they put public pressure and 
political pressure to lean on those authority to do something 
about it.
    It is in our DNA, I suppose, to err on the side of 
releasing more information to the public to give the public 
credit to understand what is going on, and clearly there is a 
great challenge and problem with overclassifying and over 
secretizing, if I can make up a word, this information that is, 
in many cases, readily available, common sense and in some 
cases, actually, duplicative of that which has been done or 
published either in academic or other private sector circles.
    Mr. Kalb. Congressman, many years ago, for a brief time, I 
worked at the U.S. Embassy in Moscow, and I learned then that 
the rules of classification are exotic devices. I never 
understood them then, and, in truth, I am not sure that I 
understand them now.
    Obviously, you want to keep information out of the public 
domain that might do damage. But in those days articles from 
the New York Times were clipped and stamped secret and 
sometimes top secret. I did not understand it then, and I am 
sure that some of these ``For Official Use Only'' documents 
ought to be made public. I certainly associate myself with the 
comments of my colleagues.
    However, there is today a psychological need, as a result 
of 9/11, to be extra cautious and to be extra careful. So there 
is the extra danger of overclassification, of denying the 
public information that it ought to have, and that is going to 
rest with you and other parts of the U.S. government to come up 
with the best way of finding that proper balance. But a proper 
balance in that respect and in so many others is going to be 
the way in which we are going to address many of these issues.
    Ms. Dunn. [Presiding.] I yield myself 5 minutes for the 
purpose of asking the panel one question.
    And my interest is in the area of, how do you prevent the 
news media becoming a pawn of the terrorists?
    We all know that Timothy McVeigh was absolutely totally 
satisfied with the Murrah Building bombing in Oklahoma City. He 
said it was a blast that was heard around the world. He also 
said that he selected that building for the attack because, 
``It had plenty of open space around it to allow for the best 
possible news photos and television footage,'' and that is his 
quote.
    He wanted to ``make the loudest statement and create a star 
qualifying image that would make everyone who saw it stop and 
take notice.'' That is also his quote.
    We also know that terrorists have ways of easily getting 
information into the hands of the media. Al Jazeera has been 
listed as one of those open and accessible media sources that 
can get that information quickly out to people in the rest of 
the world.
    I would like to know how great you think the danger is that 
we are preventing propaganda designed to encourage and recruit 
new members to extremist organizations, to get out the success 
of the operations that they have concluded? Do you think that 
the text of some of these releases includes secret messages to 
terrorists around the world?
    But, most importantly, how do we make sure--how do you 
develop that balance that is so delicate between what needs to 
be said to the public and offered to the public versus what the 
terrorists will grow and become broader-based based upon?
    Mr. Kalb. I do not know how that balance is to be struck. I 
think that is a very central question. There is absolutely no 
doubt that terrorists around the world are now super 
sophisticated in the use of the media. It is part of their 
strategy to get the greatest impact, to get it on television. 
If it be in primetime, so much the better. That is part of the 
strategy. In other words, the use of terrorism is a weapon in 
the terrorists' hands to achieve a certain goal, and there is 
no question that the use of the media is one devise in that 
pursuit.
    It poses for the media a critical challenge, particularly 
in an age of terrorism. If you know you are going to be used by 
the terrorists, do you allow yourself? I gave an illustration 
in my testimony about the reporter getting this great interview 
with Zarqawi. That reporter when he gets that interview will 
know in advance that he is giving to a known killer the front 
page of any newspaper and any wire service and the evening 
news.
    The balance that we have been seeking, do the American 
people have a right to know what it is that the number one 
killer, as we have defined him, in Iraq, what that person 
thinks, what sort of person is he, aside from the large 
statement that he is a killer?
    My own judgment, as a former journalist, would be, yes, the 
American people have that right, but there is that balance, and 
we have got an awful lot of time in a 24/7 world for 
journalists to provide not only the headline but the context, 
how it happened so that the American people have the whole 
picture rather than just the inflammatory image that comes to 
mind and that is projected.
    Mr. Sesno. I think you touched on perhaps the central 
challenge that we in the media face, in particular those who 
are disseminators of real-time information and in the global 
context face up against this challenge.
    In one sense, none of this is new. Terrorism, whether it 
has been called terrorism or not, it got its name from the 
reign of terror where guillotines were set up in public squares 
to be clearly visible and to publicly express the terror, has 
always had as part of its objective disseminating information 
in imagery to frighten and to terrorize.
    What is new, obviously, is that we are now talking about 
real-time and a global reach, and in our context and in our 
lifetimes, one of the things that is new and very vexing is 
the, if not the demise, certainly the diminution of the role of 
the gatekeeper in journalism.
    There was a time when a Marvin Kalb could stand and say, 
``No, we should not put in this paper or on the broadcast,'' 
and there were two or three other people in the country who 
would make similar decisions and that would determine whether 
that information is out.
    When I was at CNN right after 9/11, there were certain 
decisions we made about things we were not going to broadcast, 
but some of those things were broadcast over the Internet from 
Pakistan. So you touch on a very difficult issue, because we 
cannot control it in quite the same way as an industry.
    I would say, however, that the determinative factor here is 
experience. We have learned. I mean over the years at CNN we 
have been 24/7 since we went on the air, and we learned the 
first Gulf War and we learned with subsequent terrorist and 
crises situations some of the nuance of reporting. I think that 
is something that Al Jazeera has not yet learned.
    And there is an appreciation for the impact of this 
information of terrorism and the clear and deliberate strategy 
of terrorists to use media to disseminate their propaganda and 
to mobilize their followers. And, by the way, they are going to 
do that whether we want them to or not.
    Mainstream media did not publish these horrible beheadings. 
They went out on the Internet, didn't they? So they were 
available for people to find. That is a troubling thing.
    Mr. Armstrong. The terrorist act itself is the message. It 
is what is communicated directly, and except in the rare 
instances where an image like the beheadings is withheld, it is 
has a significant impact. We acknowledge that.
    Putting it in context and giving some proportionality to it 
is what journalism does, and that has a major corrective 
effect. Timothy McVeigh--and it is an easier thing for us to 
understand because it is our homegrown terrorist--Timothy 
McVeigh's activities, as reported on and elaborated on in the 
press, is credited a widespread militia movement. It did not 
dry up entirely. I cannot say that there were not people 
recruited to it by the act, but, by and large, it had a 
deleterious effect on that movement, which I think was a 
healthy development.
    On the question of secret messages, inspirational messages 
that are broadcast by terrorists and when the public should 
broadcast them, it is my understanding that the intelligence 
community, in general, feels that the balance is that they 
should be broadcast, that it keeps more of them coming, which 
gives more information to the intelligence community about 
where they are coming from and how they got there and increases 
the likelihood that someone will find some anomalous connection 
with a fact or a piece of backdrop or whatever else, that some 
information will come forward which will in fact solve the 
problem.
    You recall the sniper incidents in D.C. and the police 
withheld the fact that after they leaked the white van they 
never bothered to say there was another maroon, smaller car 
until in an act of desperation when the public was totally 
panicked they announced it, and that very evening someone 
called in and said, ``Oh, you mean one that is like the one 
that is parked in the rest area up just north of Baltimore,'' 
and the person was arrested that night.
    The million eyes that our public can provide, people who 
are thoughtful and perceptive and what not, is far more 
valuable as an asset than the fear that we are going to spread 
other panic or the prospect that we are going to somehow 
flatter the terrorist movement itself.
    Mr. Sesno. Madam Chairman, may I just make one very brief 
additional point because I think this is very important to 
realize and in particular for the public to realize.
    This question is one that is discussed and debated in great 
detail and at great length at every news organization I know. 
No news organization, no journalists wants to be used, 
especially when it comes to something as horrible as this. I 
think it is very important for the public to understand just 
how committed and serious news organizations are when it comes 
to this topic, and it is a point I just wanted to make.
    Ms. Dunn. Thank you all.
    The Chair yields 5 minutes to the gentleman from 
Washington, Mr. Dicks.
    Mr. Dicks. I appreciate the testimony here today. I want to 
go back to Mr. Armstrong on this issue of the effort to 
classify or designate things as sensitive but unclassify law 
enforcement sensitive and create this gray zone. It used to be 
if it was classified, you could not publish it; if it was 
unclassified, you could publish it. How do you deal with this 
new gray zone that has been created by these attempted 
regulations?
    Mr. Armstrong. Well, I know of no restraint on the press 
that would be observed as questionable to whether something was 
classified or unclassified in terms of publishing it or whether 
it was considered sensitive homeland security information, top 
secret or just plain old routine information, except the 
content of the information.
    If there is something there, and you should be in a 
dialogue, and most journalists are, we have tried to establish 
a point of contact arrangement with most of the agencies so 
that if there is something to be published that has sensitive 
information in it, the government knows about it and is in a 
position to make an objection or--
    Mr. Dicks. And you have said in your statement that the 
Department of Homeland Security is not very cooperative in this 
respect.
    Mr. Armstrong. They are devoid of a point of contact.
    Mr. Dicks. And that is unusual. In other words, you have in 
other agencies CIA, Defense, State, there is somebody you talk 
to about this, and Homeland Security has refused to cooperate 
to discuss this.
    Mr. Armstrong. I would not quite put it that--I think part 
of this resides in a particular assistant secretary who 
believes that her boss's interests are best served by running 
them as if he were in a campaign rather than the director of an 
agency, and that is part of it. But part of it also is this is 
a fast--this has just recently been staffed, people are very 
new, procedures are not carefully worked out. It is a practical 
implementation problem.
    You want to share the information. There is sometimes truly 
sensitive things in it, but declassifying it does not mean all 
sensitivity is there. You do not want the terrorists that you 
are on to to know that you have asked the Portland Police to 
look around and find out what is going on in local bodegas or 
local stores that they might be frequenting that you want to 
get feedback about. And you do not want to create a 
classified--you do not want to have to give everybody 
clearances to do it.
    By the same token, it does not have to stay in that 
category in perpetuity. There could be life span that is very 
limited, and that is the difficulty is that there is going to 
be a tendency to put almost anything in this and then use it. 
And we have been told while it is available under the Freedom 
of Information Act, technically, what SHSI or law enforcement 
sensitive or any of the rest of these things, for official use 
only, means is that it is designed to be denied under the 
(b)(2) exemption, so-called high (b)(2). It will not be 
publicly released. This will be carefully handled and not 
released.
    Mr. Dicks. We are in a very highly political season right 
now, and I would just say this: The ranking member has just 
pointed out all of these documents. It is my opinion--I have 
been up here for a long time, 28 years--that this story about 
the ineffectiveness of the Department of Homeland Security in 
terms of doing what Congress told it to do and putting the 
resources up to protect us and then you have got all kinds of--
you have got the Council on Foreign Relations led by Gary Hart 
and Warren Rudman--you have got all kinds of outside groups 
that have looked at this but for some reason the press has 
chosen, I think, to not give this the coverage or to really 
look into how effective the administration has been on this 
issue.
    And in my experience, I have never seen anything quite like 
this on a major issue that is so important to the American 
people where there does not seem to be the coverage that would 
be warranted by the record.
    Now, is there any way to explain this based on your 
professional experience about why this story has not been more 
thoroughly covered by the working press?
    Mr. Armstrong. September 11 has left the press somewhat 
shell-shocked. There is a concern that government deserves a 
degree of deference.
    I do think the reporting that you are looking for is 
occurring. I think that it is dependent somewhat on the kind of 
hammer-and-anvil effect of the press reporting on certain 
things, Congress holding hearings, press reporting more. There 
is a kind of way in which you get the official account, the 
press goes behind the scenes and gets more that works.
    There are portions of this that have been traditionally 
there that work quite fine, and it is not clear why they want 
to change them. ``Law enforcement sensitive'' is a designation 
that has been informal, but what it amounts to is things are 
shared. Grand jury materials, drug information, what not, are 
shared with local law enforcement on the understanding that 
they will not repeat it. That restriction is not codified in 
law but is, generally speaking, observed. There have not been 
complaints about it. If it is not broken, what are we fixing 
here? And that is the concern that we have.
    Mr. Dicks. Would either of the other two gentlemen like to 
comment on this?
    Mr. Kalb. I would just like to say that I share your view 
and share the idea of raising this question about where is the 
media on this issue, but one could say where is the media on a 
number of other issues as well?
    I agree with Scott that 9/11 had this dramatic effect on 
everybody, including the media, but the media ought to get over 
that, and in many respects it has not. In many respects, 
including something as important as the coverage of the war in 
Iraq and the buildup to the war, the media, among many other 
aspects of this society, failed to get the message out and to 
dig deeply, because it still wanted to give the government 
every benefit of the doubt. One would have thought by now it 
would wake up, and I think it has to a degree but not to the 
degree that is, in my judgment anyway, professionally 
laudatory.
    Mr. Sesno. Let me just take this on from a very direct 
point of view. The issues you raise are allegations and 
assertions that carry an extra dimension of reporting to them 
if they are going to be brought to the public; therefore, they 
require access and they require digging and work that take more 
time and require more investment by news organizations, many of 
which who have gone through terrible budget cuts themselves and 
are stretched too thin.
    They require a degree of fortitude and backbone because you 
have to stand up in society, raise your hand and say, 
``Something is wrong here,'' at a time when the consumption of 
news has been politicized as well, and this is often not 
welcomed reporting.
    I am concerned that at some point, terrible point in the 
future, after something terrible happens, we will see yet more 
stories, like we saw on the front page of The Washington Post 
some weeks ago that said, why didn't we ask different 
questions? Why didn't we give this greater public scrutiny? And 
so the stakes are high, not just for how we respond after a 
terrorist attack but the questions we ask before a terrorist 
attack.
    Mr. Dicks. And the Congress has a responsibility here too.
    Mr. Sesno. It is not just media and media assertion. You 
are the guys who call the hearings, you are the guys who ask 
the questions, you are the guys who have access to this 
information. So do something with it.
    Mr. Dicks. We are trying. Thank you.
    Chairman Cox. [Presiding.] The gentleman's time has 
expired.
    Mr. Dicks. I would like to ask a question.
    Chairman Cox. Sure.
    Mr. Dicks. Some people got 8 minutes, and some people got 5 
minutes. Is there any reasoning behind who got what?
    Chairman Cox. Yes.
    Mr. Dicks. This is not a feeling of discrimination, but I 
am worried about it.
    Chairman Cox. Well, to assuage the gentleman's concerns, I 
will remind him that under the committee rules members who are 
here within 5 minutes of the final gavel if they waive their 
opening statements, they are entitled to an additional 3 
minutes of questioning.
    Mr. Dicks. I see. Thank you.
    Chairman Cox. Gentleman from Nevada is recognized for 8 
minutes of questioning. He is the chairman of the Subcommittee 
on Intelligence.
    Mr. Gibbons. Thank you very much, Mr. Chairman.
    And to each of our witnesses, welcome and thank you for 
being here today. We do appreciate the fact that you have taken 
time out of your busy schedule to help us better understand 
this issue before us.I have a series of questions, which I will 
ask and allow you to answer in seriatim, whichever you prefer, 
but I do want to get these points across.
    It seems sitting here, listening to you, and I certainly 
appreciate and value the wisdom, the experience and the 
knowledge that you bring to this committee, but there are some 
things that perhaps that we in this Congress and perhaps the 
American people do not understand. And it is one which perhaps 
you have looked at internally.
    My first one, is there a written code of ethics or is it an 
individual conscience about balancing national security with 
the public's right to know? For example, if you were given 
information which defined a newsbreaking story but yet if it 
were broken would result in the loss of an innocent life, is 
there a written code of ethics that you follow or is it 
individually judged by each of the editors or by the reporters 
in that situation?
    Second question: You talk about the public's right to know, 
you talk about the oversecretization, the overclassification, 
if you will, of information by the government. What standard is 
there about the oversecretization about reporters' information 
by the media?
    Does not the public have the right to know sources of your 
information, early reports, edited reports, et cetera, that are 
produced, which may have information which you or an individual 
editor might want to exclude from public knowledge based on 
your presumption of how the story should be viewed or portrayed 
to the public?
    Finally, let me ask this one very difficult question for 
each of you to answer. In today's dependency on the media, the 
expectation of the public to learn the information that you 
have to give, why does the media have such a low public 
opinion?
    With that, I will ask each of you to respond. Thank you. It 
matters not which who starts first.
    Mr. Sesno. In deference to the class I teach called, ``Bias 
in Media,'' I will go first.
    These are very, very difficult questions. Is there a 
standard written code of ethics for all journalism? Is there a 
constitution for all journalism? No, and there should be.
    Do most news organizations, most major news organizations 
have some kind of written standards and practices? Yes, they 
do.
    Is there specific guidance? I can speak from my experience 
at CNN where we were, and expressed it and discussed it and met 
about it, always sensitive to any information that would 
jeopardize lives or ongoing operations. Information that would 
jeopardize lives or ongoing information was not reported.
    Is there a standard for oversecretization in the media? 
Look, we are going to discuss and probably always disagree on 
the value and the necessity of sources and protecting sources, 
but that is a fundamental cornerstone of journalism and of free 
press, and Scott would not have done the work that he did 
during Watergate, and the country would not have found out 
about a whole host of things, from unsafe food to horrible 
working conditions, to corruption in government were it not for 
sources who asked for and are granted secrecy.
    That being said, I believe strongly that news 
organizations, especially today, are not nearly transparent 
enough, and they operate at some, often, too often, at some 
lofty level. I believe every major news organizations should 
have an ombudsman or some public liaison with the public to 
explain what, why and how where they can.
    Why in such low self-esteem? It is an epidemic in many 
ways, but it also comes from the screaming matches and I think 
what some very thoughtful people in journalism and academic 
journalism have called the argument culture that in many cases 
those in the news media have helped to spawn, which I think 
drives a spiral of cynicism in this country.
    Mr. Kalb. Congressman, on the first issue about whether 
there is or should be a written code of ethics, I do not think 
there should be. I do not trust the person who would write it.
    Point number two, I think you were suggesting should the 
public have a right to know where the journalists got their 
information, how reliable is that information? I think after a 
while the public has a good feeling for the reliability of a 
reporter and the news organization a reporter works for, 
whether it is reliable or whether it is not.
    I do not believe that journalistic organizations should be 
in a position ever to be forced to disclose sources. The news 
organization may choose to disclose sources after a while under 
a good bit of public pressure, but they should not be forced to 
do so.
    The third question is for me one of the most difficult ones 
to answer and one that I have tried to answer in a classroom 
and before students now for 16 years and I think I have failed.
    Frank touched on this a moment ago. We are in a culture 
where everything is on television, where people are prepared to 
tell the most sensitive secrets of their private lives on 
television. I do not understand that, I truly do not, but it 
happens all the time.
    And I think the public may be a bit fed up with the 
appearance of casualness the way some anchor people by the use 
of the change of voice can go from a report on terrorism to a 
weather report by just saying something like, ``Something 
terrorism,'' and then, ``About the weather.'' And it does not 
seem to matter that we are talking sometimes about life and 
death and sometimes talking about nothing of any consequence at 
all.
    The news business today is driven by the need to make 
money. This is a fact. The news business today is driven by a 
desire to increase circulation, raise ratings. Is this new? No, 
it is not, but it has never reached the point of fanatical 
obsession that it has reached these days, so that it affects, 
quite literally, the product that goes out on the air. And if 
the news media is held in low esteem, in my judgment, for a lot 
of good reasons, maybe it ought to be.
    Mr. Gibbons. Mr. Armstrong, I know that you want to answer 
these questions in great detail and depth. We do have to recess 
shortly, so I have been advised that if you could sort of just 
shorten your answer to my long question, we could recess for 
these votes and be back in time.
    Mr. Armstrong. It is easy to be third. First question, no, 
obviously no written things, but journalism does not take place 
in a vacuum. Good journalism is engaged with the government. It 
is the balancing that is done is because of what the government 
says is sensitive. You are in a dialogue with them, you are 
getting additional sources, you are checking things, you have a 
point of contact.
    On the issue of sources, sources are meant to be kept 
secret. We understand why sources and methods are sensitive to 
the government. They, I think, understand that, generally 
speaking, we have the same requirements. That can lead to 
abuses. Therefore, it is responsible journalism to try and give 
the reader the best idea they can of the perspective and 
background of even the anonymous source.
    And, thirdly, the question of why we are in low esteem, 
much of what is in the media, and we have used the word, 
``media,'' is not news media. A late-night talk show, that is 
not a journalist any more than Jay Leno is a journalist, 
although there are times when I think that the John Stewart 
Show comes closer to journalism than the evening news. But 
having said that--
    Chairman Cox. I thank our three witnesses. We are going to 
recess, and we are just now inquiring whether we can dismiss 
the panel.
    I know, Mr. Kalb, you need to leave by pre-arrangement at 
12:30, and we are in the middle of votes on the floor. I think 
better judgment, which you will appreciate, is that we can 
dismiss this panel. You have been enormously gracious with your 
time and more importantly with your knowledge and your 
experience and your expertise. Thank you very much for helping 
us tackle these difficult problems.
    For my part, I will say that I hope that you will continue 
to work to encourage these exercises, that the government and 
the media both participate in these, because I think the health 
and safety of the general population depends upon it. Thank you 
again.
    The committee stands in recess until the conclusion of 
votes, and we will resume subject to the call of the Chair.
    [Recess.]
    Mr. Shays. [Presiding.] I am going to call this committee 
meeting to order and to announce our second panel: Barbara 
Cochran, president, Radio-Television News Director Association; 
Gregory Caputo, news director, WGN-TV, Chicago, Illinois; and 
Robert Long, vice president and news director, KNBC, Los 
Angeles, California.
    And, Ms. Cochran, I am grateful you are here and we would 
like to hear your statement. And so you have the floor.

STATEMENT OF BARBARA COCHRAN, PRESIDENT, RADIO-TELEVISION NEWS 
                      DIRECTOR ASSOCIATION

    Ms. Cochran. Thank you, Mr. Chairman and members of the 
committee. My name is Barbara Cochran, and I am the president 
of the Radio-Television News Director Association and 
Foundation. And I guess I should add here that I was also 
Marvin Kalb's producer at ``Meet the Press,'' so there is a 
connection between the first panel and the second panel.
    RTNDA represents 3,000 television and radio news executives 
and journalists. Our mission is to promote professional 
excellence and the First Amendment rights of electronic 
journalists.
    Our members bring the news to the American public 
instantaneously. And especially in an emergency the public 
relies on electronic media.
    A survey for the Council for Excellence in Government 
showed that television and radio were the number one and number 
two sources of information in preparing for a terror attack and 
in the event an attack occurs.
    Our members take very seriously their obligation to serve 
the public interest. Right now, television and radio stations 
from Louisiana to Florida are giving life-saving news about 
Hurricane Ivan. Commercials, formats, schedules, all go by the 
wayside to serve the community in an emergency.
    That was exactly what happened on September 11, 2001. The 
networks were still broadcasting their morning news shows when 
the first plane struck the World Trade Center.
    From that moment on, the networks and local stations stayed 
on the air for six days straight, working to the point of 
exhaustion to provide the most factual, informative reporting 
possible.
    Dianne Doctor, the senior vice president and news director 
of WCBS-TV in New York, described what went on inside the 
newsroom that day.
    She said,
    ``When the first word came over the police and fire 
scanners, the assignment desk swung into action, dispatching 
scores of reporters, photographers, and micro-wave transmission 
trucks toward lower Manhattan.
    Then came a barrage of terrifying, conflicting reports. 
None of this information could be officially confirmed. Every 
person of official capacity was involved in combating the fire, 
evacuating the towers and securing the neighborhood.
    With cell phone service interrupted, we lost the ability to 
communicate with field crews and reporters. All of the local 
stations lost contact with their transmitter sites. Their 
broadcast antennas were located on top of the World Trade 
Center.
    Six engineers manning their posts lost their lives when the 
north tower collapsed. Only WCBS-TV, which maintained an 
equally powerful transmitter on the Empire State Building, was 
able to return to air within a few seconds.
    As a result, New York area television viewers without cable 
or satellite television had only one major broadcast news 
outlet to watch for all their vital information.''
    Her description encapsulates the challenges television and 
radio journalists would face in a new terror attack. 
Information is scarce and confused. Official sources are busy 
and hard to find. Technology fails. And yet, stations do their 
best to stay on the air and provide the best information 
possible.
    After September 11th, television and radio news executives 
asked themselves, ``How well prepared are we, if a terror 
attack occurs in our community?''
    To help find solutions to that question, RTNDA and our 
educational arm, RTNDF, have made it a top priority to help 
stations prepare to deal with the possibility of new terror 
attacks.
    Now, in association with the National Academies and the 
Department of Homeland Security, RTNDF is producing workshops 
in 10 cities to help newsrooms and public agencies prepare.
    One goal of the workshop is to establish a dialogue between 
news organizations and public health and safety agencies. It is 
the sort of thing that Chairman Cox was talking about.
    When a crisis strikes, spokesmen for public agencies should 
be accessible and provide a flow of accurate information to 
dispel rumors and false reports. Disseminating information 
through the media is the best way to keep panic from spreading.
    Each workshop participant receives a copy of a checklist 
that we have developed for stations to help them evaluate and 
improve their disaster plans. And I have included that 
checklist in my written testimony.
    These plans deal with covering an attack, but journalists 
also have an obligation to keep the public informed so that 
attacks can be prevented or minimized.
    Citizens need to have enough information so that they can 
evaluate the risks in their community and the effectiveness of 
protective steps being taken by public agencies.
    That kind of reporting has become much more difficult. As 
you have heard already from the first panel, our members and 
other journalists are very disturbed by the dramatic increase 
in government secrecy since September 11th.
    Information has disappeared from government agency Web 
sites. And, in fact, whole agency Web sites have been taken 
down.
    New rules regarding sensitive security information, some of 
the other things that have come up, or hiding information about 
the safety of chemical plants, water supplies and other 
infrastructure.
    The Freedom of Information Act is being attacked on many 
fronts. If journalists are going to be able to keep informing 
the public, public officials, such as yourselves, must closely 
scrutinize new demands for secrecy to see whether those demands 
truly serve the public interest.
    Thank you.
    [The statement of Ms. Cochran follows:]

                 Prepared Statement of Barbara Cochran

    Thank you--to Chairman Cox, Rep. Dunn, Rep. Turner and other 
members of the House Select Committee on Homeland Security--for the 
opportunity to testify about the role of the news media in informing 
the public about terrorism.
    My name is Barbara Cochran and I am the president of the Radio-
Television News Directors Association and its educational arm, the 
Radio and Television News Directors Foundation. RTNDA is the world's 
largest organization representing electronic journalists. We have more 
than 3,000 members, news executives and journalists working at networks 
and local stations in television, radio and the Internet. Our mission 
is to promote professional excellence and the First Amendment rights of 
electronic journalists.
    Our members bring the news to the American public instantaneously. 
Whether through the immediacy of television, which allows viewers to 
witness events directly, or the ubiquity of radio, which serves 
listeners even when other sources have failed, or the accessibility of 
the Internet, which supplies news on demand, electronic journalism 
gives the public the news they want and need when and where they want 
and need it.
    And the public turns to television and radio and, if they have 
access, to the Internet, for news. RTNDF's most recent survey shows 
that local television is the number one source of news for 49.9 percent 
of Americans. In an emergency, the reliance on television and radio 
becomes even more pronounced. A survey prepared for the Council for 
Excellence in Government showed that television and radio are the 
number one and number two sources of information in preparing for a 
terror attack and if an attack occurs.
    Our members take very seriously their obligation to serve the 
public interest. That duty becomes most urgent when crisis or disaster 
strikes the community. In recent weeks we have seen television and 
radio stations playing heroic roles for the victims of Hurricane 
Charley, Hurricane Frances and now Hurricane Ivan. This is nothing new. 
For years, television and radio have provided life-saving information 
to their communities in an emergency. Commercial considerations, format 
restrictions, normal schedules all go by the wayside to serve the 
community in an emergency.
    That was exactly what happened on September 11, 2001. The networks 
were still broadcasting their morning news shows when the first plane 
struck the World Trade Center. From that moment on, the networks stayed 
on the air for six days straight, calling on all staff, pooling 
material, working to the point of exhaustion to bring the entire 
country the most factual, informative reporting possible on an event of 
heart-breaking tragedy. Local stations, too, went into 24-hour mode. In 
New York and Washington and Pennsylvania, stations gave their 
communities vital information about what steps were being taken for 
recovery and where to go for help. Because this was a tragedy that 
reached into every part of America, stations in all communities 
reported on the local impact and told their viewers and listeners what 
they could do to help those who were hit hardest.
    In the weeks that followed, journalists felt an obligation to 
answer the many questions triggered by September 11. How could this 
happen? Could it happen again? What steps were being taken to prevent a 
recurrence? What other tactics might terrorists use? What would a 
chemical or biological or radiological attack look like and how would 
it affect our community? What vulnerabilities are there in our 
community? What protective measures exist for the water supply, the 
port, the refinery? How well prepared are our public safety and public 
health agencies?
    All these questions became subjects for stories, and the reporting 
continues to this day.
    One obstacle to such reporting, an obstacle that deeply concerns 
RTNDA and other journalism groups, is the dramatic increase in secrecy 
of government records. Information has disappeared from government 
agency web sites. Rules for new categories of information, such as 
critical infrastructure information and sensitive security information, 
are placing important data out of public view. The Freedom of 
Information Act is being attacked on many fronts. If journalists are 
going to be able to keep informing the public, public officials must 
closely scrutinize new demands for secrecy to see whether they are 
truly serving the public interest.
    After September 11, there was another line of questions television 
and radio news executives were asking themselves: how well prepared are 
we, if a terror attack occurs in our community? Three years later, a 
lot of planning has been done, but we need to do still more to prepare.
    In 2002, the Federal Communications Commission convened the Media 
Security and Reliability Council, an industry group whose mission was 
to examine how the media infrastructure of our nation can best be 
protected and restored in the event of new terror attacks. A survey 
conducted for the Council showed that 71 percent of cable operations, 
47 percent of television operations and only 15 percent of radio 
operations said they have a disaster recovery plan. Fifty-eight percent 
of cable, 36 percent of television and 11.5 percent of radio operations 
said they had updated their plans after 9/11. And when asked whether 
they had rehearsed their plans, 58 percent of cable but only 17 percent 
of television and 7 percent of radio operations said they had 
rehearsed.
    As FCC chairman Michael Powell said, ``If you haven't rehearsed 
your plan, you don't have a plan.''
    As electronic journalists, we need to plan and prepare on three 
levels. First, as journalists, we owe it to our communities to help 
prepare them in advance by reporting honestly and independently on 
risks and disseminating information about what citizens can do to 
safeguard themselves.
    Second, because we work in electronic media, we need to be ready to 
report factually and comprehensively immediately after a terrorism 
attack occurs. The public will depend on radio, television and online 
news to provide information instantaneously. Information communicated 
quickly can keep a crisis from turning into a catastrophe.
    And, third, because television and radio stations are some of the 
highest-profile institutions in any community, they may be the targets 
of a terror attack. So we need to make sure our facilities are as 
secure as possible and to be prepared to get a communications system up 
and running after a devastating blow.
    For the past three years, RTNDA and our educational arm, RTNDF, 
have made it a top priority to help stations prepare to deal with the 
possibility of new terror attacks. To help journalists understand the 
nature of these new threats, RTNDF has conducted several training 
sessions and published the ``Journalists' Guide to Covering 
Bioterrorism,'' with support from the Carnegie Corporation.
    Now, in association with the National Academies, a group of private 
science, engineering, medical and research institutes, and the 
Department of Homeland Security, RTNDF is producing 10 workshops in 10 
cities to help newsrooms and public agencies prepare if disaster 
strikes.
    One goal of the workshops is to establish a dialogue between news 
organizations and public health and safety agencies so that community 
emergency plans do not overlook the crucial role of the media in 
responding to a disaster. When a crisis strikes, spokesmen for public 
agencies should be accessible and provide a regular flow of accurate 
information to dispel rumor and false reports. The first instinct of 
health, safety and law enforcement officials may be to attend to the 
crisis and ignore the demands of news media. But disseminating 
information through the media could be the best way to keep panic from 
spreading.
    Using a hypothetical scenario, workshop participants from the news 
media and health and safety agencies will find out what works and what 
doesn't as they respond to the simulated terror incident. Later in the 
day scientists will share information about the new kinds of weapons in 
the terror arsenal--biological, chemical, radiological and nuclear.
    Finally, news participants will leave with a checklist to help them 
evaluate and improve their disaster plans. Here are some of those 
suggestions:
    <bullet> Put your plan in writing. Store it in the computer system 
and keep it in hard copy, both at the station and off-site. Every 
department head should have a copy at work and at home.
    <bullet> Learn as you plan. Meet with local experts who can help 
you imagine what could happen in your area. Get together with emergency 
managers, public health officials and others in your area to learn more 
about their plans for dealing with emergencies.
    <bullet> Anticipate disruptions. How will you stay on the air if 
the transmitter is affected? Is there an alternate site you can 
broadcast from? What will you do for emergency power? Will that source 
power your computers, or should you have a backup plan for scripts?
    <bullet> Organize contact information. Make sure your assignment 
desk has up-to-date contact information for your entire staff, both on 
computer and in hard-copy, on- and off-site. Ditto for outside 
contacts, from your station group to local emergency responders, 
including after-hours numbers.
    <bullet> Review your routines. When and where do you refuel your 
news vehicles? When are batteries put on charge? Make it a station wide 
habit to refuel and check gear at the end of each day. Make sure your 
staff knows how to switch incoming phone calls and two-way audio to air 
if necessary.
    <bullet> Stock up. During a disaster, employees are likely to spend 
long hours at the station. Do you have cots and blankets? Food and 
water? Foul weather gear, flashlights and batteries? What about first-
aid kits? Cash? Decide who will check the inventory and how frequently.
    <bullet> Spell out the plan. Detail how station personnel will be 
notified and what is expected of them. All of them, not just those in 
the newsroom. Use an all-page system to get in touch with those on 
pagers. Give everyone a special phone number to call in case they can?t 
be paged, or create a phone tree to get the word out. Give everyone an 
assignment and a place to report in the event of a disaster. Create on-
call schedules to cover your newsroom at all times.
    <bullet> Prepare personnel. Assign reporters according to expertise 
and coverage areas, like medical, consumer and public safety. Include 
sales and traffic department employees in your planning-they can answer 
phones, plan meals and so on.
    <bullet> Practice the plan. Review the plan every six months or so, 
and update it as needed. Discuss it at meetings, to be sure it's fresh 
in people's minds and that new staffers are aware of what it entails. 
Then, practice it on a regular, unannounced basis to find out what 
works and what needs work.
    <bullet> Look beyond the plan. Your staff may see a lot of death 
and destruction. Plan to bring in counselors, or offer outside 
counseling. Encourage people to talk about what they've been through. 
Think about how the newsroom will get back to normal when it's all 
over.
    As you will hear from the news directors on this panel, many 
stations, especially those in cities that have been the subject of 
terrorism warnings, are making these kinds of plans. Let me share with 
you a note I received from Dianne Doctor, senior vice president and 
news director at WCBS-TV in New York City.
    She wrote: ``On September 11th, 2001, WCBS TV was the only major 
television station with a back-up transmitter high atop the Empire 
State Building in New York City. Early that morning, no one here 
imagined how fortunate we were--and how millions of viewers would be 
dependent on our station for a lifeline.
    That morning, it was business as usual at the local television 
stations in New York City. Some of us were busy covering the day's big 
story: a primary election. Crews and reporters were deployed at various 
voting precincts throughout the city.
    The first word of the attack blared through police and fire 
department radio scanners at assignment desks. At 8:46 a.m., a plane 
had struck the North Tower of the World Trade Center. The picture, 
first shown on the network of fixed traffic cameras, showed black smoke 
billowing from a hole in the side of the building. There were few 
flames, and the initial report was this was a single small plane. 
Television station assignment desks swung into action, dispatching 
scores of reporters, photographers, and microwave transmission trucks, 
towards lower Manhattan. Newsgathering helicopters launched from the 
New Jersey airports and landing pads where they'd set down after their 
early morning duties. It was a MAJOR story--but in those first few 
minutes, none would imagine the horror that was to follow.
    When the second plane struck the South Tower at 9:03 a.m., there 
came a barrage of terrifying, conflicting reports into the newsroom. 
The Pentagon was under attack. The White House had been struck. There 
were more planes headed into New York City. They would be shot down. 
None of this information could be officially confirmed. Cell phone 
service in the city was spotty, or nonexistent. Every person of 
official capacity was involved in combating the fire, evacuating the 
towers (and ultimately much of Lower Manhattan), securing the 
neighborhood. There were panicked phone calls to newsrooms from people 
trapped inside the towers. Was it better to break the windows--they 
asked--as their offices filled with smoke? We struggled to find the 
correct answers for them and coherent facts for our viewers.
    Mostly, newscasters reported what was on the screen in front of us 
and the rest of the world; two giant towers were burning--showering the 
streets with fiery debris.
    At 9:50 a.m., when the South Tower collapsed, the wall of dust and 
debris formed a huge cloud that blocked our view of the unfolding 
chaos. But when the North Tower went down shortly afterwards, there was 
no confusion about what had happened.
    With cell phone service interrupted, we lost the ability to 
communicate with field crews and reporters. They were all somewhere in 
the area of the giant black cloud. All of the local stations lost 
contact with their transmitter sites--their broadcast antennas were 
located on top of the North Tower. Six engineers manning their posts 
lost their lives, including Isaias Rivera and Bob Pattison from WCBS-
TV. [Gerard ``Rod'' Coppola of WNET-TV, Donald J. DiFranco of WABC-TV, 
Steven Jacobson of WPIX-TV, and William V. Steckman, Sr. of WNBC-TV 
were the other engineers who died that day]
    The over-the-air signals of all New York City's major broadcasters 
were gone. Only WCBS-TV, which maintained an equally powerful 
transmitter on the Empire State Building, was able to return to air 
within a few seconds. As a result tri-state television viewers without 
cable or satellite television had only one major broadcast news outlet 
to watch for all their vital information.
    As the crisis continued, Manhattan was `locked down' by police. We 
could not move our crews in or out of the city. Moving around within 
the city was slow. Large parts of lower Manhattan were off limits.
    Despite all these obstacles, we prevailed. In the hours and days 
that followed it was apparent that during the World Trade Center 
attacks, all of the local news media provided a vital public service. 
We were a calming voice in a nervous city, a lifeline, a resource for 
frantic relatives, rescuers and the rest of the viewing public.
    We provided phone numbers for counseling agencies, a schedule of 
prayer services, a list of places where blood could be donated.
    We broadcast Mayor Giuliani and Governor Pataki's frequent press 
conferences updating the progress of the search--advising us of other 
terror alerts.
    Our web pages became a massive community bulletin board filled with 
pictures of the missing.
    Gradually, we recorded New York's return to the `new normal.'
    We learned much from those first few hours after the world's worst 
terror attack. Our fragile communications system which relies primarily 
on cell phones is extremely vulnerable. Official information is scant. 
Rumors are rampant. Power and other vital systems are often affected. 
Our ability to broadcast may be impaired by unforeseen circumstances. 
Our crews and reporters, who instinctively rush towards a breaking news 
event, may be unknowingly putting themselves at risk. The anthrax 
attacks that followed 9/11 brought this point home again.
    Three years later, we have worked to put contingency plans in place 
that reflect some of these lessons. WCBS has a back-up broadcast 
antenna that would continue the station's over-the-air signal in the 
event that the Empire State Building transmitter was not functional. At 
our station, we have a fully tested back-up generator-based power 
system. We maintain broadcast bureaus in Westchester and New Jersey 
that could become a base for many employees if our New York City 
newsroom became inaccessible. We have a two-way communication system 
that could be used if cell phones are inoperable. There is a direct 
fiber communication link between City Hall and the city's television 
stations. We have reinforced our relationship with our radio partners, 
to pool our resources if necessary. Some of these changes also come as 
a result of the August 2003 blackout, which forced us to rely on back-
up power systems for sustaining coverage. We have also worked with our 
employees to review emergency procedures, and continue to revise and 
update these plans.
    We have taken the lessons of 9/11 seriously. While no one can 
predict when the next terrorist incident will occur, there is no doubt 
that those of us who managed newsrooms during those months are better 
prepared to cope with the next emergency.''
    The planning Dianne Doctor describes is beneficial to news 
organizations in dealing with any kind of emergency-weather, earthquake 
or power outage. But since September 11, we have all had to think about 
preparing for a new kind of disaster. With any luck, these plans will 
never need to be used in a real crisis. But since that terrible tragedy 
three years ago, we know no one can afford to risk going without one.

    Mr. Shays. Thank you very much.
    Mr. Caputo?

STATEMENT OF GREGORY CAPUTO, NEWS DIRECTOR, WGN-TV, CHICAGO, IL

    Mr. Caputo. I thank you very much for inviting me to 
testify. My name is Greg Caputo. I am the news director at WGN 
Television in Chicago.
    WGN has been on the air in Chicago for 56 years. The 
station has a rich history and tradition of providing live 
coverage of events ranging from politics to disasters, breaking 
news and weather stories, civic ceremonies and sports.
    In fact, the first regularly scheduled program on WGN, back 
on April 6th, 1948, was a 30-minute newscast.
    WGN now produces six hours of local news each weekday and 
one hour a day on the weekends.
    We are on the air for four hours in the morning, one hour 
at midday and a final hour at 9 p.m.
    In addition to our local signal in the Chicago TV market, 
our news at noon and at 9 are carried on the WGN Superstation, 
which is on cable systems throughout the country. The 
Superstation is currently available in 63.7 million households.
    These 32 hours of news each week demonstrate both a 
commitment and a responsibility to our viewers. We know they 
rely on us each day for the news. And we know they have a right 
to expect us to be there at any time with the latest warnings 
and information if an emergency is imminent.
    We are owned by the Tribune Company which in Chicago also 
owns newspapers, a local 24-hour cable news service, a radio 
station and Internet sites. These business siblings allow us to 
have a robust contingency plan to stay on the air in the event 
of trouble.
    As you know, our CEO, Dennis FitzSimons, chaired the Media 
Security and Reliability Council which was formed right after 
9/11 to begin the examination of some of the issues now being 
addressed in this committee.
    The conclusions and recommendations of the MSRC indicate 
that more work needs to be done to ensure that all Americans 
are served during a time of crisis and disaster.
    The RTNDA has taken steps to begin this work, sponsoring 
seminars around the country to discuss disaster planning in 
concrete terms, applicable to the newsroom environment.
    These seminars are valuable learning tools, as well as 
reminders of what we and the local TV newsrooms need to do.
    Our responsibility is two-fold. We must stay on the air. 
And we must have the latest, most accurate information for our 
viewers.
    To handle the first responsibility, our station has a 
written plan outlining the steps we will take in the event of a 
disruption. We have backup power systems, backup transmitters, 
backup communications, backup broadcast facilities. And in some 
cases, our backups also have backups.
    I mentioned our 24-hour cable service a minute ago. That is 
one of our backups. And their facility is located in a western 
suburb of Chicago.
    Our station is on the north side of the city. The cable 
station has all the resources needed to allow us to broadcast 
from there upon nearly a moment's notice.
    We also have a more limited backup facility located in the 
Chicago Tribune building in downtown Chicago. We have micro-
wave receivers located both in downtown Chicago and in the 
suburbs. All of these sites are capable of taking in our micro-
wave signals and turning them around to whichever transmitter 
or broadcast facility we need to use.
    Our satellite truck can be placed anywhere out of harm's 
way to provide coverage. And we have our own helicopter on call 
24 hours a day, equipped with transmitters and broadcasting 
equipment.
    None of this will matter, however, unless we also succeed 
at the second responsibility I mentioned, that we have the most 
accurate and up-to the-date information and up-to-date 
information for our viewers. In times of crisis, getting 
critical and life-saving information to viewers is the most 
important job we have.
    For example, the city of Chicago has built a sophisticated 
communications center known as the 9/11 Center. It has become 
the hub of information during any major disaster coverage. News 
media in Chicago know that when a disaster strikes, the main 
sources of information and warnings will come from there.
    The stations have worked with the city to have the ability 
to provide live coverage from there with the minimal amount of 
warning. This allows city and state officials with important 
information nearly instant access to the airways.
    Live coverage from the 9/11 Center is one way of making 
sure we serve our viewers.
    Utilizing technology for automated warnings is another.
    Participating in the Amber Alert system is a third.
    Keeping a list of experts and analysts to explain complex 
and frightening events is yet another. We have such lists, and 
we keep on retainer military and terrorism experts who 
regularly appear on our newscasts.
    In addition to explaining a particular event, these experts 
also serve another less obvious purpose.
    Their very existence and appearances on our broadcasts 
reminds viewers that terrorism and its consequences are real 
and can hit home.
    This is important, because one of the findings of the MSRC 
was that human beings, when faced with an awful situation 
regarding terrorism or disaster will attempt to disbelieve it 
and ignore warnings associated with it. This is human nature.
    The MSRC recommendation is that the media take steps to 
prepare people, letting them know what might happen and what 
they can do about it. The appearances of these experts for 
discussion and analysis during non-emergency times address what 
they need. These discussions remind viewers what might happen.
    Stations also have a natural competitive issue with each 
other and appear to fail to cooperate with each other at times. 
But one of the key findings of the MSRC is that the stations 
have in place such plans.
    To quote a memo from FitzSimons to FCC Chairman Powell, 
``There is a striking symmetry to the core findings. Simply 
put, local market planning, coordination and sharing are the 
keys. To be successful, MSRC needs to engender systematic local 
market voluntary cooperation.''
    And based on some experiences that I have had in the past, 
that can happen.
    Thank you.
    [The statement of Mr. Caputo follows:]

                   Prepared Statement of Greg Caputo

    WGN Television has been on the air in Chicago for 56 years. The 
station has a rich history and tradition providing live coverage of 
events ranging from politics, to disasters, breaking news and weather 
stories, civic ceremonies, and sports. In fact, the first regularly 
scheduled program on WGN on April 6, 1948 was a 30-minute newscast.
    WGN now produces 6 hours of news each week day and one hour a day 
on the weekends. We're on the air four hours in the morning, one hour 
at noon, and our final hour is at 9PM. In addition to our local signal 
in the Chicago TV Market (3,417,000 viewers,) our news at noon and at 9 
are carried on the WGN Superstation, which is on cable systems 
throughout the country. The superstation is currently in 63.7-million 
households.
    These 32 hours of news each week demonstrate both a commitment and 
a responsibility to our viewers. We know they rely on us each day for 
the news. And we know they have a right to expect us to be there at any 
time with the latest warnings and information if an emergency is 
imminent.
    We are owned by the Tribune Company which, in Chicago, also owns 
newspapers, a local 24-hour cable news service, a radio station, and 
internet sites. These business siblings allow us to have a robust 
contingency plan to stay on the air in event of trouble.
    As you know, Tribune CEO Dennis Fitzsimmons chaired the Media 
Security and Reliability Council formed after 9-11 to begin the 
examination of the issues now being addressed by this committee. The 
conclusions and recommendations of the MSRC indicate that more work 
needs to be done to insure that all Americans are served during a time 
of crisis or disaster. The RTNDA has taken steps to begin this work, 
sponsoring seminars around the country to discuss disaster planning in 
concrete terms applicable to the newsroom environment. These seminars 
are valuable learning tools as well as reminders of what we in the TV 
Newsrooms need to do.
    Our responsibility is two-fold: we must stay on the air and we must 
have the latest, most accurate information for our viewers.
    To handle the first responsibility, our station has a written plan 
outlining the steps we'll take in the event of a disruption. We have 
back-up power systems, back-up transmitters, back-up communications, 
and back-up broadcast facilities. In most cases we also have back-ups 
to the back-ups.
    I mentioned our 24-hour cable service. That's one of our back-ups. 
Their facility is located in a western suburb of Chicago. Our station 
is on the North Side of the city. The cable station has all the 
resources needed to allow us to broadcast from there upon nearly a 
moment's notice. We also have a more limited back-up broadcasting 
facility located inside the Chicago Tribune building in downtown 
Chicago.
    We have microwave receivers located both in downtown Chicago and in 
the suburbs. All these sites are capable of taking in our microwave 
signals and turning them around to whichever broadcast facility or 
transmitter we need to use. Our satellite truck is dual-path and can be 
placed anywhere out of harms way to provide coverage. And we have our 
own helicopter on call 24-hours a day equipped with cameras and 
transmitting equipment.
    None of this will matter, however, unless we also succeed at the 
second responsibility I mentioned earlier, that we have the most 
accurate and up to date information for our viewers.
    In times of crisis, getting critical and life-saving information to 
viewers is the most important job we have.
    For example, the City of Chicago has built a sophisticated 
communications center known as the ``9-1-1 Center.'' It has become the 
hub of information during any major disaster coverage. The news media 
in Chicago know that when a disaster strikes, the main sources of 
information and warnings will come from there. The Stations have worked 
with the city to have the ability of providing live coverage from the 
``9-1-1 Center'' with a minimal amount of warning. This allows city and 
state officials with important information nearly instant access to the 
airwaves.
    Live coverage from the ``9-1-1 Center'' is one way of making sure 
we serve our viewers. Utilizing technologies for automated warnings is 
another. Participating in the Amber Alert system is a third. And 
keeping a list of experts and analysts to explain complex and 
frightening events is yet another. We have such lists. And we keep on 
retainer military and terrorism experts who regularly appear on our 
newscasts.
    In addition to explaining a particular event, these experts also 
serve another, less obvious purpose. Their very existence and 
appearances on our broadcasts reminds viewers that terrorism and its 
consequences are real and can hit home. This is important because one 
of the findings of the MSRC was that human beings, when faced with an 
awful situation regarding terrorism or disaster will attempt to dismiss 
or disbelieve it and ignore the warnings associated with it. This is 
human nature. The MSRC recommendation is that the media take steps to 
prepare people, letting them know what might happen and what they can 
do about it. The appearances of these experts for discussion and 
analysis during non-emergency times certainly address that need. These 
discussions remind viewers what might happen.
    Another plan to handle a disaster, which I have yet to mention, is 
for stations to help out each other, to set aside their natural 
competitive instincts in favor of making sure the public gets all the 
information possible. In fact, this is one of the key findings and 
recommendations of the MSRC. To quote a part of a memo from Fitzsimmons 
to FCC chairman Powell: ``There is a striking symmetry to the core 
findings. . .simply put, local market planning, coordination and 
sharing are the keys. To be successful, MSRC needs to engender 
systematic local market voluntary cooperation.''
    I don't have to tell you how difficult this will be. But I can tell 
you about a situation which happened to me a few years ago when I 
worked at our company's station in Boston. A construction crane on a 
project next to our property toppled over and crashed into our 
building. Water lines and gas lines burst. The ceiling in much of our 
building came down. Water, dirt, broken beams, and the smell of gas 
were everywhere. We had to evacuate the building. The Fire Department 
ordered everything inside shut down. It was too dangerous. We were 
knocked off the air.
    But then something remarkable happened. Every television station in 
Boston called to offer us help. Every one of them. Within a couple of 
hours we were back on the air because of a satellite and microwave link 
from our sister station in New York through New England Cable News, 
which we don't own, to our transmitter. By the middle of that day we 
were moving our news people to WCVB-TV which had workspace, and a spare 
studio and control room for us to broadcast our news. That evening, 
while our building was dark and deserted, our newscast was on the air. 
We didn't miss a beat. The cooperation of the stations in Boston during 
this incident gives me hope that when something really important is on 
the line, when lives are at stake, that we in the media will be able to 
join together for the common good of all.

    Mr. Shays. Thank you very much.
    Mr. Long, welcome. We have already announced your presence.

  STATEMENT OF ROBERT LONG, VICE PRESIDENT AND NEWS DIRECTOR, 
                     KNBC, LOS ANGELES, CA

    Mr. Long. Mr. Chairman, Ranking Member Turner, members of 
the committee, it is a privilege to appear before this 
committee to testify about the role of the news media informing 
the public about dangers to safety and security.
    On a national level, NBC Universal has devoted substantial 
resources in support of FCC Chairman Michael Powell's 
initiatives to strengthen homeland security through the Media 
Security and Reliability Council.
    NBC Universal personnel continue to assist MSRC efforts, 
which already have delivered a series of best practices for 
ensuring the delivery of emergency information to the public, 
physical security and restoration of media facilities.
    NBC has also taken affirmative steps to increase Americans' 
understanding of public safety issues.
    For example, just last week, NBC News began a series of 
national reports called ``12 Ways to Make America Safer,'' 
dealing with topics such as how to make a family disaster plan 
and how to provide better security for railroad traveling.
    But I am here to talk only about local television news 
coverage. For us, the challenge is to find ways to make what 
happens in the world relevant to more parochial eyes. I believe 
that three things are essential to that mission: resources, 
poise, credibility.
    First, resources: We must do a lot of news and have the 
manpower to cover big stories.
    When I was news director here in Washington, WRC, Channel 
4, we expanded news to 40 hours a week, more than any broadcast 
entity in the city of Washington.
    When the Pentagon was struck, news teams from our sister 
stations in Chicago and Philadelphia came to our aid.
    More recently, our Miami station was able to draw on teams 
from all 13 other NBC-owned stations to deal with the 
devastation of Hurricanes Charley and Frances.
    KNBC in Burbank began backing up programming feeds for 
Telemundo. Their network is centered in Hialeah, just outside 
of Miami. Should their operations fail, Los Angeles would take 
over and keep that network on the air.
    This morning, our managing editor from Los Angeles, Keith 
Esparros, arrived in Birmingham to help our sister station's 
coverage of Hurricane Ivan.
    Second, poise: Poise is about how we deliver the news. Our 
coverage must be calm, timely, authoritative. I believe 
strongly that we must report only what we can see until 
reliable information begins flowing.
    We have only to look at the anthrax crisis and Beltway 
sniper killings during my tenure here to see the potential to 
cloud rather than clarify.
    Poise is also about making good journalistic choices. When 
WRC discovered the license number of the car Muhammad and Malvo 
were thought to be driving, the decision to broadcast that 
information led to a tip from a citizen and an arrest within 
hours. This information was being withheld by the police.
    To help with tough calls like that, we need to have a hot 
list of authorities. Every one of our markets has fine 
universities and laboratories and other institutions to draw on 
to create a crisis map.
    Third, credibility: To remain the most trusted source of 
information in the country, local television news must get 
smarter and stay smart.
    Traditional wisdom once had it that TV news could not 
report on complex social, economic and political issues; that 
it should focus instead on only what ``Joe Lunchbucket'' could 
touch and see. Keep it simple. Keep it relevant.
    This was always a patronizing and fundamentally wrongheaded 
view of what journalism is about and what people expect from 
television news.
    But it took September 11th to prove to some that the 
complex forces at work in the world can have a profound effect 
at home.
    ``Simple'' left our vocabulary that day, and we re-learned 
what art and science have been telling us all along: Nothing is 
irrelevant.
    Thank you again for the opportunity to testify.
    [The statement of Mr. Long follows:]

                   Prepared Statement of Robert Long

    Mr. Chairman, Ranking Member Turner and Members of the Committee, 
my name is Robert Long, and I am Vice President and News Director of 
KNBC, the owned and operated NBC station in Los Angeles. It is a 
privilege to appear before this Committee to testify about the role of 
the news media in informing the public about dangers to our safety and 
security in these difficult times.
    NBC Universal, Inc., broadly supports national and local efforts to 
increase the safety of all Americans. These efforts are not because of 
a governmental mandate or federal rule. As a major broadcaster, these 
efforts are simply part of what our stations, like other broadcasters, 
do, both on a national level and as part of serving our communities.
    On a national level, NBC Universal has devoted substantial 
resources in support of FCC Chairman Michael Powell's initiatives to 
strengthen homeland security through the Media Security and Reliability 
Council. NBC Universal personnel continue to assist MSRC efforts, which 
already have delivered a series of best practices recommendations for 
ensuring the delivery of emergency information to the public and the 
physical security and restoration of media facilities.
    NBC, the nation's leading television news service, also has taken 
affirmative steps to increase Americans' awareness of public safety. 
The national news coverage provided by the networks of NBC, including 
NBC, Hispanic network Telemundo, MSNBC and CNBC, ensure that all of our 
viewers are aware of the broader security issues that face our country. 
As part of this effort, NBC also is investing substantial resources 
into the possibilities of new digital programming services, including 
new and innovative multicast informational programming, that will 
combine local and top national coverage. Moreover, NBC believes that 
such national coverage must go beyond the news items of the day. For 
example, just last week, NBC News began a series of national reports 
called ``12 Ways to Make America Safer'', dealing with topics as 
general as how to make a family disaster plan and how to provide better 
security for railroad traffic. This sort of national coverage directly 
expands the public's knowledge of what to watch for and what to do in 
cases involving potential emergencies.
    Locally, NBC Universal's 29 English-language and Spanish-language 
stations have a different challenge. For local news, the challenge is 
to find ways to make what happens in the world relevant to a more 
parochial audience. This is a subtle and difficult kind of journalism, 
but a necessary complement to activities like the ``preparedness fair'' 
that our Los Angeles stations are putting together with the help of our 
local universities and government agencies. It involves how we choose 
our stories and who we select to speak with authority about the events 
of the day. It means putting the world into local context, because it 
is the intelligent thing to do and because there is no neighborhood 
beyond the reach of the malevolent forces at work against us. 
Journalists have always believed that a well-informed public is the 
best defense of liberty, and this axiom has never been more true than 
it is today.
    Dealing with results of terror is easier. Television newsrooms know 
a lot about disaster, and the same rules of journalism apply whether 
dealing with an earthquake or an enemy attack. Los Angeles, for 
example, has in the lifetime of many of its citizens experienced two 
riots, two major earthquakes, and three of the most ferocious 
firestorms in history. The city has endured lurid crimes, political 
assassinations, gang wars and acts of violence that terrorized whole 
communities.
    The mission of KNBC in extreme situations is threefold:
        1. Stay on the air (or quickly get back on the air).
        2. Show what is happening.
        3. Talk only about we can see until there is reliable 
        information to pass along.
    KNBC regularly reviews the station's area disaster plan to allow 
for new ideas and new technologies. The plan deals with both the 
mechanics and philosophy of news broadcasting. The mechanics are about 
our first mission--staying on the air or quickly getting back on the 
air. They embrace four scenarios.
        1. The studio, transmitter and antenna are operational.
        2. The studio, transmitter and antenna are not operational.
        3. The studio is operational but cannot transmit through the 
        antenna.
        4. The studio is not operational but transmission is possible 
        through the antenna.
    We believe we have thought through these scenarios and have 
solutions for them that involve, or will eventually incorporate, the 
use of a satellite production truck, direct transmission to cable head-
ends, a ``studio-in-a-box'' trailer parked away from our studios, and 
partnerships with other broadcasters who may be less affected by 
whatever calamity comes our way.
    More important than the mechanics of staying on the air is the 
philosophy that illuminates our coverage. At KNBC, this philosophy 
begins with strict adherence to ``reporting only what you can see.''. 
This is particularly important because official statements in the early 
stages of a crisis may be inaccurate and misleading, and speculation by 
a reporter, always a bad idea, can be life threatening in a crisis. 
Once credible information does begin flowing, the focus shifts to 
context. At KNBC we have on-call experts in the following areas:
        1. General science
        2. Environmental science
        3. Terrorism
        4. Police Tactics
        5. Military Tactics
        6. Fire fighting
        7. Earthquakes
        8. Los Angeles infrastructure
    When trouble comes, the appropriate expert or combination of 
experts reports immediately to the news director--whether he is at his 
normal place of business or in a field location. The job of the experts 
is to monitor incoming reports for accuracy and credibility, and to 
advise the news director on anything that falls within their purview. 
They stay at the news director's side throughout the crisis with the 
hoped for result being that our reporting will be more accurate, less 
frightening, and therefore more useful.
    In quiet times, these experts can help us update reports to be used 
in the event of a disaster, on everything from what is a ``dirty bomb'' 
to how to tell if water is safe to drink. We have assigned an executive 
producer the collateral responsibility of using our experts to help 
prepare the expository reports to be held for an emergency, and to 
oversee implementation of our disaster plan.
    Quiet times give us an opportunity to better inform our viewers 
about what many consider to be the inevitability of terrorism directly 
affecting their lives. KNBC recently conducted a round table with the 
area's top law enforcement officials to discuss the presence of Al-
Qa`ida in Southern California. We have discovered gaps in security and 
given our viewers and web users opportunities to express their fears 
and concerns. The reporting we do now is at least as important as the 
reporting we will do in the event of a catastrophe.
    I was news director at WRC here in Washington on September 11, 
2001, but I was in Paris when the Pentagon was hit. Minutes before, New 
York's Twin Towers had been attacked, five blocks from where my son was 
beginning his third day in high school. I was useless to my television 
station in Washington and to my son in New York, except to the degree 
that I had emphasized to them continuity of leadership, clarity of 
purpose, and individual initiative and responsibility. My son did not 
panic and made his way up the West Side Highway to safety, covered in 
ash. The assistant news director in Washington took command and guided 
coverage that was calm and complete.
    In particular in Washington, as at other NBC Stations around the 
country, the coverage was both national and intensely local. A station 
like WRC-TV, which routinely does 40 hours a week of local news, is 
successful precisely because it diligently focuses on its community. 
Again, this is not because of a government mandate; it is because this 
is what our stations do, and, thanks to our people and the expansive 
resources and support of NBC Universal, do well.
    What we relearned that day was that trouble never comes when or how 
we think it will; nature and our enemies are indifferent to our plans. 
We were reminded that it is not so much about having systems in place 
as it is about having a mental process in place; staying focused on our 
mission as information gatherers, and perfecting our craft of 
dispensing that information with calm and reasoned authority. It was 
also a lesson in looking after our own. Nannette Wilson, who was in 
charge until I could make my way back from France, and is now news 
director at NBC's WNCN in Raleigh, saw how living through and reporting 
the events of September 11 and its aftermath took a toll on our 
journalists. She made sure that counseling was available to them and 
was sensitive to their need to share in editorial meetings and be kept 
informed of evolving plans for coverage. Nannette's wise actions had a 
positive effect on our staff's ability to maintain its professional 
equanimity.
    A year later, we were dealing with the Beltway Sniper attacks that 
killed ten and again brought fear to Washington. The media had good 
days and bad days in its relations with the agencies that investigated 
those crimes. In the end, a decision by WRC to broadcast the license 
plate number of the suspected sniper car--information that had not been 
made available by authorities--led to the capture of the killers at a 
highway rest stop, and proved again the importance of a free and local 
press. It also was a vivid illustration as to how the support and 
extensive resources available to an NBC-Universal owned station improve 
local television: more resources result in not just better day to day 
coverage of local events, but also enhanced coverage of breaking news 
that is critical to the welfare of the entire community.
    TV wisdom once had it that local news had to avoid complex social, 
economic and political issues, and focus solely on what viewers could 
see and touch in their own neighborhood. ``Keep it simple and 
relevant'' were the watchwords. If we gave the public anything esoteric 
or hard to swallow, we would drive them away. This was always a 
patronizing and fundamentally wrong-headed view of what people want 
from local television news. But it took September 11 to prove to some 
that the complex forces at work on foreign soil can have a profound 
effect at home. ``Simple'' left our vocabulary that day and we 
relearned what art and science had been telling us all along: nothing 
is irrelevant.

    Mr. Shays. Thank you very much. I thank all three of our 
panelists.
    And my intention is to basically start with Ms. Lowey, and 
we will have 8 minutes for each. And then Mr. Lucas. And then 
you, Mr. Turner. And then Mr. Dicks.
    And then I will ask some questions as well. And if somebody 
wants to come back for a second round, we could.
    Ms. Lowey, you have the floor.
    Mrs. Lowey. Thank you, Mr. Chairman. And I want to join you 
in thanking our distinguished panel. As we saw from reports on 
broadcast ratings from the previous political conventions, 24-
hour cable stations are providing increasing numbers of 
Americans with news on current events.
    In many cases, perceived or real biases in the coverage of 
many of these networks, such as Fox News, have attracted 
millions of ideologically like-minded viewers to their 
broadcasts.
    Most of the testimony in the previous panel and this panel 
referred to the responsibility that news organizations have to 
the public. But let us face it: Not all anchors are impartial, 
and not all experts are without political affiliation, 
especially in light of the highly politicized atmosphere in 
which we find ourselves now, a nation at war, approaching 
elections, preparing for and defending against another 
terrorist attack.
    My first question is: How can we make sure in the 
responsibilities do we have, that there is still a line between 
news and spin?
    Perhaps I will just lay out all three, because they are 
really interrelated.
    Research has shown that people are tuning into news 
coverage that reflects their political ideologies, that 
different segments of the American population no longer read or 
hear the same news.
    How can you, as responsible people in the news industry, 
ensure that your coverage reflects the complexities of the 
issues before us, rather than defaulting to one bias or 
another?
    Lastly, I have to admit, I was looking at the recent Pew 
Research study, and I guess I am among the 5 percent that gets 
most of my news from ``The NewsHour,'' a little bit of CNN 
backing that up, and then some kind of network news in between, 
if I have some time.
    I saw the most remarkable program a couple of months ago on 
``The NewsHour.'' It is ``Mea Culpa.'' I do not know if any of 
you heard about it and saw it, but the people who were 
participating were really questioning each other. They almost 
all, to the person, acknowledged that there was a bandwagon in 
support of giving the president the authority to go to war.
    I think The Washington Post has since done many stories 
about that. Anything criticizing the administration, according 
to the responsible reporters and representatives of our media, 
on the program, were documented to be on the back pages.
    And we have seen a lot of analysis now, a couple of years 
later. And it is very distressing.
    I guess it is heartening that there has been some self-
examination and criticism of the media by themselves.
    But if you can answer the other two questions, perhaps 
comment, and then on this: How does this happen? Could it 
happen again? And what could we do about it?
    Perhaps you can begin.
    Ms. Cochran. This subject did come up in the previous 
panel, and I was interested in Frank Sesno's phrase. I think he 
called it the politicization of the audience, of the news 
consumers.
    And, you know, we are all dealing with that, those who are 
doing the more traditional, ``Straight ahead, just the 
reporting, thank you.''
    You know, I think we are blessed in this country that we 
have a wealth of sources of information and news. And also, 
opinion, something that has always been a staple of print 
journalism, is now becoming more a part of electronic 
journalism as well. You have talk shows. You have people who 
appear on the air who come from politics or come from an 
ideological perspective, and so on.
    But I think it is important to note in the same Pew study 
that you refer to: What is still the most watched and the most 
trusted source of news and information in this country? And 
electronic journalism, local television stations in particular, 
are the number one source of news for--in our own surveys--49.9 
percent of the public.
    And likewise, local television stations rank as the most 
trusted among the public. And they have managed to hold on to 
their credibility.
    And I would submit to you that it is because they provide 
news that is relevant, that is absent spin and that is the kind 
of thing that ordinary citizens really rely on. And they come 
to have a relationship with their local stations and to depend 
upon them.
    So I think the partisan nature that you have noted is not 
necessarily true in all parts of the news media.
    And you have also noted the tendency of journalists to be 
self-critical, and that is certainly true.
    I mean, we are critical of everyone else. And we also turn 
a critical eye, sometimes on our competitors, but also 
sometimes on ourselves.
    There are journalism reviews that thrive. There are 
discussion programs that thrive and so on. And I think this is 
very health.
    These kinds of topics are the kinds of things that we 
discuss at our annual convention every year, that journalists 
love to debate with each other. And they are debated within the 
newsroom.
    Almost any decision that is made of a really difficult 
nature is one that is going to be discussed and argued about.
    And that is what is very healthy about a newsroom 
atmosphere. And it is also something that makes it fun to be in 
a newsroom.
    And so I guess I would say that I think one of the things 
that we should do as an industry is to make it clearer to the 
public that those kinds of debates do go on.
    We need to let the public know that we do have standards 
and guidelines that we observe.
    And we need to probably share with the public more than we 
do the kinds of questions that we ask ourselves and take the 
opportunity when we think that something has been unbalanced in 
our past coverage to go back and to correct the record and to 
say, you know, ``Here is where we think we went wrong, and here 
is what we think is the right take on these issues now.''
    Mr. Caputo. I have a great deal of faith in the public. I 
believe that they see and hear a lot more than perhaps they are 
given credit for.
    You ask, ``How can we make sure that we present the 
difference between fact and spin?'' I think that is what you 
said.
    I think the public is pretty perceptive. Our responsibility 
is to make sure that we can point that out with the analysis 
and the commentary that we do with it by presenting the 
different sides and different points of view, which in local 
TV, I think we do.
    We are in local TV, and so we do daily newscasts. Somebody 
on one of the panels this morning talked about the 24-hour-a-
day news sites. We have had that in local TV all along.
    We are constantly available to our viewers. And we all have 
plans to take care of them in an instant if something comes up 
that our local viewers need to be informed of.
    The political ideology that you speak of in various 
networks and whatnot, I do not think, again, that is anything 
terribly new. It has been in the print press forever. It is 
part of the rich tradition of journalism in this country.
    And again, I have trust in the public. They can see that 
for what it is, and they may watch it. But they may also learn 
things from that, and they may learn things from other areas of 
other kinds of programs that are on.
    The local newscasts that we produce, we balance the various 
points of view, and we try to get as many points of view into 
an issue as we can, as a way of providing some context and some 
information for our viewers not only to make decisions, but to 
become as well-informed as they can of whatever the issues are 
facing the electorate that week or that day.
    And as to the bandwagon in support of the war, that is a 
very interesting question that we all were part in that time. 
And somebody in one of the panels this morning talked a little 
bit about the legacy of Vietnam, how some of that impacts some 
things that are going on even today.
    And in all honesty, I suspect there might have been a 
little of that, that there was a feeling that the government 
needed to be supportive in a war, or needed to be supported, 
and that the time to do the questioning was not right then.
    I think as journalists, we are looking at what we were 
responsible for back then and taking some notes and some 
responsibilities, and we will learn from that. Hopefully, we 
will not have to go through anything like that again.
    Mr. Shays. Thank you.
    Mr. Lucas?
    Mr. Lucas. Thank you, Mr. Chairman.
    When I came on this Homeland Security Committee, back last 
year, I had great hopes for what we were going to get done in a 
bipartisan way. But I have to talk about my sense of 
frustration in that it seems that this committee, one side of 
the aisle says everything is great, we are doing well; and the 
other side of the aisle says, you know, the sky is falling.
    And so I think a lot of it is dismissed as just partisan 
banter in an election year.
    But it has been very frustrating to me that we have not 
dealt in more candor, because everything is not all right, but 
we do not seem to see much of that in the media.
    And I guess I would ask you as panelists, and again, I try 
to be as reasonably objective as possible, and I know none of 
us are totally that way: But do you all agree with the prior 
panel? I think in essence what I heard them say was that we 
have kind of given homeland security a little bit of a pass 
since 9/11, and given them the benefit of the doubt.
    I would like for each of you to comment on that, starting 
with Ms. Cochran.
    Ms. Cochran. We need to distinguish between coverage of a 
bureaucracy, like the Department of Homeland Security, and 
coverage of homeland security threats and issues.
    I think that there is something to be said about the fact 
that the department itself has not received a lot of coverage 
at this point. It is a relatively new department. I am sure we 
will see some more of it.
    Columbia Journalism Review, in fact, published in their 
newest issue, an article asking that very same question, 
``Where is the reporting?'' outlining some stories that could 
be done.
    But as you will hear from my colleagues here, there is a 
lot of reporting being done, particularly at the local level, 
about serious flaws or risks that are not being addressed in 
local communities.
    Mr. Long. At the local level, we are not dealing with these 
agencies, as Barbara has said. Governor Schwarzenegger has 
named a head of homeland security for California. We are going 
to get to know him. We do not.
    We spend more time with our local officials, municipal 
officials, police officials. And we spend an awful lot of time 
trying to find out what does not work.
    This is not in the category of aid and comfort. To anybody 
out there, it is very irritating to a lot of our local 
officials to hear about these things for the first time on the 
evening news.
    We try to ascertain what Los Angeles's plan is, what it is 
for the larger area. We are talking about a huge geographic 
area, enormous population. What are people doing?
    We are chasing them around all of the time. I think we have 
been very aggressive on that front.
    It is very different. What national news organizations do 
and what we do are different things. We are dealing with the 
same subjects. Again, we are doing it on a more parochial 
level.
    For us this is easier. We know these people. We deal with 
them every day.
    Homeland Security, that agency, is a rather remote entity.
    Mr. Caputo. In the course of a week, we are dealing with 
the people that are involved in the security of our area 
several times a day.
    These are the same people that we talk to when there is an 
explosion of a gas line that causes a neighborhood to be 
evacuated.
    These are the same people that will be the first 
responders, along with the news people, I should say, too; the 
news people are also part of that first response team, when a 
train disaster might occur.
    So we are dealing with these folks at a local level quite 
regularly. And we have communication lines opened up to them.
    We are constantly pointing out each other's flaws. I can 
assure you that I have had conversations with the 9/11 people 
in Chicago regarding some things that I feel they have done 
incorrectly. And they do not hesitate to pick up the phone when 
there is a problem with something that we are doing that might 
be perceived as incorrect, or perhaps, is wrong.
    The Homeland Security Department that we spoke of in the 
hearings this morning, as Bob said, as Barbara said, we in the 
local media do not have the kind of relationship with them that 
perhaps you all do here in Washington.
    We are with the folks that are at the police stations and 
the fire stations. And those are the people who are going to be 
the first ones to respond to a disaster. We have relationships 
with them.
    And when there is some issue and something that they are 
doing wrong, we all work on it together.
    Mr. Lucas. Last July, a year ago, I talked to the secretary 
before we went home for a break to say, ``What should I tell my 
first responders? And what is the priority?'' And he said, 
``Interoperability of radio communications.''
    We had a number of application processes you had to go 
through, and we were supposed to set up a single application 
process.
    To me, we still have money we have not put out because we 
have not dealt with that yet. I mean, that is horrific as far 
as I am concerned.
    But getting back to a more specific thing, I think it was 
last May, around Memorial Day, I think the attorney general 
came up with this thing, where there were elevated risks. That 
came out of the attorney general's and the FBI office. But 
Secretary Ridge did not raise the color code.
    How does the media deal with that, when you have one agency 
talking about elevated problems and homeland security? Does 
anyone remember that? Is that confusing?
    Mr. Long. It was certainly a challenge to the writers. We 
try to keep up, and can only report these things. We are a long 
way from the corridors of power in Washington. And we try to 
explain what these terms and phrases mean.
    We play with the hand we are dealt. It is hard work.
    Mr. Caputo. None of these things occur in a vacuum, though, 
for us. I recall specifically the time that you are talking 
about. And it was a bit confusing. And I think the viewers were 
a little confused.
    What we tried to do was to explain what was going on. I do 
not think there is anybody that watches TV newscasts or reads a 
newspaper in this country that is not aware of the general 
nature of threat that we have.
    Our job is to keep the information coming so that they can 
make decisions and understand what is going on.
    Whether the risk is an orange or a yellow is something that 
allows us to talk about it again. And part of what we do with 
our experts and the people that we bring in is to continue that 
dialogue, continue that information flow.
    It is not something that people suddenly wake up one 
morning and say, ``Oh, we were not at risk yesterday, and today 
we are.'' I think people know that we are.
    Mr. Lucas. How am I doing on my time?
    Mr. Shays. The gentleman has one more question.
    Mr. Lucas. That is okay. I am finished.
    Mr. Shays. Okay, the gentleman yields back. And we will go 
to Mr. Dicks.
    Mr. Dicks. You know, I think, as we talked about today, 
earlier, I think the media does a fantastic job when you have a 
hurricane and you know it is coming, and you get all of these 
incredible reports, and people have a sense of what is going to 
happen, or after it hits, you know, the press does a good job 
of covering that.
    I think what is frustrating here, and this is, as I said 
this morning, I mean, the Congress has a responsibility. And I 
commend our committee, as the Chairman has had hearing after 
hearing after hearing, which has given us a chance on the 
Democratic side to ask a lot of questions of the 
administration.
    We are frustrated because we do not think this story is 
getting the kind of coverage that it ought to get about the 
gaps in security.
    Now, I saw some of the NBC reporting, the national 
reporting on the 12 ways we could be safer. We got into 
container security, port security. A number of these issues are 
starting to be covered.
    I think it is the responsibility, one, of our committee, 
for the loyal opposition to present to the American people the 
gaps in security that we see, and let the American people judge 
it.
    But I think the press also has a responsibility--and I 
think it could be done at the local level--to go out an ask the 
hospitals: Do you have the serums? Are you ready for a 
bioterrorism attack if it occurred?
    I mean, there is a lot out there that could be done at the 
local level. I mean, I am thinking of the dirty bomb scenario 
that we went through.
    And we saw what happened when the longshoremen were locked 
out on the West Coast, Mr. Long. And, you know, within four or 
five days, the economy of the country was threatened.
    Well, what happens if we do not get container security 
right, or we do not get port security right? I mean, the 
country is really being left vulnerable.
    And one of the reason for it, frankly, is that we are 
putting all of the money into this war. I supported it.
    But the reality is that we have not been able to fund 
homeland security because all of the money went to fund the 
war, all of the discretionary spending at that level.
    So a lot of us here are very concerned that we are drifting 
as a country, that the press is somehow not as alert to this as 
they should be, and we are trying to raise the red flag.
    We feel like we are failing. But it is a matter of 
considerable frustration that we cannot seem to get the 
attention of the administration that more needs to be done on 
these issues, and that more resources need to be there, more 
effort at the local level needs to be there.
    And the press, which normally would come in and raise a lot 
of tough questions, does not seem to be there.
    Ms. Cochran. Again, I think I know both these gentlemen 
have examples of the kinds of stories that they have done on 
their own stations where they are looking at the security risks 
locally.
    One of the things that we are doing through our workshops 
that we are having in 10 cities is to put journalists together 
with scientists, local experts, public officials, so that they 
get some new ideas and some new resources to be able to go out 
and do these kinds of stories.
    And we have a ton of stuff on our Web site to help people 
figure out what kinds of angles they could be pursuing and so 
on.
    But there are a couple of problems.
    One is, when these stories were done initially, after 
September 11th, news organizations endured severe criticism 
from officials, but also from the public, saying, ``What are 
you doing? You are giving terrorists a road map.''
    And so this is a kind of reporting that needs to be 
approached very delicately and to be explained very clearly. I 
am glad to see that you are endorsing this kind of reporting, 
because it is very important.
    The second thing is what Mr. Turner was referring to 
earlier, a lot of the information that is needed to do this 
reporting is going behind this wall of secrecy that we have 
talked about.
    If the information about the local chemical plant, where a 
truck bomb could set off a disastrous leak and where the fence 
is rotting, it would be very easy, very vulnerable, if 
information like that is now off-limits, because it is for 
official use only or it is subject to sensitive security 
information regulation, we will not be able to report those 
stories. And the public will not get that information.
    Mr. Long. Well, I would just say this, that we are getting 
a lot better at looking at these issues. And we are doing it by 
developing our own sources of information. Journalists will not 
function long in a vacuum. This is anathema to what we do.
    I now have a panel of 15 scientific experts, drawn from 
CalTech, UCLA, USC, other institutions in Southern California.
    The dirty bomb scenario that you mentioned, I am hearing 
that the greatest risk is from flying glass. What are we doing 
talking about dirty bombs? You need to investigate these 
things.
    And we are doing it with not a great deal of input from the 
government.
    This will get hardwired in our process. This is what 
Barbara talks about when she says, ``Keep those cards and 
letters coming. We are going to be getting information from 
somewhere, if you want to participate.''
    Mr. Caputo. I would agree with you that we need to do a 
better job, and we were not doing a very good job in some of 
these areas initially.
    I think Barbara touched on some of the key reasons why.
    We were all very supportive of our government. We felt 
there was a threat. And as Americans, we felt an obligation to 
be part of a solution to that.
    There is also the huge amount of public outcry when some 
stories like that were done, as Barbara indicated. I think now 
we are using opportunities like this, plus in our own 
newsrooms, we are coming up with ways of looking at things and 
trying to do a better job of pointing out the shortcomings. 
That is part of our role that we need to pay more attention to.
    In our situation, we have done stories on some shortcomings 
in security around the port of Chicago and around some of the 
power facilities. It perhaps has not received the publicity 
that it might have received, say, if done on a network evening 
newscast or something along those lines. But viewers in Chicago 
certainly are aware of some of those things.
    We have done stories with hospitals. We have done stories 
with the first responders and the police and the fire about 
what they are up to.
    We need to do more. And I think that hearings such as this 
one and some of the conversations that this engenders, and 
certainly in our company's newsrooms, and we have newsrooms in 
a lot of cities in this country, we will go a long ways toward 
doing that.
    Mr. Shays. Thank you, gentlemen.
    Mr. Turner, you have the floor.
    Mr. Turner. Thank you, Mr. Chairman.
    One of the most essential elements of preserving our 
democracy and our freedom is to be sure that the public 
understands the truth.
    It is frustrating to me, and I want your help. And I would 
appreciate your insight on why this has occurred. It is 
frustrating to me that a few months ago, a poll was done that 
said a majority of the American people believe Saddam Hussein 
had something to do with 9/11. A repeat of that poll was done a 
week or so ago. Now that number is down to 42 percent.
    When such an obvious issue like that is misunderstood by 
the public, it causes me to wonder, where are we going wrong? 
Is it those of us in government who are not speaking out 
clearly? Is it the media that is not sharing the information 
accurately?
    But, you know, it is so clear, having been here when we 
voted on the resolution to go to war, the entire debate was 
about weapons of mass destruction in the hands of Saddam 
Hussein. That is what all the briefings were about. That is 
what the discussion was about. That is what the debate was 
about. And those of us who voted to go to war, I think, did so 
based on that information.
    And yet the public, apparently, even at that time, believed 
that we were going to war because Saddam Hussein had something 
to do with attacking America on 9/11.
    Now, how did we get in that position? Those of you who are 
in the news business have got to have some insight on how that 
could happen. Because, obviously, it is a very dangerous 
circumstance, particularly when we are talking about matters of 
war and peace, that that kind of information could so penetrate 
the public and that belief could be so widely held.
    Could you help me? I would appreciate any of your comments 
or insights, because that is, to me, a very troublesome thing. 
And I am looking for an answer to, why has that occurred?
    Ms. Cochran. Well, I think journalists were just as puzzled 
as you were by that conclusion, because, you know, that was not 
a story that they were reporting directly. They were not making 
that link in the reporting that they were doing.
    But I think you have to look at what our leading public 
officials say and how they portray things and how the situation 
is cast. And I have seen stories on television, I have also 
seen stories in newspapers, that go back and look at statements 
that were made that, when reported--and statements by public 
officials--that, when reported, might have led Americans who 
were very busy and not paying that close attention to come to 
that conclusion.
    We do a lot of things in the news media that we hope the 
public pays more attention to. Not all of it gets through. Not 
all of them are--when they are watching television, they are 
very busy doing lots of other things, and so it can be 
frustrating to the journalists also.
    But, in this case, I think you have to take it back to what 
was being said by public officials at the time.
    Mr. Caputo. The reporting that we do comes from the people 
that we talk to, and when government officials are saying 
things or presenting those things, we are covering that side of 
the story. We try to cover as many sides of stories as we can.
    At that time, to the best I can recall, there was really 
about one side to that story. Try as we might, the side to that 
story was still coming from government officials on both sides 
of the aisle and from D.C. and from other places.
    To the best of my knowledge, none of us ever presented that 
story, never said that. People came to that conclusion based on 
things that they heard or that they thought they heard. I get 
that a lot on very mundane issues, where people will think they 
heard something and then when you read them the actual text or 
whatever it might be, they are somewhat surprised: ``Oh, okay, 
that is what you said. Now I get it.''
    Well, obviously, in this particular case, they did not have 
that opportunity. This was too overwhelming for that.
    Our role is to cover the news and to present the news, is 
to analyze it or provide opportunity for analysis by different 
sides and different opinions and different points of view on 
stories.
    This particular incident that you are talking about, this 
particular study that you are talking about, I regret the fact 
that that might have been a perception that people had from any 
of the reporting that might have been done on TV or on radio or 
in the newspapers.
    But the fact is, it comes from some statements or from some 
things that were covered, and people listened to it or heard it 
some way differently. And our job is to try to keep the record 
as correct as we can.
    Mr. Long. We cannot correct failures of public policy, 
misperceptions. We reported this information. We were as 
surprised by it as the ranking member was.
    Again, it began here. And this was a debate within 
governing circles in this country, not in the media. We were 
not defining the adversary. We were reporting what was said.
    And my statement earlier that, you know, we have to get 
smarter and smarter to keep up with this stuff and nothing is 
simple anymore; yes, we need to, as local news organizations, 
take these large issues and make them relevant to our local 
audiences and keep doing show-and-tell. It is very important.
    But we cannot make up for deficiencies in public policy.
    Mr. Turner. Let me turn to another issue that I think may 
have had some impact on the issue I raised about the public's 
false perception that Saddam Hussein had something to do with 
9/11. But it also, to me, could be an issue that could be very 
damaging in the event, as I think likely, we get into other 
terrorist incidences and explanations for them.
    There seems to be a blurring of the line between news 
reporting and news analysis. And, to me, in some of the 
networks where I see that occurring, it seems to be a very 
dangerous trend. And I would assume that blurring of that line 
would be something that would be deeply troublesome to the vast 
majority of the members of the Radio, Television, News 
Directors Association.
    But what is your perception on that? Am I correct that that 
seems to be a trend that perhaps was not with us before? And 
what can we do about it, or what can you do about it in 
policing your own profession?
    Ms. Cochran. Well, I think that, you know, what you are 
touching on is the growth, in the television medium, of what 
began in radio; that is, talk as a form of, really, almost 
entertainment, but where strong political opinion is offered 
and then reacted to by the audience or by guests.
    And I think that the--I think there is a danger that the 
line becomes blurry. And especially if you see a journalist who 
plays one role as a straight reporter in one context and then, 
in another context, is asked to give their opinion or their 
analysis which sounds an awful lot like opinion. I think that 
is something that I think most journalists look at with a lot 
of concern.
    There are a lot more people who are appearing on television 
now who come from the world of politics rather than the world 
of journalism, and what does that mean?
    Still, the audience seems to be able to sort these things 
out, from what we can tell, that they can distinguish between a 
show that has opinion in it and a show that is straight 
reporting.
    I think I mentioned earlier that one of the things that we 
are very gratified about is that local television news not only 
continues to have a very large audience, but it also continues 
to do very well in terms of public trust. And I think that has 
to do with its fact-based, straight-ahead, very relevant 
reporting in an effort to be balanced.
    Mr. Shays. Thank you. The gentleman's time is expired.
    I would like to take the opportunity to ask some questions.
    And I am going to try to be as honest as I can be about 
something, not as careful about maybe how I should say it. But 
it galled me, when we had the Iranian hostage crisis, that the 
news media talked about day one of America being held hostage, 
day two, day three, day four, day five. I felt the news media 
was creating the news and giving tremendous power to the 
Iranians.
    And the best proof of that to me was, when they did not 
like the reporting in the news media when it got to be day 200 
or day 300, they kicked you all out. They kicked all our media 
out. And we stopped reporting about it, and we did not have day 
320 and day--and Americans stopped caring, and we stopped being 
held hostage.
    And then what happened was they invited the news media back 
in, because the American public was losing interest. And we 
never, ever, during a world war, talked about the number of 
times people were held prisoner and holding us hostage that 
way.
    I guess my point is, I want to know, when is the media 
creating the news, creating the story, continuing the story, 
and when are they contributing to just knowledge?
    That is my bias about the Iranian circumstance. I have been 
to Iraq six times. I have been four times outside the umbrella 
of the military. I have spoken to everyday Iraqis. And I will 
tell you, I have never felt the news media has gotten the view 
of Iraqis on the media.
    And I admit that you all are more local and national than 
international in, maybe, your coverage.
    But I would have soldiers tell me that they would be 
talking to another Iraqi and having conversation, and that news 
truck would come, the news media would come, and all of a 
sudden, someone would come down from the back, shake their 
fist, the media would take a picture of it, and that would be 
on the nightly news. Because they got to watch it. And then 
when the media left, they would go back and have a nice 
conversation with the Iraqis who were there.
    Or, when I was in the Peace Corps--so I want you to address 
those two issues, because I really feel like the media creates 
the story as much, sometimes, as they report it. That is my 
view.
    I would love some comments. Not long answers, but some 
comments.
    Ms. Cochran. You know, I--
    Mr. Shays. Why don't we start the other way? Mr. Long, 
just, if I could, just because it is always starting that way.
    Mr. Long. Well, she is our captain.
    Mr. Shays. No, she is your boss--you are her boss.
    Mr. Long. Yes, the way Congress works, too.
    I think we are confusing the media and journalism, 
marketing and the message. It is not all one monolithic thing.
    When ``Nightline'' was created during the hostage crisis, 
this was their banner headline. This was a way to draw 
attention to a brand new newscast, a new half-hour of 
information--a marketing decision to help deliver information.
    I did not have a lot to do with covering that war.
    Did we create events? I have never seen an example, in my 
40-some years, of a story that I did changing the course of 
events--hastening, slowing. These are things we wrestle with 
all the time.
    But if we are criticizing ourselves, are we criticizing the 
practice of journalism? Good journalism dictates that you do 
the story about the G.I. who is passing out candy and helping a 
local shopkeeper repair their store, just as you do about the 
insurrectionists. And I have seen those stories, too. Good 
journalism demands that.
    Mr. Shays. Let me ask Mr. Caputo to answer the question.
    Mr. Caputo. I think the presence of the camera always is 
going to change some of the dynamic of any event. The presence 
of three people rather than two will change the dynamic of an 
event. The presence of 10 people rather than eight will change 
the dynamic. I think that is a natural occurrence.
    To the specific that you talked about, where somebody 
claimed that a group was talking and a camera came by and then 
they started raising their fists and then when the camera left 
they stopped, I do not doubt that that happens. But I also do 
not doubt that there are some sincere emotions that, perhaps, 
the raising of the fist represents, and that is part of our job 
to present that and to show that.
    We do the best we can in order to make sure that whatever 
we show is accurate and is truthful, and we try to be as 
objective as we can be and as fair as we can be.
    Mr. Shays. Yes. What this triggers is something else that I 
see, though. When I was in the Peace Corps for two years, I 
read the Newsweek international edition and Time magazine 
international edition.
    When my wife and I came home, I swear we thought that we 
were going to see barbed wire around every public place. And we 
were shocked that it was--yes, there was unrest and there was 
marches and so on, but it was a part of a particular area or it 
did not happen all the time.
    But because that is the only thing we got, because we were 
two years isolated, no TV or anything, just got that--and it 
got me thinking of this: If I looked at the local newspaper and 
I did not live in the community, I would have one view; but if 
I live in the community, I can understand that what you hear 
about a bank robbery every, you know, four months, was 
isolated. Whereas, if I just got the news and I was not there--
being there, I can take the news and I can put it all in 
perspective. Not being there, the news has a different view.
    And it got me wondering if, is there a greater 
responsibility to get the full picture when it is more 
international, when no one is there ever?
    And maybe it is not sexy to talk about the umpteenth number 
of days that these guys went out and never encountered a 
problem--I am talking about our troops.
    You see the difference I am trying to say? I mean, in your 
local media, they know, in Los Angeles and Chicago, that what 
you report is not a typical experience in those communities. It 
is an event that took place that catches their interest.
    Does that make sense to you?
    Mr. Caputo. Well, it may also be an event that not only 
catches their interest, but it is an event that has some 
significance in the community because it, perhaps, represents 
something else or will result in some sort of action. If it is 
a series of traffic accidents at a corner, is there a problem 
with that corner? Those kinds of things, those are parts of 
what we report, and that is part of what that reporting is 
about.
    Some of your comments remind me of something that Walter 
Cronkite once said: ``Our job is not to report the cats that 
did not get lost today.'' I have always remembered that, 
because I think that our job is to report things that happen 
that need to be known, as painful or as sorrowful as they might 
be, in order to provide an informed electorate or an informed 
viewer.
    Mr. Shays. But the bottom line to all of it is that it is 
not typical of what is happening every day in your society. You 
are not reporting what did not happen. But people make 
assumptions when you report on news overseas that that is 
typical of the day. And when I talk to the troops who are there 
and I talk to Iraqis who are there, their day is not typical of 
what I see on CNN or any other news that night. But then my 
constituents think that is typical. That is, you know, the 
quandary we are in here.
    My time has run out, and I go to Ms. Jackson-Lee. I am 
going to do a second round if you do not mind.
    Ms. Jackson-Lee, you have the time.
    Ms. Jackson-Lee. Thank you very much, Mr. Chairman. And I 
thank the ranking member for holding this hearing. I thank them 
because, obviously, I think all the work that we do is 
important.
    I think that I would be remiss if I did not add, however, 
my concern about the need for the Select Committee on Homeland 
Security to both hold hearings, and more importantly, mark up 
important legislation that I believe needs to be introduced 
regarding the 9/11 Commission, the reorganization of the 
intelligence community and issues such as that.
    To the distinguished panel, I will probably make some 
remarks and then ask for your comments, because I do not know 
if you can please all of us all the time, because I am going to 
wear a completely different hat almost from Congressman Shays 
in terms of your reporting and, frankly, fault you for, I 
think, buying, even at the local level and I guess disseminated 
by your networks, the connection and nexus that was falsely 
made between 9/11 and Iraq.
    All of the hype was relayed, if you will, by the media, 
which convinced the American people that we had to support, at 
least, the president's stance on the attack on Iraq.
    And although there was some alluding to dissent and there 
was some coverage of dissent, it was few and far in between. 
And I remember it, because I do not think individuals who were 
intelligently and well-informed in opposition to the war got 
much airtime locally or otherwise, unless they were in some 
kind of altercation with those who supported the war.
    So, in your answers, I would just like you to recall as to 
how you received information during that fall debate of 2002 
when there was a debate going on about the choices to be made 
on the war question.
    Then I would like to move to the idea that I think you are 
very vital in disseminating information locally to secure the 
homeland, to secure neighborhoods, towns, counties and cities.
    And I would be interested in how you discern when you 
should make--how we are effective in communicating to you, to 
give the right kind of information, to make announcements, 
whether it was the alert system, where the alert announcements 
were coming in, or whether or not you feel you are adequately 
equipped to receive information if we wanted to announce that 
we thought a particular area was being targeted. And how would 
your local and your network stations and your radio stations, 
how would you respond to that?
    I am also concerned with what we have seen in your industry 
over the past couple of years, and that is the multi-
conglomerates, the mergers of--the gobbling up of print media, 
radio and television. This sort of vertical integration, if you 
will, I am extremely concerned about.
    And I bring to your attention the Court of Appeals for the 
Third Circuit recently ruled on the FCC's action that would 
allow for more media consolidation. You have spoken about--we 
have discussed in this hearing about the role of media in 
alerting the public during disasters. An often-cited example, 
as I have mentioned, is this whole media consolidation.
    And I draw your attention to an incident in January of 2002 
in North Dakota, where all of the local stations--radio 
stations, I assume--are owned by Clear Channel Communications, 
and the lone radio employee was unavailable to respond to a 
train derailment and the spill of thousands of gallons of toxic 
chemicals.
    So what do we do with this idea of the continued megasizing 
of media, if you will, and making sure that all segments of our 
community get information?
    Lastly, let me say that we know--and I would not in any way 
make the suggestion right now; I may make it later on--that you 
do not report issues dealing with terror, the war or anything 
else on the basis of ratings. I would hope that would not be 
the case. And I hope that you would be eager to make sure that 
all information is brought to the American public's attention.
    And the reason why I say that is: You can build up 
patriotism, which we all support and promote, but you can also 
build up intelligence and intelligent decision-making by the 
information that you generate, particularly those who deal with 
pictorial and hearing, because that is mostly what Americans 
do, they watch TV screens or they drive and listen to radio.
    So, would you give me, in the last point, your sense of 
responsibility in making sure you disseminate information that 
will allow Americans to make intelligent decisions?
    And I would hope that you all would comment, and I will 
start with Ms. Cochran. And I gave you about three major 
points.
    Ms. Cochran. A lot of ground to cover. Maybe I will go in 
reverse order here.
    You know, I think we do, certainly, feel a responsibility 
to cover this and other important stories. And questions of 
personal security, questions of community security, questions 
of terrorism threats are very, very interesting to the public. 
And so, covering these issues is something that, you know, 
certainly is going to be well-received and it is not ratings 
poison, as we sometimes say about some kinds of stories.
    So it is a topic that I think all newsrooms are paying a 
lot of attention to and trying to build up their expertise on. 
And there is an awful lot of information that has to be 
assimilated, news sources that have to be found, all that kind 
of thing. I think newsrooms are in the process of doing that 
now.
    You mentioned consolidation. And I guess, just as today we 
have talked about sometimes tensions between news media and 
government officials, I would say within companies there is 
often a tension between the news department and the owners who 
say how much money the news department has to spend.
    And I think, as we watch, those of us who are on the 
journalism side of the line, watch what is happening in terms 
of the economics of our business, I think our principle concern 
is an understanding that it is very important to protect the 
news coverage from undue commercial or other kinds of financial 
influences that would somehow harm that news product.
    And, I think, you know, we, our association, says that the 
best business policy is to have a very strong news product and 
to not undermine the integrity of that news product. So, that 
is our position on that.
    What happens in that is something that is certainly not in 
our control and something that our bosses are dealing with.
    I think I talked already about the alert systems.
    And then the information that--we talked about the 
misimpression that some Americans got about the connection 
between 9/11 and Saddam Hussein, and we talked about the fact 
that some of that is because we are reporting what the debate 
is in places like Washington.
    And, you know, if you will remember then, the opposition 
party was not necessarily always in opposition. I mean, 
government officials were receiving the same kind of 
information, news media were receiving the same kind of 
information, and so it was harder to find dissenting voices.
    And I think whenever there is a common agreement on a 
policy and there is not, you know, a back-and-forth, it is 
going to be harder to illuminate other aspects of that 
question.
    Ms. Jackson-Lee. The light has--
    Mr. Shays. If you have a follow-up question--I am going to 
just close up, but if you would like to follow up with the 
other two members who are--
    Ms. Jackson-Lee. Yes, let me do this if--and thank you, Mr. 
Chairman. I will just be very, very quick.
    If you could just pick one of those and quickly answer. I 
will not let you go over all of them.
    And I will just throw this sentence for the record: I think 
one of the striking examples of whether or not we can be a 
media system that, you know, reports or seeks to report is the 
actual shut-down of the coverage of the bodies coming home as 
was done on Vietnam. That was done by the administration. I did 
not hear any media outlet contest that. And many families were 
not opposed to the honoring of their dead coming home, but 
there was a complete blackout on that. So I would just make 
that point on the record.
    But if you would refer to the other points that I asked 
about--the terror question, disseminating information--and then 
we will close out.
    Thank you, Mr. Chairman.
    If you could just take one question a piece, and I will 
yield back my time.
    Mr. Long. Well, I was the news director here in Washington 
during the roll-up to the war, and frankly, we were more 
interested in the impact on the local economy and what would 
happen to local Reserve and National Guard units. That is how 
we chose to localize the story.
    There was not a great public debate. Again, this is 
national news coverage, local news coverage. And we are taking 
the issue, an imminent war, what would it do to the Washington, 
D.C., area? That is how we covered it.
    Ms. Jackson-Lee. And the only thing I will say on that is, 
the public debate was not given air, because it was there, but 
we were not covered it.
    But anyhow--and I appreciate it--Mr. Caputo, I think?
    Mr. Caputo. Yes. I want to talk a second about one of the 
things you asked, if we are properly structured to deal with 
events--
    Ms. Jackson-Lee. Yes.
    Mr. Caputo. --in the homeland security area--
    Ms. Jackson-Lee. Absolutely.
    Mr. Caputo. --which I think is why we are here today.
    The short answer to that is, I do not think so. I do not 
think we are properly structured. I think we are working our 
way there. I know in Chicago we have conversations on a fairly 
regular basis with the people who are the officials in charge 
of this. And by ``regular basis,'' I am probably talking like 
every couple of months or so.
    We need to have more of those conversations. And we need, 
as news media--I think this was brought up in the panel this 
morning--we need to be able to participate a little more fully 
than we have in some of the exercises that are done to help 
test the systems of homeland security.
    One of the things that we have talked about in Chicago is 
actually being a little more a participant in that, rather than 
just observers, and actually having two roles: one, to observe, 
and the second one, to participate.
    I think that our obligation to make sure that people know 
what is going on and know the answer and where they need to go 
and what they need to do in the event that some sort of an 
incident or some sort of an attack override just about any 
other obligations that we can think of, and that needs to be 
worked out and continued to work on.
    Ms. Jackson-Lee. I thank the Chairman.
    Mr. Shays. I would love all three of you, with short 
answers, to explain to me an experience that I went through and 
help me sort it out. And it had to do with the whole issue of 
terrorist warnings, you know, Code Yellow to Code Orange, 
elevated to High, and then you have Red which means you are 
under attack.
    And in December last year, it blew me away the way the 
press dealt with this. This committee and others had briefings 
that we were aware of a terrorist attack, potentially, using a 
dirty weapon, targeting five cities, to be done at a high-
profile event. We were also aware that there was likely to be a 
hijacking of aircraft from Europe.
    Now, having that briefing, I found myself saying to my 
daughter, ``If you go to Washington, do not go on New Year's 
night, go on New Year's Day.'' Because she wanted to go into 
New York. So I was telling my daughter--I cared about my 
daughter. I found myself saying to my friends, ``Do not fly to 
Europe, because you will have to fly back.''
    And then I started to feel guilty, because I was telling 
everyone I loved and my friends how to protect themselves, and 
then I started having the public call me. ``My school is going 
to Europe, what would you do?'' And I would tell them what I 
knew.
    And then I found myself saying, ``Well, if that is what I 
know''--then I had the press say to me, ``What does this mean, 
these warnings?'' I said, ``Well, it means the following,'' and 
I described to them what it means. And I was sorely criticized 
in the national media for that, sorely criticized because I 
suggested that, unless it was an emergency, I would not go New 
Year's night to Times Square.
    Now, I realized I could have handled it better. I could 
have said, you know, ``This is what the potential is. Make up 
your own mind.'' In other words, give them that information.
    There were only two media people in the entire country, 
that I read, that in any way supported my telling people what 
the real threat was. And everyone else--just basically, I have 
never gotten more criticism on anything I have ever done.
    When I asked the staff who heard it, they said that they 
would not go. They would not let their family members go, and 
they told their friends not to go.
    So, help me sort out why I should think the way the press 
handled that was right. I know I could have handled it better. 
But what does the public have a right to know?
    If the terrorists know that they are going to do it, why 
shouldn't the public know what the terrorists already know? And 
why should it have--and then when I questioned, to conclude my 
story, when I questioned the number-two person at Homeland 
Security after the event, a month later, I said, ``What did we 
know?'' He said, ``I cannot tell you. It is classified. It has 
to be behind closed doors.'' Well, it was already, by then, in 
the media. I mean, it was an absurdity to me.
    Help me sort out what you would do, as news media, on a 
circumstance like that? And what does the public have the right 
to know?
    Mr. Long. I would love to have had you on television.
    Our problem with these things is that--and I do not know 
this scenario, I do not know who criticized you, or--we love 
information. I am sorry somebody picked on you. I would have 
put you on TV.
    Mr. Shays. It is a big disincentive, I will tell you that.
    Mr. Long. Well, again, a problem usually with this kind of 
thing is, we do not know what to say beyond the color.
    Mr. Shays. Well, let me ask you--
    Mr. Long. We go to local police authorities, they do not 
know. This would have been a nice bit of information.
    Mr. Shays. So, in other words, okay--
    Mr. Long. An interpretation from a ranking member of 
Congress on the meaning of a warning sounds to me like news.
    Mr. Shays. Well, let us say I did not even say it. What 
happens if you found out what the warning was based on?
    Mr. Long. It is a totally different--you were criticized 
for giving up classified--
    Mr. Shays. What I am trying to--and I do not mean to keep 
my colleagues here.
    What I am trying to sort out is, I believe the warnings 
system--you and I may have a disagreement on this--I believe 
the warnings system should be shared. I just believe people 
should know what is the basis behind them, and then people can 
make intelligent decisions. That is my belief.
    What is your belief, Mr. Caputo? And then Ms. Cochran.
    Mr. Caputo. I agree. We should know what is behind the 
warnings and we should have that information to let people make 
judgments based on that information. It goes back to something 
I said at the very beginning: I have an innate trust of people. 
They get information, they are able to make decisions. You made 
decisions based on warnings that you had about some threats 
that you perceived to exist. Other people had a right to make 
those decisions on their own.
    Our obligation is to have that--our obligation is to not 
only, however, present that information, but then to also 
present it in a context that makes sense. And when we are given 
partial information, or not always all the information, then 
the context is lacking. And that is not a good thing.
    Ms. Cochran. I agree with my colleagues. The more 
information that you get to explain what is behind the threat 
level, the better.
    Mr. Shays. Do you mind one more? Just one more that the 
staff had asked about, and I think it deserves to have you 
respond to. In the worst case, news is no different than--in 
the worst case--than entertainment industry, both, you have 
both villains and heroes. I mean, news can be entertainment in 
its worst case.
    When you have the news reporting on household names like 
Carlos the Jackal or the Meinhof Gang or Son of Sam and, you 
know, you almost create this, this celebrity by constantly 
calling them the name.
    Do you feel that there is reason for the media to rethink 
that? Or do you think it is just part of the process? You give 
him a name and you start talking about him and it is every 
night, Son of Sam did this, Son of Sam--you know what I am 
saying? The guy was a blatant killer who shot people at close 
range. Should we be giving them names like that?
    Mr. Long. Not all of us do that. I do not think it is 
particularly bad. It identifies an ongoing story. That is one 
way to look at it. If you are trying to get some sizzle going 
there, if you are tabloiding it, that is another motivation.
    So for shorthand, it is not a bad idea. This is not the 
story you heard before, this is the next chapter. I do not mind 
labeling things. It is the intent. If the intent is to make 
this more understandable to you, to get you back into the 
context of the story without having to begin at the beginning, 
then it is probably a good thing.
    If it is just to titillate you, this is not the kind of 
news that we do.
    Mr. Caputo. I have taken a lot of these. I am not sure 
anybody sees them as heroes or as anybody other than what they 
are, the villains, or whatever it might be that they are. The 
Son of Sam is a perfect example. I do not know anybody that 
thought of the Son of Sam as a hero or anything other than a 
felon. Even law enforcement gives names to various people: the 
Clown Killer in Chicago--the Killer Clown, I should say, in 
Chicago, John Wayne Gacy.
    Mr. Shays. I wonder what they think.
    Mr. Caputo. Who? The law enforcement folks? I have talked 
to them. They--
    Mr. Shays. No, the Son of Sam. I wonder if he began to 
see--
    Mr. Caputo. I--
    Mr. Shays. I wonder if this just perpetuates, but I guess--
    Mr. Caputo. It is possible that it does, sir, you are 
absolutely right: It is possible that it does. But I think that 
our--you know, in the shorthand that exists in the business, I 
think people know what we are talking about, and I do not think 
it glorifies anybody, it just makes it a little easier to 
communicate information.
    Mr. Shays. Well, let me thank all our witnesses. There is 
lots more questions that could be asked, and there may be some 
members who are not here who would like to ask a question of 
you and we hope you would be very willing to respond if they 
did have a question.
    I thank all three of you, sir. If you want to put on the 
record--that may be something we should have asked that we did 
not that you would like to put on the record?
    Well, we thank all three of you for your participation, and 
we will call this hearing to a close. Thank you.
    [Whereupon, at 2:13 p.m., the committee was adjourned.]

                             FOR THE RECORD

  Submitted by Randy Atkins, Senior Media Relations Officer, National 
             Academy of Engineering, The National Academies

    This country isn't ready to deal with a catastrophic terrorist 
attack, and government preparedness may not be the biggest problem. 
Indeed, one of the most critical parts of our infrastructure--the 
nation's news media--doesn't appear near the top of anyone's list of 
concerns. They should be of utmost concern to those responsible for 
homeland security.
    I suspect, though, that most defense types simply regard 
journalists as pests at best, maybe even a threat to national security. 
They generally feel the media are to be avoided as much as possible and 
told as little as possible. But with the country's increased focus on 
security here at home, I think that the strength of the news media is 
more important than ever.
    When we think of infrastructure, we usually think of tangible 
things that bind us together: our water supply, transportation 
networks, energy pipelines . The media, too, belong in this category. 
They are the main communication conduit to the public, carrying 
valuable information from one place to another. The interconnectedness 
of these modern infrastructure systems allows greater efficiency, but 
it also creates new vulnerabilities. And the news media may be the 
weakest link in this system.
    We need to protect the media as zealously as we protect the 
electric power grid and nuclear reactors, and not just their printing 
plants and broadcast towers. Their journalists also need to be armed to 
work effectively as part of the nation's response to terrorism. And to 
do that, they need the help of the engineering and science community.
    A couple of months ago, I was on a panel at a meeting of the 
Associated Press Managing Editors, and I began by asking who knew 
anything about the place where I work--the National Academy of 
Engineering (NAE). Not one editor in the room raised a hand, and this 
was a group interested in participating in a discussion about science 
and technology reporting. I bet I would get the same response from an 
audience of government policymakers.
    Here's what scares me: Neither the media nor the government value 
the roles of science and technology as much as the terrorists do. While 
terrorists see Western civilization as bad, they have demonstrated both 
their adeptness and willingness to take from it what they need--
chemicals, computers, planes. In the same way, while calling us an 
entertainment-obsessed culture, they use our media, too, to full 
advantage--counting on journalists to dramatically present the 
terrorists' ghastly handiwork.
    Ignorance and misinformation can be as damaging to the information 
infrastructure of the United States as a break in an oil pipeline. It 
can cause paralysis among citizens, and confuse people trying to 
respond to a crisis. As a local police chief recently said, ``You can't 
build a fence around a community, but you can arm your citizens with 
knowledge.'' American journalists have few precedents for these 
emerging terrorist threats--it's different from traditional war 
reporting. Organizations like mine must work hard to get good 
information into the hands of the media quickly in the event of any 
cyber, nuclear, chemical or biological attack. Journalists need instant 
access to trusted experts who are good communicators.
    I would go so far as to argue that getting good information to the 
public in the midst of a crisis can be more vital than the actions of 
first responders. In fact, journalists are first responders. Not only 
do they sometimes get to the scene first, but they are the only ones 
focused on and able to describe the level of risk to the public. They 
can save lives through the efficient delivery of good information.
    With today's 24-hour coverage, journalists are under tremendous 
pressure to say something--anything--and to say it first. Of course, 
this can lead to speculation, which is not always harmless. In fact, 
sometimes it can cost lives. This isn't just the media's problem. It's 
the engineering and science communities' problem, too.
    At the NAE, we have wrestled with the question of how to help the 
media become better informed and more conscious of their importance in 
the event of a terrorist attack. The media, after all, are a vigorously 
independent bunch, constitutionally protected and--to the nation's 
benefit--outside of government control. So the NAE has decided to 
conduct a war game exercise that, for the first time, would focus on 
the media. The goal is to develop new communication strategies for 
cutting through the chaos of a terrorist attack, as well as to develop 
better connections between the journalists and the scientists and 
engineers.
    I mentioned our war game idea to a major news organization, and the 
executives there replied that they felt they had already been tested by 
9/11. Well, yes, to a point. But next time--which we are constantly 
warned will come --could be worse. Accurate and efficient communication 
with the public during a catastrophic attack will require more 
technical expertise than was needed on 9/11.
    Based on past experience, I know that I'm facing an uphill climb. 
Shortly after the Sept. 11 attacks, for example, the NAE held a daylong 
briefing for senior news executives from across the country on the 
technical aspects of various forms of terrorism. We were pleased that 
the TV networks sent a camera crew over for pool coverage. The crew got 
there early, but didn't turn on its cameras during any of the morning 
briefings--and the briefers included some of the nation's premier 
experts. The cameras were only there to record the words of the 
luncheon speaker, Tom Ridge. Then they left.
    Too often, journalists take the path they're most comfortable 
with--which often means the political angle. Even during the anthrax 
attacks, journalists were turning to members of Congress and their 
staffs for technical answers.
    I think that, in part, this is because politics is a form of 
theater, and entertainment trumps substance in the ratings. Let's face 
it, news is about people and personalities. I know the journalistic 
importance of storytelling and of doing it in compelling ways. The 
public, unfortunately, has been trained to have a limited and shallow 
attention span. If we want it to get information at all, that 
information must be ``packaged'' correctly.
    The challenge--for both scientists and journalists--is to make 
science, technology and engineering more intriguing; to make it, 
whether in wartime or not, more a part of popular culture. The media 
don't take their role--their responsibility--seriously enough. They 
aren't just a business. They are part of this country's infrastructure 
and times have changed.
    We need the media to keep challenging the government, because that 
friction makes us all stronger. But uninformed journalists can't 
effectively question authority. For example, well-meaning but misguided 
government efforts to classify too much information could harm national 
security by slowing the delivery of research results beneficial to 
society. And unless the public is well-informed, it won't know how to 
analyze the issues and know how to assess the information being 
provided by its leaders.Before 9/11, people like me chuckled as 
journalists churned out their usual ratings-grabbing fare, overlooking 
important stories while providing full details on the psychology behind 
the contestants on "Survivor." Just as terrorism was not at the 
forefront of many journalists' minds before 9/11, I think it's being 
slowly overshadowed again by today's trivial obsessions.Randy Atkins is 
senior media relations officer for the National Academy of Engineering, 
one of several independent organizations created by Congress to advise 
the nation on issues involving science and technology.
    ``Washington Post, Outlook, Jan. 26, 2003''

                                 <all>

</pre></body></html>
